                 

                 

                    U.S. ENVIRONMENTAL PROTECTION AGENCY 

                    OFFICE OF INSPECTOR GENERAL 




                    Audit of EPA’s
                    Fiscal 2012 and 2011
                    Consolidated Financial
                    Statements
                    Report No. 13-1-0054               November 15, 2012




Scan this code to
learn more about
the EPA OIG.
Abbreviations

CFC           Cincinnati Finance Center
EPA           U.S. Environmental Protection Agency
FFMIA         Federal Financial Management Improvement Act of 1996
FMFIA         Federal Managers’ Financial Integrity Act of 1982
FY            Fiscal Year
GAO           U.S. Government Accountability Office
GL            General Ledger
IFMS          Integrated Financial Management System
LVFC          Las Vegas Finance Center
OARM          Office of Administration and Resources Management
OCFO          Office of the Chief Financial Officer
OEI           Office of Environmental Information
OIG           Office of Inspector General
OMB           Office of Management and Budget
RMDS          Resource Management Directive System
RSSI          Required Supplementary Stewardship Information
RTPFC         Research Triangle Park Finance Center
SOD           Statement of Differences
SSP           System Security Plan




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                           13-1-0054
                                                                                                  November 15, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Audit of EPA’s Fiscal 2012 and 2011
We performed this audit in          Consolidated Financial Statements
accordance with the Government
Management Reform Act, which         EPA Receives an Unqualified Opinion
requires the U.S. Environmental
Protection Agency (EPA) to          We rendered an unqualified opinion on EPA’s consolidated financial
prepare, and the Office of          statements for fiscal 2012 and 2011, meaning that they were fairly presented
Inspector General to audit, the     and free of material misstatements.
Agency’s financial statements
each year. Our primary objectives    Internal Control Material Weakness/Significant Deficiencies Noted
were to determine whether:
                                    In October 2011, EPA replaced the Integrated Financial Management System
  EPA’s consolidated financial     with a new system, Compass Financials (Compass), and we determined that
   statements were fairly stated    Compass reporting and system limitations represented a material weakness. In
   in all material respects.        addition, we noted the following significant deficiencies, some of which involve
  EPA’s internal controls over     Compass and contributed to the material weakness:
   financial reporting were in
                                      Posting models in Compass materially misstated general ledger activity
   place.
                                       and balances.
  EPA management complied
                                      Compass reporting limitations impair accounting operations and internal
   with applicable laws and
                                       controls.
   regulations.
                                      EPA did not reverse approximately $108 million in expense accruals.
The requirement for audited           Compass system limitations impair internal controls of financial operations.
financial statements was enacted      Accounts receivable internal controls contained numerous deficiencies.
to help bring about improvements      EPA did not timely clear Fund Balance with Treasury Statement of
in agencies’ financial                 Differences transactions.
management practices, systems,        Compass did not have sufficient controls over personal property entries.
and controls so that timely,          Compass and the Maximo property system cannot be reconciled.
reliable information is available     EPA did not monitor the testing of networked information technology assets
for managing federal programs.         to identify commonly known vulnerabilities.
                                      EPA lacks reliable information on security controls for financial systems.
This report addresses the
following EPA Goal or                Noncompliance With Laws and Regulations Noted
Cross-Cutting Strategy:
                                    EPA has limited assurance that its Compass service provider’s controls are
  Strengthening EPA’s              designed and operating as intended.
   Workforce and Capabilities
                                     Recommendations and Planned Agency Corrective Actions
For further information, contact
our Office of Congressional and     The Agency disagreed with most of our findings but accepted many of our
Public Affairs at (202) 566-2391.   recommendations. In particular, the Agency stated it identified and then fixed or
                                    remediated most of the limitations of its new Compass system and, thus, there
The full report is at:              were no material issues during the preparation of the financial statements. The
www.epa.gov/oig/reports/2013/       Agency characterized the errors we found as normal problems during collection
20121115-13-1-0054.pdf              and verification activities. However, we disagree that was the case. The errors
                                    we found occurred primarily because of posting models deficiencies in the new
                                    system and the failure of internal controls to detect and correct the errors.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                         November 15, 2012

MEMORANDUM

SUBJECT:	 Audit of EPA’s Fiscal 2012 and 2011 Consolidated Financial Statements
          Report No. 13-1-0054


FROM:          Arthur A. Elkins, Jr.

TO:	           Barbara J. Bennett
               Chief Financial Officer

               Craig E. Hooks
               Assistant Administrator for Administration and Resources Management

               Cynthia Giles
               Assistant Administrator for Enforcement and Compliance Assurance


Attached is our report on the U.S. Environmental Protection Agency’s (EPA’s) fiscal 2012 and
2011 consolidated financial statements. We are reporting a material weakness and 10 significant
deficiencies. We also identified an instance of noncompliance with laws and regulations related
to reviewing controls over financial reporting. Attachment 3 contains the status of
recommendations related to significant deficiencies reported in prior years’ reports.
The significant deficiencies included in attachment 3 also apply for fiscal 2012.

This audit report represents the opinion of the Office of Inspector General, and the findings in
this report do not necessarily represent the final EPA position. EPA managers, in accordance
with established EPA audit resolution procedures, will make final determinations on the findings
in this audit report. Accordingly, the findings described in this audit report are not binding upon
EPA in any enforcement proceeding brought by EPA or the Department of Justice. We have no
objections to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 60 calendar days of the final report date. The response should address all issues and
recommendations contained in attachments 1 and 2. For corrective actions planned but not
completed by the response date, reference to specific milestone dates will assist us in deciding
whether to close this report in our audit tracking system. Your response will be posted on the
OIG’s public website, along with our memorandum commenting on your response. Your
response should be provided as an Adobe PDF file that complies with the accessibility
requirements of Section 508 of the Rehabilitation Act of 1973, as amended. The final response
should not contain data that you do not want to be released to the public; if your response
contains such data, you should identify the data for redaction or removal along with
corresponding justification.

Should you or your staff have any questions about the report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899; or Paul Curtis, Director, Financial
Statement Audits, at (202) 566-2523.


Attachments


cc: See appendix III, Distribution
Audit of EPA’s Fiscal 2012 and 2011                                                                                        13-1-0054
Consolidated Financial Statements


                                      Table of Contents 

Inspector General's Report on EPA’s Fiscal 2012 and 

2011 Consolidated Financial Statements.....................................................                                         1


     Review of EPA’s Required Supplementary Stewardship Information, 

     Required Supplementary Information, Supplemental Information, and 

     Management’s Discussion and Analysis .......................................................................                   2


     Evaluation of Internal Controls ......................................................................................         2


     Tests of Compliance With Laws and Regulations .........................................................                        7


     Prior Audit Coverage.....................................................................................................      8


     Agency Comments and OIG Evaluation .......................................................................                     9


Attachments ................................................................................................................       10


     1. Internal Control Material Weakness and Significant Deficiencies ..........................                                 10 


          Material Weakness

               Compass System Limitations Are a Material Weakness to 

               EPA’s Accounting Operations and Internal Controls ............................................ 11 


          Significant Deficiencies

               Posting Models in Compass Materially Misstated GL Activity and Balances .......                                     13 

               Compass Reporting Limitations Impair Accounting Operations and 

                     Internal Controls .........................................................................................   17 

               EPA Should Improve Controls Over Expense Accrual Reversals ........................                                 22 

               Compass System Limitations Impair Internal Controls of Financial Operations ...                                     24 

               EPA Should Improve Compliance With Internal Controls for 

                     Accounts Receivable ..................................................................................        27 

               EPA Is Not Clearing Fund Balance with Treasury Statement of 

                     Differences Timely .....................................................................................      31 

               Property Internal Controls Need Improvement ....................................................                    33 

               Compass and Maximo Cannot Be Reconciled.....................................................                        34 

               EPA Needs to Remediate System Vulnerabilities That Place 

                     Financial Data at Risk ...............................................................................        35 

               OCFO Financial Systems Security Documentation Needs Improvement ............                                        38 


     2. Compliance With Laws and Regulations ................................................................                      40 


               EPA’s Compass Service Provider Needs to Assess Controls 

                    Over Business Processes Affecting EPA ................................................                         41 





                                                             -continued-
Audit of EPA’s Fiscal 2012 and 2011                                                                                              13-1-0054
Consolidated Financial Statements


     3. Status of Prior Audit Report Recommendations .....................................................                              43 


     4. Status of Current Recommendations and Potential Monetary Benefits ..................                                            45 


Appendices ..................................................................................................................           48


       I.      EPA’s Fiscal 2012 and 2011 Consolidated Financial Statements .....................                                       48 


      II.      Agency Response to Draft Report.....................................................................                    113 


     III.      Distribution ........................................................................................................   134

     Inspector General’s Report on EPA’s Fiscal 2012 

       and 2011 Consolidated Financial Statements 


The Administrator
U.S. Environmental Protection Agency

We have audited the consolidated balance sheet of the U.S. Environmental Protection Agency
(EPA) as of September 30, 2012, and September 30, 2011, and the related consolidated
statements of net cost, net cost by goal, changes in net position, and custodial activity; and the
combined statement of budgetary resources for the years then ended. These financial statements
are the responsibility of EPA management. Our responsibility is to express an opinion on these
financial statements based upon our audit.

We conducted our audit in accordance with U.S. generally accepted auditing standards; the
standards applicable to financial statements contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin 07-04, Audit Requirements for Federal Financial Statements. These standards require
that we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free of material misstatements. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that
our audit provides a reasonable basis for our opinion.

The financial statements include expenses of grantees, contractors, and other federal agencies.
Our audit work pertaining to these expenses included testing only within EPA. The U.S.
Treasury collects and accounts for excise taxes that are deposited into the Leaking Underground
Storage Tank Trust Fund. The U.S. Treasury is also responsible for investing amounts not
needed for current disbursements and transferring funds to EPA as authorized in legislation.
Since the U.S. Treasury, and not EPA, is responsible for these activities, our audit work did not
cover these activities.

The Office of Inspector General (OIG) is not independent with respect to amounts pertaining to
OIG operations that are presented in the financial statements. The amounts included for the OIG
are not material to EPA’s financial statements. The OIG is organizationally independent with
respect to all other aspects of the Agency’s activities.

In our opinion, the consolidated financial statements, including the accompanying notes, present
fairly, in all material respects, the consolidated assets, liabilities, net position, net cost, net cost
by goal, changes in net position, custodial activity, and combined budgetary resources of EPA as
of and for the years ended September 30, 2012 and 2011, in conformity with accounting
principles generally accepted in the United States of America.




13-1-0054                                                                                              1
Review of EPA’s Required Supplementary Stewardship Information,
Required Supplementary Information, Supplemental Information, and
Management’s Discussion and Analysis
We obtained information from EPA management about its methods for preparing Required
Supplementary Stewardship Information (RSSI), Required Supplementary Information,
Supplemental Information, and Management’s Discussion and Analysis, and reviewed this
information for consistency with the financial statements. The Supplemental Information
includes the unaudited Superfund Trust Fund financial statements for fiscal 2012 and 2011,
which are being presented for additional analysis and are not a required part of the basic financial
statements. However, our audit was not designed to express an opinion and, accordingly, we do
not express an opinion on EPA’s RSSI, Required Supplementary Information, Supplemental
Information, and Management’s Discussion and Analysis.

We did not identify any material inconsistencies between the information presented in EPA’s
consolidated financial statements and the information presented in EPA’s RSSI, Required
Supplementary Information, Supplemental Information, and Management’s Discussion and
Analysis.

Evaluation of Internal Controls
As defined by OMB, internal control, as it relates to the financial statements, is a process,
affected by the Agency’s management and other personnel, that is designed to provide
reasonable assurance that the following objectives are met:

       Reliability of financial reporting—Transactions are properly recorded, processed, and
       summarized to permit the preparation of the financial statements in accordance with
       generally accepted accounting principles, and assets are safeguarded against loss from
       unauthorized acquisition, use, or disposition.

       Compliance with applicable laws, regulations, and government-wide policies—
       Transactions are executed in accordance with laws governing the use of budget authority,
       government-wide policies, laws identified by OMB, and other laws and regulations that
       could have a direct and material effect on the financial statements.

In planning and performing our audit, we considered EPA’s internal controls over financial
reporting by obtaining an understanding of the Agency’s internal controls, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of
controls. We did this as a basis for designing our auditing procedures for the purpose of
expressing an opinion on the financial statements and to comply with OMB audit guidance, not
to express an opinion on internal control. Accordingly, we do not express an opinion on internal
control over financial reporting nor on management’s assertion on internal controls included in
Management’s Discussion and Analysis. We limited our internal control testing to those controls
necessary to achieve the objectives described in OMB Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982
(FMFIA), such as those controls relevant to ensuring efficient operations.

13-1-0054                                                                                         2
Our consideration of the internal controls over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be significant deficiencies.
Under standards issued by the American Institute of Certified Public Accountants, a significant
deficiency is a deficiency, or combination of deficiencies, that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance. A material
weakness is a deficiency, or combination of deficiencies, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected in a timely manner. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and not be detected. We noted
certain matters discussed below involving the internal control and its operation that we consider
to be significant deficiencies, four of which contribute to an overall material weakness. The
material weakness and significant deficiencies are summarized below and detailed in
attachment 1.

Material Weakness

       Compass System Limitations are a Material Weakness to EPA’s
       Accounting Operations and Internal Controls

       In October 2011, EPA replaced the Integrated Financial Management System (IFMS)
       with a new system, Compass Financials (Compass). The Agency operated IFMS but a
       contractor manages Compass. EPA replaced IFMS to improve the operation of financial
       management systems, standardize business processes, and strengthen internal controls.
       The system replacement required a major systems conversion and data migration to
       Compass. As with any major system conversion, problems were to be expected. We
       found that when the Agency converted its accounting system, it had not yet developed all
       the reports and functions required to generate all the information it needs. The lack of
       useful reports and system limitations significantly impaired the effectiveness of EPA’s
       accounting operations and internal controls. We determined that the Compass reporting
       and system limitations represented a material weakness. Several significant internal
       control deficiencies contributed to the material weakness:

            	 Posting model errors caused multiple misstatements. We found several material
               errors, caused by posting model errors, in the draft financial statements that could
               have potentially materially misstated the financial statements if not detected.
            	 Compass could not produce the reports EPA needed for many accounting
               applications, which caused delays in completing some accounting functions and
               material errors in general ledger (GL) balances.
            	 Material amounts of expense accruals did not reverse properly because of a
               Compass system configuration error.
            	 EPA discontinued the GL account analysis for fiscal year (FY) 2012. Without
               performing account analysis, EPA did not have an effective monitoring control to
               assess the accuracy and reasonableness of GL accounts and detect errors.

       The Agency has over 8,000 posting models for posting transactions in the financial
       system. We found errors in multiple posting models that we examined. However, the
       financial system has many other posting models that we were not able to examine. Our
       test work and analyses indicate that while the Agency has been able to correct some
13-1-0054                                                                                          3
       posting model errors during the year, there are additional posting models the Agency
       needs to evaluate.

       These significant deficiencies in accounting operations and internal controls resulted in
       material misstatements of the draft financial statements that were not prevented or
       detected; thus, they represent a material internal control weakness. Further details on each
       significant deficiency follow below.

Significant Deficiencies

       Posting Models in Compass Materially Misstated GL Activity and Balances

       EPA’s Compass system materially misstated GL activity and balances due to incorrect
       posting models. We found incorrect posting models in numerous accounts for
       obligations, disbursements, receivables, collections, and revenue. EPA did not properly
       and thoroughly review the posting models before migration from IFMS to Compass.
       Further, EPA did not properly review balances in the financial statements that were a
       result of incorrect posting models; a posting model is a reference for document entry that
       provides default values for posting business transactions in GL accounts. Incorrect
       posting models reflect an internal control weakness and an indication that EPA did not
       exercise proper oversight over how transactions are processed in its GL. As a result, the
       draft financial statements contained material errors that were undetected by the Agency.
       We noted $331 million in misstatements in the draft financial statements that Agency
       management did not detect.

       Compass Reporting Limitations Impair Accounting Operations and
       Internal Controls

       EPA has been unable to obtain the reports it needs from Compass for many accounting
       applications in FY 2012. OMB requires financial management systems to provide
       complete, reliable, consistent, timely, and useful financial information. Compass
       reporting limitations prevented EPA from producing many reports it needed for
       accounting operations. When the Agency converted its accounting system to Compass, it
       had not yet developed all the reports and functions required to generate all the
       information it needs. The lack of useful reports and information significantly impairs the
       effectiveness of EPA’s accounting operations and internal controls.

       EPA Should Improve Controls Over Expense Accrual Reversals

       EPA did not reverse approximately $108 million of FY 2011 year-end expense accruals
       in FY 2012. EPA policy requires the liability reported in the financial statements to
       reflect the value of goods and services received and accepted but unpaid. The Agency did
       not reverse the accrual transactions because the Compass posting configuration for the
       applicable fund category was inaccurate and staff recorded the FY 2011 accrual entries
       without including the reversal period. By not reversing the accruals timely, EPA
       overstated the accrued liability and expense amounts by $108 million and materially
       misstated the quarterly financial statements.

13-1-0054                                                                                        4
       Compass System Limitations Impair Internal Controls of Financial
       Operations

       Compass experienced several impairments to processing financial transactions. The
       impacted transactions included five payment accounting lines that exceeded the related
       obligation accounting lines, three transactions posted to an incorrect accounting period,
       and a payment against a canceled appropriation. U.S. Government Accountability Office
       (GAO) guidance states that application controls should ensure completeness, accuracy,
       authorization, and validity of all transactions during application processing. The
       Department of the Treasury Financial Management Manual states that canceled
       appropriation account balances are not available for obligation or expenditure for any
       purpose. Compass did not prevent the posting of these invalid transactions because EPA
       did not have system controls in place to reject them. The Compass impairments limit
       EPA’s assurance that account balances are accurate and Agency managers have useful
       and reliable financial information for managing day-to-day operations.

       EPA Should Improve Compliance With Internal Controls for Accounts
       Receivable

       We found numerous deficiencies in EPA’s compliance with accounts receivable internal
       controls in FY 2012. Various factors contributed to EPA not properly following its
       internal control procedures to ensure timely and accurate recording of accounts
       receivable. EPA policies require accurate and timely recording of accounts receivable and
       proper separation of duties. Noncompliance with accounts receivable controls affects the
       reliability and integrity of accounts receivable on the financial statements.

       EPA Is Not Clearing Fund Balance with Treasury Statement of Differences
       Timely

       EPA did not clear Fund Balance with Treasury differences reported on the U.S.
       Department of the Treasury’s Statement of Differences within 2 months. Treasury
       guidance requires that the Agency clear deposit and disbursement activity differences
       within “two months of occurrence.” However, various problems resulting from the
       Agency’s conversion from IFMS to Compass contributed to the failure to timely clear
       Statement of Differences transactions. The problems included the Agency being unable to
       process transactions, and encountering posting and accounting model deficiencies with
       the new system. EPA reported a combined total of $6,115,632 in differences from
       October 2011 through February 2012. The failure to clear Statement of Differences
       transactions compromises the reliability of EPA’s account balances and misstates
       disbursement and deposit activity reported monthly to the Treasury.

       Property Internal Controls Need Improvement

       Compass does not sufficiently reject personal property information entries that are not
       accurate. As a result, the Agency could lose accountability and control over property.
       FMFIA, 31 U.S.C. § 3512(c)(1)(B), requires that property and other assets be safeguarded
       against waste, loss, unauthorized use, or misappropriation. However, we identified
       personal property items for which the location was not properly identified, as well as
13-1-0054                                                                                          5
       personal property items for which the last recorded inventory dates or acquisition dates
       were in the future. The failure to properly configure Compass data fields to reject
       unreasonable entries contributed to the inaccurate property records.

       Compass and Maximo Cannot Be Reconciled

       EPA cannot reconcile capital equipment property management data within its property
       management subsystem—Maximo—to relevant financial data within Compass. OMB
       Circular A-123, Management’s Responsibility for Internal Controls, states that one of the
       objectives of internal control is the reliability of financial reporting. The inability to
       reconcile the property subsystem with Compass can compromise the effectiveness and
       reliability of financial reporting. Maximo and Compass primarily cannot be reconciled
       because historical property data did not migrate properly from IFMS to Compass.

       EPA Needs to Remediate System Vulnerabilities That Place Financial Data
       at Risk

       Office of the Chief Financial Officer (OCFO) officials did not monitor the testing of its
       networked information technology assets to identify commonly known vulnerabilities or
       take action to remediate those weaknesses. EPA policy requires senior Agency officials
       to ensure security control reviews are performed for general support systems and major
       applications under their organization’s responsibility. We found that the lack of
       monitoring exists, in part, because EPA’s Office of Environmental Information took
       almost 3 years to resolve a long-standing recommendation to define duties and
       responsibilities for testing networked resources managed under EPA’s service support
       contract. Also, OCFO officials should improve the office’s process to ensure known
       vulnerabilities are remediated for the equipment it uses to access the Agency’s core
       financial application. Information technology assets used by finance center personnel
       contained 286 commonly known vulnerabilities that, if exploited, could potentially
       undermine EPA’s financial reporting capability and serve as available points to
       compromise the Agency’s network.

       OCFO Financial Systems Security Documentation Needs Improvement

       EPA lacks reliable information on the implementation of required security controls for
       key financial applications at the Research Triangle Park Finance Center. Our analysis
       disclosed that key applications’ system security plans contained numerous instances of
       incomplete or inaccurate information for the four minimally required control areas
       reviewed. Federal guidance requires key documents such as system security plans and
       contingency plans to be annually reviewed and updated as needed. OCFO had not
       implemented a process to review the completeness and accuracy of system security plans
       information, delineated what organizations within OCFO were responsible for
       maintaining this documentation, or ensured that personnel performing key information
       security duties were trained to assume those duties. Inaccurate information calls into
       question the veracity and credibility of the processes OCFO uses to authorize its systems
       to operate, and places into doubt whether OCFO implemented security controls necessary
       to protect the confidentiality, integrity, and availability of EPA’s financial data.

13-1-0054                                                                                          6
Attachment 3 contains the status of issues reported in prior years’ reports. The issues included in
attachment 3 should be considered among EPA’s significant deficiencies for FY 2012. We
reported to the Agency on less significant internal control matters in writing during the course of
the audit. We will not issue a separate management letter.

Comparison of EPA’s FMFIA Report With Our Evaluation of Internal Controls

OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, requires us to
compare material weaknesses disclosed during the audit with those material weaknesses reported
in the Agency’s FMFIA report that relate to the financial statements, and identify material
weaknesses disclosed by the audit that were not reported in the Agency’s FMFIA report.

For financial statement audit and financial reporting purposes, OMB defines material weaknesses
in internal control as a deficiency or combination of deficiencies in internal control such that
there is a reasonable possibility that a material misstatement of the financial statements will not
be prevented, or detected and corrected on a timely basis.

The Agency reported that no material weaknesses had been found in the design or operation of
internal controls over financial reporting as of June 30, 2012. We identified several significant
deficiencies related to EPA’s Compass system that, when considered together, represent a
material internal control weakness. Details concerning our findings on the material weakness and
significant deficiencies can be found in attachment 1.

Tests of Compliance With Laws and Regulations
EPA management is responsible for complying with laws and regulations applicable to the
Agency. As part of obtaining reasonable assurance about whether the Agency’s financial
statements are free of material misstatement, we performed tests of its compliance with certain
provisions of laws and regulations, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain other laws and
regulations specified in OMB Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements. The OMB guidance requires that we evaluate compliance with federal financial
management system requirements, including the requirements referred to in the Federal Financial
Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to these
provisions and did not test compliance with all laws and regulations applicable to EPA.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion. A number of ongoing
investigations involving EPA’s grantees and contractors could disclose violations of laws and
regulations, but a determination about these cases has not been made. The results of our tests of
compliance with laws and regulations are summarized below and detailed in attachment 2.

       EPA’s Compass Service Provider Needs to Assess Controls Over
       Business Processes Affecting EPA

       EPA has limited assurance that its Compass service provider’s controls over business
       processes affecting EPA are designed and operating as intended. Compass, EPA’s new
       core financial application, is managed and hosted by a service provider through a
13-1-0054                                                                                         7
       contract. Federal guidance requires agencies using service providers for financial
       management to ensure that these service providers assess the design and operating
       effectiveness of internal controls over financial reporting. Industry accounting standards
       require service providers to evaluate controls over those activities affecting its customers’
       financial reporting. EPA did not identify its critical business processes that impact
       financial reporting or require its service provider to identify and assess those processes it
       performs on the Agency’s behalf. Without an assessment of its service provider’s control
       environment, EPA faces the potential that a critical business failure by the service
       provider could impact the Agency’s ability to provide reliable financial reporting.

       FFMIA Compliance

       Under FFMIA, we are required to report whether the Agency’s financial management
       systems substantially comply with the federal financial management systems
       requirements, applicable federal accounting standards, and the United States Government
       Standard General Ledger at the transaction level. To meet the FFMIA requirement, we
       performed tests of compliance with FFMIA Section 803(a) requirements and used the
       OMB guidance, Memorandum M-09-06, Implementation Guidance for the Federal
       Financial Management Improvement Act, dated January 9, 2009, for determining
       substantial noncompliance with FFMIA. The results of our tests did not disclose any
       instances in which the Agency’s financial management systems did not substantially
       comply with FFMIA requirements.

No other significant matters involving compliance with laws and regulations came to our
attention during the course of the audit. We will not issue a separate management letter.

Our audit work was also performed to meet the requirements in 42 U.S. Code §9611(k) with
respect to the Hazardous Substance Superfund Trust Fund, to conduct an annual audit of
payments, obligations, reimbursements, or other uses of the fund. The significant deficiencies
reported above also relate to Superfund.

Prior Audit Coverage
During previous financial or financial-related audits, we reported weaknesses that impacted our
audit objectives in the following areas:

      Financial system user account management. 

      Accounts receivable documentation not provided timely. 

      Uncollectible debt misstated.


Attachment 3 summarizes the current status of corrective actions taken on prior audit report
recommendations related to these issues.




13-1-0054                                                                                          8
Agency Comments and OIG Evaluation

The Agency disagreed with most of our findings but accepted many of our recommendations.
The Agency stated it identified and then fixed or remediated most of the limitations of its new
Compass system and, thus, there were no material issues during the preparation of the financial
statements. The Agency characterized the errors we found as normal problems during collection
and verification activities. However, we disagree that was the case. Further, along with the errors
that we found and communicated to the Agency during the course of our audit, we found
additional errors at year end. We maintain that the Agency materially misstated quarterly
financial reports to OMB and the draft financial statements. Because the errors were not detected
during the year or during the preparation of the quarterly and draft financial statements, we do
not agree with the Agency’s position that it would have identified the errors. The errors we found
were not detected by the Agency because they were part of everyday postings in the Compass
system and occurred primarily because of posting models deficiencies in the new system and the
failure of internal controls to detect and correct the errors.


This report is intended solely for the information and use of the management of EPA, OMB, and
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.




                                             Paul C. Curtis
                                             Director, Financial Statement Audits
                                             Office of Inspector General
                                             U.S. Environmental Protection Agency
                                             November 15, 2012




13-1-0054                                                                                        9
                                                                                                              Attachment 1 


                Internal Control Material Weakness and 

                         Significant Deficiencies 


                                                Table of Contents
Material Weakness

   1— Compass System Limitations Are a Material Weakness to 

      EPA’s Accounting Operations and Internal Controls .......................................... 11 



Significant Deficiencies

   2— Posting Models in Compass Materially Misstated GL Activity

      and Balances............................................................................................................ 13


   3— Compass Reporting Limitations Impair Accounting Operations and 

      Internal Controls ...................................................................................................... 17 


   4— EPA Should Improve Controls Over Expense Accrual Reversals ...................... 22 


   5— Compass System Limitations Impair Internal Controls of 

      Financial Operations ............................................................................................... 24


   6— EPA Should Improve Compliance With Internal Controls for 

      Accounts Receivable............................................................................................... 27


   7— EPA Is Not Clearing Fund Balance with Treasury Statement of 

      Differences Timely .................................................................................................. 31 


   8— Property Internal Controls Need Improvement .................................................... 33 


   9— Compass and Maximo Cannot Be Reconciled ..................................................... 34 


  10— EPA Needs to Remediate System Vulnerabilities That Place 

      Financial Data at Risk ............................................................................................ 35 


  11— OCFO Financial Systems Security Documentation Needs Improvement.......... 38 





13-1-0054                                                                                                                        10
       1—Compass System Limitations Are a Material Weakness to
          EPA’s Accounting Operations and Internal Controls
In October 2011, EPA replaced IFMS with Compass. Although the Agency had operated IFMS
a contractor manages Compass. EPA replaced IFMS to improve the operation of financial
management systems, standardize business processes, and strengthen internal controls. The
system replacement required a major systems conversion and data migration to Compass. As
with any major system conversion, problems were to be expected. We found that when the
Agency converted its accounting system, it had not yet developed all the reports and functions
required to generate all the needed information. The lack of useful reports and system limitations
significantly impaired the effectiveness of EPA’s accounting operations and internal controls.
We determined that the Compass reporting and system limitations represented a material
weakness. Several significant internal control deficiencies contributed to the material weakness:

   	 Posting model errors caused multiple misstatements. We found several material errors,
      caused by posting model errors, in the draft financial statements that could have
      potentially materially misstated the financial statements if not detected.
   	 Compass could not produce the reports EPA needed for many accounting applications,
      which caused delays in completing some accounting functions and material errors in GL
      balances.
   	 Material amounts of expense accruals did not reverse properly because of a Compass
      system configuration error.
   	 EPA discontinued the GL account analysis for FY 2012. Without performing account
      analysis, EPA did not have an effective monitoring control to assess the accuracy and
      reasonableness of GL accounts and detect errors.

The Agency has over 8,000 posting models for posting transactions in the financial system. We
found errors in multiple posting models that we examined. However, the financial system has
many other posting models that we were not able to examine. Our test work and analyses
indicate that while the Agency has been able to correct some posting model errors during the
year, there are additional posting models the Agency needs to evaluate.

The significant deficiencies in accounting operations and internal controls resulted in material
misstatements of the financial statements that were not prevented or detected; thus, they
represent a material internal control weakness. Further details on each significant deficiency
follow.

Agency Comments and OIG Evaluation

The Agency did not concur with our finding that Compass system limitations are a material
weakness. The Agency believes it has fixed or remediated the Compass limitations so that only
normal problems of information collection and verification existed during the preparation of the
financial reports. EPA stated that during the fiscal year it dedicated resources to:

      Creating alternate methods of obtaining and analyzing data 

      Reviewing and correcting the posting logic 



13-1-0054                                                                                          11
      Updating its methods of GL account analytical review
      Identifying and correcting system and user errors.

We believe that EPA focused on correcting errors to present accurate year-end financial
statements. However, EPA did not acknowledge the high risk of material errors that may have
occurred in FY 2012 and had not been detected. EPA emphasized its efforts to review posting
models and correct errors, but it did not comment on the specific multiple misstatements and
several material errors caused by posting model errors. EPA highlighted Compass’ robust
reporting capacity, but it did not acknowledge that it could not produce reports for many
accounting applications. EPA claimed that it did not discontinue its GL account analysis process,
but prepared a quarterly account analysis at the financial statement line-item level. We believe
EPA’s account analysis process was not effective because our analyses at the GL account level
uncovered material misstatements that EPA did not detect.

We found many significant deficiencies in EPA’s accounting operations and internal controls.
Regardless of EPA’s efforts to correct the errors we identified, the Compass system limitations
are a material weakness because there were material undetected errors in the draft financial
statements and, accordingly, there was more than a remote chance that errors could occur and not
be detected.




13-1-0054                                                                                      12
              2—Posting Models in Compass Materially Misstated
                         GL Activity and Balances
 Compass materially misstated GL activity and balances due to incorrect posting models. We
 found incorrect posting models in numerous accounts for obligations, disbursements,
 receivables, collections, and revenue. EPA did not properly and thoroughly review the posting
 models before migration from IFMS to Compass. Further, EPA did not properly review
 balances in the financial statements that were a result of incorrect posting models; a posting
 model is a reference for document entry that provides default values for posting business
 transactions in GL accounts. Incorrect posting models reflect an internal control weakness and
 an indication that EPA did not exercise proper oversight over how transactions are processed in
 its GL. As a result, the draft financial statements contained material errors that were undetected
 by the Agency. We noted $331 million in misstatements in the draft financial statements that
 Agency management did not detect.

 GAO’s Standards for Internal Control in the Federal Government require accurate and
 timely recording of transactions and events. The FMFIA Act emphasizes the need for
 Agencies to provide reasonable assurance that accounts are properly recorded and accounted
 for to ensure reliability of financial reporting.

 EPA’s Contract for the Financial System Modernization Project states the Transaction
 Definitions Maintenance table is used to define and store document type, transaction type,
 and process activity for use across EPA. The GL Accounting Entry is an EPA-defined code
 that dictates what debits and credits are posted for a transaction. The United States Standard
 GL accounting guidance on budget policy defines “Upward Adjustments of Prior-Year
 Undelivered Orders – Obligation” as the amount of upward adjustments during the current
 fiscal year to obligations that were originally recorded in a prior fiscal year in “Undelivered
 Orders – Obligations.” The Treasury Financial Manual states “Upward Adjustments of Prior
 Year Undelivered Orders” is credited when the expended amount is more than the
 undelivered order. Conversely, “Downward Adjustments of Prior-year Undelivered Orders”
 is debited when the expended amount is less than the undelivered order.

 During our audit we found multiple posting errors. Posting models were incorrect for upward
 adjustments, downward adjustments, obligations with miscellaneous vendor codes, receivables,
 collections, revenue, and revenue and expenses for EPA’s Working Capital Fund. The Agency
 was able to fix some of the errors that we found before the draft financial statements were
 prepared. However, our later analysis of the draft financial statements found more posting
 model errors that resulted in material misstatements to the draft financial statements. The errors
 resulted in the following misstatements:

      Earned Revenue was overstated by $184 million.
      Net Costs, intra-entity operating expenses was overstated by $184 million.
      Miscellaneous Receipt Revenue was understated by $87 million.
      Obligations Incurred and Recoveries of Prior Year Unpaid Obligations were misstated by
       $52 million



13-1-0054                                                                                          13
      EPA’s Gain on Sale of Investments was overstated by $7 million.
      EPA’s Working Capital Advance account was overstated by $1 million.

In addition to the misstatements identified above, we found the following:

     Earned Revenue for the Federal Insecticide, Fungicide, and Rodenticide Act fund was
      understated by $14.9 million.
    Earned Revenue for the Pesticide Registration Improvement Act fund was understated by
      $7.2 million.
    Earned Revenue for Superfund special accounts was understated by $3.3 million.
    Superfund federal accounts receivable transactions totaling about $20 million did not post
      to the correct GL accounts.
    Over $236 million in Superfund cost recovery accounts receivable were recorded in an
      improper GL account.
    Collection transactions totaling about $29 million that impacted incorrect cash, advance,
      and allowance GL accounts were recorded incorrectly.
    Intergovernmental payment transactions totaling about $81 million were not recorded to
      the correct GL account.
    EPA did not post the proper entry to record about $3 million in a loan from its
      Environmental Program Management fund to its reimbursable Oil Spill fund.
    EPA did not properly record about $3 million of earned revenue related to Superfund
      cashouts.
   	 Current year new obligations totaling about $368 million were incorrectly recorded in
      upward adjustment accounts. (These transactions represent our sample items and are not
      representative of all transactions improperly recorded to the upward adjustment accounts.)
    Federal obligations of about $234 million were incorrectly recorded as non-federal
      obligations.
    Accrued liabilities totaling about $14 million were not properly recorded.

EPA did not verify that the posting models in Compass were accurate prior to migration from
IFMS. Specific reasons include:

   	 Mapping errors posted intra-entity activity to incorrect revenue and expense accounts;
      when EPA eliminated the intra-entity activity for financial statement purposes, those
      accounts were understated. The error was not caught on management review.
    New obligations with a prior budget fiscal year were recorded as upward adjustments to
      prior-year obligations.
    Accounting models for reimbursable payroll disbursements, accruals, and grant refunds
      failed to recognize corresponding revenue and reduce unearned advances.
    Adjustments to obligations with a prior budget fiscal year were recorded as Upward and
      Downward Adjustments of Prior-Year Undelivered Orders, increasing both.
   	 Obligations with a vendor name “Miscellaneous” were recorded by default as a non-
      federal entity even if it was a federal obligation. The error is highlighted in the GL when
      expenditures are made against the obligation, creating an ever growing negative balance.



13-1-0054                                                                                       14
   	 Compass contains flexible definitions for posting entries based on whether transactions
      are, for example, federal versus non-federal or exchange versus non-exchange. The
      default entries should not be used and transactions should be recorded within specified
      and defined accounting entries.
   	 EPA incorrectly set up accounting models for reimbursable payroll disbursements,
      accruals, and grant refunds as non-exchange transactions rather than as reimbursable
      expenditures.
   	 EPA did not perform analytical reviews of account activity to identify unusual activity
      resulting from incorrect posting models.

 We found $330.9 million in misstatements on EPA’s draft financial statements, caused by
 incorrect transactional postings. The transactions posted incorrectly because the posting
 models associated with those transactions were not mapped to the correct accounts and
 internal controls failed to detect and correct the errors. The misstatements in the draft
 financial statements are listed below:

 Table 1: Draft financial statement misstatements
                                                                                  Amount
                        Financial statement line items                           (millions)
  Earned revenue and net costs                                                      $18
  Miscellaneous receipt revenue understated                                          87
  Obligations incurred and recoveries of prior year unpaid obligations               52 1
  Gain on sale of investments                                                          7
  Working capital advance                                                              1
  Total                                                                            $331
 Source: OIG analysis
        1
          Estimated amount


 Incorrect posting models also distort the use of funds as they do not differentiate between
 current and prior year activity and federal and non-federal activity, and do not represent
 accurate activity.

 Recommendations

 We recommend the Chief Financial Officer:

     1. 	 Perform a thorough review of all posting models to ensure the proper accounts
          are impacted.

     2. 	 Correct activity in accounts incorrectly impacted by improper posting models.

     3. 	 Develop internal control procedures to confirm the proper accounts are impacted for
          all transactions.

     4. 	 Perform analytical reviews of account activity on a quarterly basis to verify

          account activity is reasonable. 




13-1-0054                                                                                       15
Agency Comments and OIG Evaluation

The Agency concurred with our recommendations. However, the Agency did not agree that
incorrect posting models resulted in materially misstated GL activity and balances or that the
significant GL errors and misstatements in the draft financial statements were internal control
weaknesses. The Agency stated that posting models were not the cause of certain errors and
misstatements and provided alternative reasons for the errors and misstatements. We do not
believe that EPA’s alternative reasons are consistent with our audit findings. Regardless of the
origin of the error or misstatement, the numerous significant GL errors and misstatements
represent a material weakness.

The Agency also stated that it would have caught the errors in its year-end analysis, but the
Agency did not detect the errors we found in the draft financial statements or in its quarterly
financial statement submissions to OMB. We do not believe the Agency would have prevented the
material misstatements had we not brought them to the Agency’s attention.




13-1-0054                                                                                          16
                  3—Compass Reporting Limitations Impair
                 Accounting Operations and Internal Controls
EPA has been unable to obtain the reports it needs from Compass for many accounting
applications in FY 2012. OMB requires financial management systems to provide complete,
reliable, consistent, timely, and useful financial information. Compass reporting limitations
prevented EPA from producing many reports it needed for accounting operations. When the
Agency converted its accounting system to Compass, it had not yet developed all the reports and
functions required to generate all the information it needs. The lack of useful reports and
information significantly impairs the effectiveness of EPA’s accounting operations and internal
controls.

OMB Circular A-127, Financial Management Systems, requires financial management systems
to provide complete, reliable, consistent, timely, and useful financial information for federal
government operations. GAO’s Standards for Internal Control in the Federal Government states
that internal control should provide reasonable assurance that the objectives of the agency are
being achieved in the following categories:

      Effectiveness and efficiency of operations, including the use of the entity’s resources.
      Reliability of financial reporting, including reports on budget execution, financial
       statements, and other reports for internal and external use.
      Compliance with applicable laws and regulations.

EPA could not obtain needed reports from Compass in several accounting areas:

   	 Accounts Receivable – The Compass Business Objects GL report did not contain the
      beginning balances at the security organization (finance center) level which finance
      centers need to reconcile accounts receivable reports. The Cincinnati Finance Center
      (CFC), Las Vegas Finance Center (LVFC), and Research Triangle Park Finance Center
      (RTPFC) could not properly perform monthly accounts receivable reconciliations from
      October 2011 through March 2012. LVFC submitted non-certifications to the Reporting
      and Analysis Staff for their reconciliations. RTPFC submitted certifications documenting
      that it could not perform the reconciliations. CFC did not submit certifications but
      notified headquarters by e-mail of its difficulties with validating accounts receivable
      balances.

   	 Allowance for Doubtful Accounts – Compass reports needed to estimate allowances,
      such as allowance for doubtful accounts and GL reports, were not available at the finance
      center level. EPA has not developed the reports or functions CFC needed to update its
      collectibility estimates for past due accounts receivable. For the first and second quarters
      of FY 2012, CFC updated the allowance estimates only for its new FY 2012 receivables
      greater than $100,000, and did not update allowance estimates for any prior year accounts
      receivable converted from IFMS to Compass. LVFC and RTPFC did not update the
      allowance for doubtful accounts estimates for the first two quarters of FY 2012.




13-1-0054                                                                                         17
   	 Fund Balance with Treasury – EPA was not able to obtain accurate data from Compass
      for sections II and III of the monthly Statement of Transactions (SF-224) report. Compass
      could not read the Treasury-formatted data files necessary to generate accurate monthly
      activity reports. We identified this problem at CFC, LVFC, Washington Finance Center,
      Reporting and Analysis Staff, and headquarters payroll (security organization PYRL).
      The problem began at the beginning of FY 2012 and still existed when we reviewed
      internal controls during the third quarter of FY 2012. EPA staff manually reconciled and
      reported Sections II and III of the SF-224 report submitted to Treasury.

   	 Suspense Accounts – Compass does not have the capability to generate the suspense
      account detailed report for tracking the transactions in suspense accounts 68F3875 and
      68F3885. CFC generates the suspense report by obtaining suspense transactions from the
      system and comparing them to transactions in the Interagency Document Online
      Tracking System. LVFC maintains a hard copy of each suspense transaction processed
      along with the supporting documentation in a folder and manually tracks every suspense
      transaction to ensure they are cleared timely. RTPFC manually checks the Statement of
      Transactions and the cash difference reports to identify transactions not cleared within
      60 days. The Washington Finance Center did not generate suspense reports. Reporting
      and Analysis Staff have been unable to provide the finance centers a monthly report of
      balances in the suspense accounts. This problem hinders the finance centers’ ability to
      classify and transfer transactions in suspense to the appropriate GL account. We found
      that the problem began at the beginning of FY 2012 and still existed when we reviewed
      the February and March 2012 suspense reports.

   	 Property – Compass cannot produce a property report by security organization (location).
      Maximo, a fixed asset subsystem of Compass, accepts only one security organization
      (EPA) and does not recognize the individual finance centers. Therefore, EPA cannot
      reconcile property management data within Maximo to the relevant financial data within
      Compass for accountable personal property. We identified this limitation at RTPFC and
      LVFC.

   	 Direct Asbestos Loans – Compass cannot produce the direct loans Treasury Report on
      Receivables. LVFC tracked individual asbestos loans in Compass via debt accounts as
      recommended during migration planning by the contractor that developed Compass.
      However, Compass cannot use debt accounts to produce a Treasury Report on
      Receivables. LVFC must manually produce the direct loans Treasury Report on
      Receivables, which it submits to the Reporting and Analysis Staff for Treasury reporting.

   	 GL Account Analysis – The finance centers have not performed a GL account analysis
      since the implementation of Compass at the beginning of FY 2012. In prior years, the
      finance centers conducted annual 6-month, 9-month, and year-end GL account analyses.
      EPA used the GL account analysis to monitor and assess the accuracy and reasonableness
      of its GL accounts and the effectiveness of internal controls. Compass could not produce
      FY 2012 GL data for account analysis comparable to FY 2011 data. Compass does not
      have beginning balances by finance office, and the transaction codes and types were not
      comparable between FYs 2011 and 2012. OCFO temporarily discontinued the GL


13-1-0054                                                                                    18
       account analysis for FY 2012, except for CFC’s quarterly analysis of Agency activity for
       intragovernmental balances.

Compass reporting limitations prevented EPA from producing many reports it needed. When the
Agency converted its accounting system from IFMS to Compass in October 2011, it had not yet
developed all the reports and functions required to generate all the information needed. OCFO’s
FY 2012 annual assurance letter to the Administrator dated August 20, 2012, stated that
“…Compass is being modified to correct defects and meet certain requirements that were not
expressed during system development.” OCFO’s FY 2012 assurance letter further stated that
“OCFO continues to work with NPMs [National Program Managers] and regions to identify any
residual problems and implement solutions. OCFO anticipates that the majority of the remaining
implementation issues will be resolved in the coming months.”

The lack of useful reports and information significantly impairs the effectiveness of EPA’s
accounting operations and internal controls. We found the following impairments:

   	 The inability to perform some accounting functions. This adversely impacted EPA’s
      OMB Circular A-123 internal control reviews by limiting the number of effective
      controls available for testing. For example, LVFC and RTPFC were not able to perform
      the first quarter allowance for doubtful accounts calculations because the Compass
      GL reports did not have the beginning balances at the finance center level, which finance
      centers need to reconcile accounts receivable reports to the GL. Therefore, EPA omitted
      tests of the allowance for doubtful account calculation and the allowance adjustment
      transaction approval.

       CFC omitted some OMB Circular A-123 tests of accounts receivable because CFC could
       not perform monthly accounts receivable reconciliations. Compass could not provide an
       accurate report of accounts receivable opening balances needed for the reconciliations.
       OCFO reported on October 11, 2012, that reports needed for accounts receivable
       reconciliations are now in Compass. However, the reports were not available during
       A-123 testing conducted from January through June 2012, and EPA did not test the
       related internal controls.

       In the area of cost recovery accounting, RTPFC omitted A-123 tests to confirm
       appropriate documents were scanned into the Superfund Cost Recovery Package Imaging
       and On-Line System (known as SCORPIOS) and to confirm all invoices were
       redistributed. RTPFC was unable to perform Compass queries to obtain the needed
       reports. Therefore, invoices may not be redistributed properly, resulting in inaccurate
       expenses reported in the financial statements.

       For the first and second quarters of FY 2012, RTPFC omitted A-123 property tests
       performed to verify that EPA properly recorded assets in the Fixed Assets Subsystem and
       Compass, and to confirm that quarterly financial statements were reviewed and
       confirmed to be accurate. RTPFC could not perform monthly property reconciliations
       because Compass could not provide reports with GL beginning balances. OCFO reported
       on October 11, 2012, that “the majority of reports related to this process are now in



13-1-0054                                                                                     19
       Compass. Additional reports are under review and undergoing system testing.” However,
       the reports were not available during A-123 testing, and EPA did not test the related
       internal controls.

   	 Delays in the accurate completion of some accounting functions. For example, OCFO
      temporarily discontinued the GL account analysis for FY 2012. CFC delayed the
      calculation of Superfund unbilled oversight cost accruals until year-end because it was
      not able to retrieve billings reports from Compass needed to complete the accrual
      spreadsheet. CFC worked around the problem by posting quarterly accruals based on the
      average of the previous four quarterly accruals.

   	 Material errors in GL balances. We identified errors in GL balances totaling over $600
      million in our 7-month testing and documented them in our audit difference entries. The
      net effect of the errors did not materially misstate the financial statements but indicates
      the potential for material misstatements.

   	 The expenditure of time and resources on workarounds. EPA personnel in finance centers
      spent time preparing workarounds for Sections II and III of the SF-224 reports to
      Treasury, tracking the suspense accounts, and generating accurate numbers for the direct
      loans Treasury Report on Receivables.

When taken as a whole, the Compass reporting limitations and the resulting impairments of
EPA’s accounting operations and internal controls represent a material internal control weakness.
Several factors impact the effectiveness of EPA’s internal controls and increase the risk of a
material misstatement to the financial statements:

      Lack of reliable reports 

      Impairment of accounting operations 

      Exclusion of some internal control tests 

      Delays in the accurate completion of some accounting functions 

      Material errors in GL balances 

      Time and resources expended on workarounds 


These deficiencies in accounting operations and internal controls resulted in material
misstatements of the draft financial statements that were not prevented or detected; thus, they
represent a material internal control weakness.

Recommendation

We recommend that the Chief Financial Officer:

   5.	 Identify Compass reporting problems and develop reports to provide users with accurate
       data on a timely basis.




13-1-0054                                                                                         20
Agency Comments and OIG Evaluation

The Agency concurred with our recommendation. However, the Agency did not agree that the
reporting limitations we identified in several accounting areas significantly impair the
effectiveness of the Agency’s accounting operations and internal controls. EPA claimed that it was
not impaired in the following areas that we addressed:

      Accounts receivable
      Allowance for doubtful accounts
      Fund Balance with Treasury
      Suspense accounts
      Property
      Direct asbestos loans
      GL account analysis
      A-123 internal control reviews
      Delays in completion of some accounting functions
      Material errors in GL balances
      Expenditure of time and resources on workarounds

EPA characterized Compass reporting limitations as an opportunity to take advantage of the many
features of the modern system to best meet the Agency’s business needs. For example, when
Compass did not have the reports EPA needed to reconcile receivables at the servicing finance
office level, EPA reported that Compass allowed it to streamline accounts receivable processes by
moving to a centralized approach. EPA canceled its policy that required finance centers to perform
monthly receivable reconciliations. We believe that EPA’s response weakened its internal controls
instead of strengthening them.

EPA emphasized the alternative approaches it developed, the eventual creation of useful reports,
and the correction of errors. EPA characterized the conditions that it experienced with Compass
reporting limitations as “quite normal” in the implementation of a new system. We disagree with
EPA’s assessment. Proper planning before the system implementation could have reduced the
significant impairments to EPA’s accounting operations and internal controls.




13-1-0054                                                                                     21
  4—EPA Should Improve Controls Over Expense Accrual Reversals
EPA did not reverse approximately $108 million of FY 2011 year-end expense accruals in
FY 2012. EPA policy requires the liability reported in the financial statements to reflect the value
of goods and services received and accepted but unpaid. The Agency did not reverse the accrual
transactions because the Compass posting configuration for the applicable fund category was
inaccurate and staff recorded the FY 2011 accrual entries without including the reversal period.
By not reversing the accruals timely, EPA overstated the accrued liability and expense amounts
by $108 million and materially misstated the quarterly financial statements.

EPA Policy Announcement No. 95-11, Policies and Procedures for Recognizing Year-End
Accounts Payable and Related Accruals, requires EPA “to recognize and report all accounts
payable and related accruals in its year-end financial reports. The liability reported in the annual
financial statements shall reflect the value of all goods and services received and accepted but
unpaid regardless of whether an invoice has been received.… Accruals and unvouchered accounts
payable shall be input using the reversal period field in IFMS [since replaced by Compass].”

OMB Circular A-123, Management’s Responsibility for Internal Control, states, “Management
is responsible for establishing and maintaining internal control to achieve the objectives of
effective and efficient operations, reliable financial reporting, and compliance with applicable
laws and regulations.… In addition, periodic reviews, reconciliations or comparisons of data
should be included as part of the regular assigned duties of personnel.”

We notified the Agency that numerous expense accrual transactions from FY 2011 accounting
periods 12 through 15 did not reverse in FY 2012. EPA found that $107,812,171 of the
$820,113,515 in total automated accruals did not reverse and post to the proper GL accounts in
FY 2012. EPA stated that it updated the Compass configuration and subsequent posting logic in
the second quarter of FY 2012. We found that first quarter automated accruals reversed properly
in the second quarter. In addition, we identified $44,957 of FY 2011 year-end expense accruals
that did not reverse in FY 2012. EPA recorded the accrual reversals of $107,812,171 and
$44,957 in Compass at the FY 2012 year-end and the beginning of FY 2013, respectively.
Table 2 illustrates the expense accruals not reversed timely in Compass.

Table 2: Expense accruals not reversed in Compass
     Expense             Accrual amount        Accrual amount
      accrual               reversed            not reversed
      amount               in FY 2012            in FY 2012
   $820,113,515           $712,301,344          $107,812,1711
          $44,957                    $0               $44,9571

Source: OIG analysis of EPA data
    1
        EPA reversed the $107,812,171 and $44,957 accrual
        amounts by recording manual standard voucher adjustments
        in the FY 2012 fourteenth month accounting period and
        FY 2013 first month accounting period, respectively.




13-1-0054                                                                                        22
Compass did not reverse the accrual transactions for the trust fund category because, in the
implementation of Compass, EPA set the trust fund category configuration to null post (do not
post) to the GL. These accruals did not automatically reverse in the first quarter of FY 2012. The
system posted the accrual reversals for the trust fund category to the transaction and accounting
journals but not the general journal. EPA did not:

   	 Check the “Should Post to General Journal Flag” in the accounting journal record.
   	 Reverse accruals that did not have the reversal period for the FY 2011 accrual
      transactions in IFMS.
   	 Detect the omission of the reversal period when Compass processed the accrual reversals.
   	 Have adequate internal controls in place to monitor the accrual reversals and reconcile
      the accruals and reversals.

By not reversing the accruals timely, EPA overstated the accrued liability and expense amounts
by approximately $108 million and materially misstated the FY 2012 quarterly financial
statements. EPA reversed the accruals when we notified it of the error. If we had not brought the
error to EPA’s attention, it might have materially misstated the year-end financial statements.

Recommendation

We recommend that the Chief Financial Officer:

   6.	 Update EPA’s policy for recognizing year-end accruals to require reconciliations of
       accruals and accrual reversals.

Agency Comments and OIG Evaluation

The Agency concurred with our finding and recommendation.




13-1-0054                                                                                       23
                         5—Compass System Limitations Impair
                        Internal Controls of Financial Operations

EPA’s new Compass system experienced several impairments to processing financial
transactions. The impacted transactions included five payment accounting lines that exceeded
the related obligation accounting lines, three transactions posted to an incorrect accounting
period, and a payment against a canceled appropriation. GAO guidance states that application
controls should ensure completeness, accuracy, authorization, and validity of all transactions
during application processing. The Department of the Treasury Financial Management Manual
states that canceled appropriation account balances are not available for obligation or
expenditure for any purpose. Compass did not prevent the posting of these invalid transactions
because EPA did not have system controls in place to reject them. The Compass impairments
limit EPA’s assurance that account balances are accurate and Agency managers have useful and
reliable financial information for managing day-to-day operations.

Grant Payments Exceeded the Related Obligation Accounting Lines

We found five grant payment accounting lines that exceeded the related obligation accounting
lines. EPA did not set the proper controls and tolerance levels to reject a payment over the
obligation line amount to prevent grant payments from exceeding obligated line amounts.
GAO’s Standards for Internal Control in the Federal Government states that with respect to
control activities for information systems, “This category of control is designed to help ensure
completeness, accuracy, authorization, and validity of all transactions during application
processing.” None of the expenditures exceeded the total amounts obligated for each grant.
However, when payment accounting lines exceed the obligation accounting lines, the financial
system may not accurately reflect the obligation account balances. Project officers and grant
specialists may not have accurate information to manage grant funds. EPA prepared journal
vouchers to correct the overpaid accounting lines, as illustrated in table 3.

 Table 3: Grant payments exceeding obligation line amounts
    Journal             Document      Line           Obligation        Expended
    voucher              number      number         line amount      line amount
    3312SV121           I00E24007        2             $169,900         $171,666
    3312SV122           C999467405       1            3,194,600         3,194,794
    3312SV120           XA00E79301       1               55,000           57,795
    3312SV119           XP99574309       3              959,627         1,097,138
    3312SV117           L96683801        2              273,445          273,880
                                       Total         $4,652,572       $4,795,273

 Source: OIG analysis

Transactions Posted to an Incorrect Accounting Period

Compass allowed redistribution disbursement transactions to post to an incorrect accounting
period. EPA’s accounting periods correspond to the calendar months, with additional periods for
year-end adjustments. CFC posted the April 2012 transactions to redistribute payments,


13-1-0054                                                                                      24
illustrated in table 4, to the U.S. Department of Justice. The transactions posted to the March
2012 accounting period because EPA left the March accounting period open in April. GAO’s
Standards for Internal Control in the Federal Government, states that “Transactions should be
promptly recorded to maintain their relevance and value to management in controlling operations
and making decisions. This applies to the entire process or life cycle of a transaction or event
from the initiation and authorization through its final classification in summary records. In
addition, control activities help to ensure that all transactions are completely and accurately
recorded.” EPA’s posting to an incorrect accounting period overstated the March balances and
understated April balances. Because Compass did not prevent the improper posting, EPA cannot
ensure that it records transactions in the proper period, closes accounting periods timely, and
prohibits adjustments to prior period balances.

Table 4: April transactions posted to the March accounting period
  Compass document              Agency                  Dollar              Payment
      number                 location code             amount                 date
     IG B2001140563             68010727                $20,868            April 10, 2012
     IG B2001140589             68010727                 64,316            April 10, 2012
     IG B2001140571             68010727                 54,666            April 10, 2012
                                  Total                $139,851

Source: OIG analysis

Payment Against a Canceled Appropriation

EPA made a payment against a canceled appropriation. RTPFC recorded a payment for $3,338
on May 14, 2012 against appropriated funds that EPA canceled in FY 2011. RTPFC recorded the
payment in document number B2094647550, to treasury symbol 6803/040108, budget fiscal year
2003/2004, fund B.

OMB Circular A-11, Preparation, Submission, and Execution of the Budget, Section 130-14,
provides guidance on the payment process for obligations with canceled funds. According to
A-11, “Legitimately incurred obligations that have not been disbursed (i.e., paid) at the time a
TAFS [Treasury Appropriation Fund Symbol] is canceled cannot be disbursed from the canceled
obligated or unobligated balances of the canceled TAFS.”

According to Treasury Financial Management Manual 2-4200, Agency Reporting on
Unexpended Balances of Appropriations and Funds, Section 4245, “Canceled appropriation
account balances are not available for obligation or expenditure for any purpose.”

When EPA canceled the funds at the end of FY 2011, the funds should not have been available
for obligation or expenditure. However, Compass did not have the system controls in place to
prevent their availability. EPA cannot ensure that Compass prevents payments against canceled
appropriations.




13-1-0054                                                                                     25
Recommendation

We recommend that the Chief Financial Officer:

   7.	 Correct the Compass system limitations that allowed (a) payments to exceed the related
       obligation accounting lines, (b) transactions to post to an incorrect accounting period, and
       (c) a payment to impact a canceled appropriation.

Agency Comments and OIG Evaluation

The Agency did not concur with our recommendation because it has already made the
corrections. The Agency stated that in December 2011 it updated proper controls and tolerance
levels to prevent grant payments from exceeding the related obligation accounting lines. In May
2012, EPA corrected the issue of preventing the improper posting of transactions to prior
accounting periods. EPA confirmed that it fixed the Compass table to prevent spending against
canceled appropriations. Therefore, we concluded that no further action is required.




13-1-0054                                                                                       26
     6—EPA Should Improve Compliance With Internal Controls for
                      Accounts Receivable
We found numerous deficiencies in EPA’s compliance with accounts receivable internal controls
in FY 2012. Various factors contributed to EPA not properly following its internal control
procedures to ensure timely and accurate recording of accounts receivable. EPA policies require
accurate and timely recording of accounts receivable and proper separation of duties.
Noncompliance with accounts receivable controls affects the reliability and integrity of accounts
receivable on the financial statements.

EPA Resources Management Directive Systems (RMDS) 2540-9-1, Billing and Collecting,
requires the originating offices/action officials to forward all action documents to the finance
center within 5 business days. Finance centers must establish an accounts receivable in the
Agency financial system of record within 3 business days of receiving documentation from the
originating offices. RMDS Policy Number 2540-09 requires that EPA maintain records at the
transaction level that “provide clear audit trails of financial transactions, which include all
materials created in support of a financial transaction or event.” RMDS 2550D, Chapter 14, T1,
Superfund Accounts Receivable and Billings, also requires forwarding all action documents to
the finance center within 5 business days. RMDS 2550D, Chapter 14, includes requirements
similar to RMDS 2540-09 as discussed above, and further provides that all delinquent statutory
Superfund accounts receivable arising under judicial or administrative order be referred to the
U.S. Department of Justice for enforcement or collection.

RMDS 2540-9-P2, Non-Federal Delinquent Debt, state that finance centers must “maintain a
debt/accounts receivable file that includes copies of all bills, demand letters, and all other
correspondence with the debtor.” The finance center is responsible for reviewing debt/accounts
receivable files and the referral to Treasury of any uncollectible debt/accounts receivable monthly.

RMDS 2540-02, Internal Controls: Separation of Duties, states that EPA employees must not be
in a position to both perpetrate and conceal errors or irregularities by controlling multiple key
aspects of a financial transaction. Separation of duties is one of the fundamental elements of
internal controls that reduce risks.

RMDS 2540-09-P1, states that a letter of Final Determination is issued by the Action Official
who disallows grant expenses and determines that EPA is owed funds. This letter demands
payment and advises the debtor that if payment is not made within thirty (30) days, any
applicable interest, penalty, and administrative costs will accrue on the debt/accounts receivable.
In addition, “the LVFC records the debt/accounts receivable into Agency Financial System of
Record for billings.”

Our review of EPA’s compliance with its internal controls for establishing accounts receivable
found a number of instances of noncompliance with accounts receivable control procedures,
which indicates that noncompliance is prevalent. Specifically, we found that EPA did not:

   	 Accurately record a $38 million Superfund receivable in the proper fund. EPA staff
      incorrectly recorded the transaction as a Superfund special account past cost receivable


13-1-0054                                                                                        27
      instead of a future cost receivable. Superfund special account past cost receivables impact
      a different fund, different GL accounts, and sections of the financial statements than
      future cost receivables.
    Timely receive 33 legal documents for receivables totaling $31,971,741, which resulted
      in late recording of receivables.
    Timely record 15 accounts receivable totaling $40,555,244 in the financial accounting
      system (within 3 business days).
   	 Accurately record 2 installment civil penalties in the financial accounting system. EPA
      had received the collections for both receivables, which were recorded in liability
      accounts for several months.
   	 Follow procedures when recording accounts receivable in the financial accounting
      system. EPA established a $1,220,000 receivable prior to receiving the official action
      document that represented EPA’s claim to the receivable. Staff established the receivable
      based only on an e-mail from the project officer.
    Maintain adequate separation of duties for some interagency agreement billings and
      collections.
    Maintain adequate supporting documentation in the accounts receivable files for
      correction transactions.
    Adequately pursue collection efforts for 4 accounts receivable.
    Include in grant final determination letters the required provisions for interest, handling,
      and penalties if payment was not made within 30 days.

Various factors contributed to EPA’s noncompliance with accounts receivable controls.

       Staff did not correctly interpret the language in the settlement agreement.
       Regional counsel, enforcement, and program offices did not timely provide legal
        documents to the finance center within 5 workdays of the document effective date.
   	   The EPA accountant was unfamiliar with the type of the bankruptcy claim and did not
        realize the claim should be recorded as a receivable until performing a review of the files
        a few months later.
   	   Staff were not aware of the requirement to document when changes were made to 

        accounts receivable. 

   	   Staff did not consider the process of billing and collecting interagency agreements as a
        separation of duties issue because interagency collections are processed through the
        Treasury system. However, personnel then control multiple aspects of a financial
        transaction, the processing of interagency agreement receivables, collections, and cash.
       Staff did not properly maintain accounts receivable files.
       Finance center staff did not obtain and examine the official action document to verify the
        validity of the receivable prior to recording the receivable.
   	   EPA’s conversion of its accounting system from IFMS to Compass put additional
        demands on finance center staff. As a result, finance center staff did not review files
        monthly and did not include on file “all other correspondence with the debtor” relating to
        collection efforts. Finance center staff did not monitor the status of delinquent debts on
        an ongoing basis and adjust the overdue status code accordingly.




13-1-0054                                                                                        28
   	 EPA’s Office of Grants and Debarment, within the Office of Administration and
      Resources Management, does not have guidance or procedures to ensure that grant final
      determination letters are provided to the finance center. As a result, the audit follow-up
      coordinator was unaware of the requirements to provide the final determination letter to
      the finance center or to include provisions for late payment.

Untimely and inaccurate recording of receivables misstates accounts receivable in the financial
statements and affects the quality of data available to manage EPA resources. Without accurate
data, management cannot make informed decisions. Violation of the separation of duties
principle increases the risk that errors and irregularities will not be identified and corrected. Lack
of adequate supporting documentation may raise questions about the validity and integrity of
financial information in the accounting system. Without adequate documentation, EPA does not
have an adequate audit trail, and without an adequate audit trail EPA lacks transparency and
increases the risk of fraud.

Recommendations

We recommend the Assistant Administrator for Enforcement and Compliance Assurance:

   8.	 Forward judicial documents to the financial center.

We recommend that the Chief Financial Officer:

   9.	 Reinforce procedures to monitor all tracking reports. Follow up with regional offices and
       the U.S. Department of Justice to obtain legal documents to ensure accounts receivable
       are recorded timely in the financial accounting system.

  10. Institute standard operating procedures for entering, tracking, and monitoring accounts
      receivable, and ensure adherence to EPA policies and procedures for entering receivables
      timely and maintaining adequate and easily accessible source documentation.

  11. Ensure proper separation of duties by having separate individuals perform billing and
      collection functions.

We recommend that the Assistant Administrator for Administration and Resources Management
direct the Director of the Office of Grants and Debarment to:

  12. Create guidance to ensure that grant final determination letters contain required
      provisions for late payment and a process for forwarding final determination letters to
      finance centers within 5 days of the effective date.




13-1-0054                                                                                          29
Agency Comments and OIG Evaluation

The Agency disagreed with our finding and recommendation for the Office of Enforcement and
Compliance Assurance to forward judicial documents to the finance center. However, the
Agency responded that the Office of Enforcement and Compliance Assurance will engage
U.S. Department of Justice management to assess the extent to which improvements are needed
to ensure the timely transmittal of judicial documentation to the finance center. The Agency also
responded that the Office of Enforcement and Compliance Assurance takes responsibility for
working with the regions and headquarters offices, where applicable, to ensure that
administrative penalty documentation is provided to the finance office within 5 business days.
The Office of Enforcement and Compliance Assurance will concentrate additional efforts on
those regions whose performance needs improvements.

The Agency also disagreed with our finding and recommendation about ensuring proper
separation of duties. The Agency cited receiving a waiver on October 11, 2012, after the end of
the audit period, and that reimbursable collections do not involve physical cash or checks. The
OIG believes that separation of duties is a sound internal control practice and should not be
waived.

The Agency agreed with our other findings and recommendations and stated it already began
taking corrective action.




13-1-0054                                                                                      30
            7—EPA Is Not Clearing Fund Balance with Treasury
                    Statement of Differences Timely
EPA did not clear Fund Balance with Treasury differences reported on the U.S. Department of
the Treasury’s Statement of Differences (SOD) within 2 months. Treasury guidance requires that
the Agency clear deposit and disbursement activity differences within “two months of
occurrence.” However, various problems resulting from the Agency’s conversion from IFMS to
Compass contributed to the failure to timely clear SOD transactions. The problems included the
Agency being unable to process transactions, and encountering posting and accounting model
deficiencies with the new system. EPA reported a combined total of $6,115,632 in differences
from October 2011 through February 2012. The failure to clear SOD transactions compromises
the reliability of EPA’s account balances and misstates disbursement and deposit activity
reported monthly to the Treasury.

The Treasury Financial Manual Reconciliation Procedures, require that the Agency identify and
clear disbursement and deposit differences between EPA and Treasury transaction activity within
2 months of occurrence. OMB Circular A-127, Financial Management Systems, requires
financial management systems to provide reliable and timely financial management information
of federal government operations.

We found that EPA did not clear differences reported on Treasury’s SOD within 2 months as
required. Specifically, LVFC, CFC, RTPFC, Office of Financial Services, and Reporting and
Analysis Staff did not clear or provide explanations for differences reported to Treasury. These
SOD transactions, totaling $6,115,632, occurred between October 2011 and February 2012. The
transactions reported on the SOD were not cleared prior to May 2012. Some finance centers took
as long as 5 months to clear differences reported to the Treasury.

Various problems occurred as a result of the Agency’s conversion from IFMS to Compass.
Specifically:

   	 CFC was unable to timely clear refund transactions reported on the SOD because there
      was no accounting model in Compass to record refunds for advanced payments from the
      U.S. Army Corp of Engineers.

   	 SOD delays at LVFC were the result of Compass’ inability to process cancelled checks
      issued by RTPFC. When Treasury cancels un-cashed checks, the funds are returned to
      EPA through the Intra-governmental Payment and Collection system. Compass has the
      capability to process the transaction, but closed miscellaneous obligation documents over
      1-year old were not converted to Compass.

   	 RTPFC was unable to clear SOD transactions because Intra-governmental Payment and
      Collection collections could not be processed in Compass. The Compass GL posting
      model caused the Intra-governmental Payment and Collection collections to reject.

   	 Both the Office of Financial Services (Washington Finance Center) and Reporting and
      Analysis Staff said the unreconciled disbursement and deposit differences were the result


13-1-0054                                                                                     31
       of timing differences. However, no additional explanations were provided. Also, Office
       of Financial Services staff responsible for payroll said a posting error in Compass caused
       differences.

The FMS-224, Statement of Transactions, is a monthly report required by Treasury that shows an
agency’s disbursement, collections, and receipts. The report uses transactional data that impact
the agency’s Funds Balance with Treasury GL accounts. These transactions include Treasury
payment confirmations, Intra-governmental Payment and Collection system collections and
payments, and manual collections and payments. On the last day of every month, agencies are
required to reconcile transactions recorded in their GLs with the Treasury and identify and
resolve any deposit and disbursement differences within a 2-month period. Failure to timely
resolve SOD transactions impacts the effectiveness of EPA’s internal controls and increases the
risk of misstatements on the financial statements. In addition, unresolved differences
compromise the reliability of Fund Balance with Treasury balances and financial reports
submitted to the Treasury.

Recommendation

We recommend that the Chief Financial Officer:

   13. Require the Director, Office of Financial Management, to correct the Compass 

       accounting and posting model errors so that users have the ability to process 

       Fund Balance with Treasury transactions to clear SODs accurately and timely. 


Agency Comments and OIG Evaluation

The Agency retracted its initial concurrence to the finding and recommendation dated
November 5, 2012. OCFO explained that in December 2011 it proactively discovered and
disclosed all of the issues cited by the OIG. Early in the year, the Agency was in the midst of
learning the intricacies of the new system and applying this knowledge to reengineer day-to-day
business processes. The Agency explained that while there were initial delays, it is now able to
clear differences in a timely manner. OCFO said it updated the accounting model and resolved
the SOD backlogs by the end of September 2012.

We acknowledge the learning curve imposed upon OCFO with the intricacies of a new financial
system and reengineering business processes. We also acknowledge the actions that OCFO has
taken to reduce the backlog of SOD in September, and appreciate the actions that the finance
centers have taken to clear these differences. However, we believe that a problem still exists with
processing the SOD transactions in Compass since the Agency is still working with the
contractor for Compass to clear transactions reported on the SOD. We believe OCFO should
verify that all accounting and posting models for processing Fund Balance with Treasury
transactions have been updated.




13-1-0054                                                                                       32
               8—Property Internal Controls Need Improvement
Compass does not sufficiently reject personal property information entries that are not accurate.
As a result, the Agency could lose accountability and control over property. FMFIA, 31 U.S.C. §
3512(c)(1)(B), requires that property and other assets be safeguarded against waste, loss,
unauthorized use, or misappropriation. However, we identified personal property items for which
the location was not properly identified, as well as personal property items for which the last
recorded inventory dates or acquisition dates were in the future. The failure to properly configure
Compass data fields to reject unreasonable entries contributed to the inaccurate property records.

OMB Circular A-123, Management’s Responsibility for Internal Controls, states that the three
objectives of internal control are (1) effectiveness and efficiency of operations, (2) reliability of
financial reporting, and (3) compliance with laws and regulations. The safeguarding of assets is a
subset of all of these objectives. Accurate property records are an essential element of proper
internal control and are necessary for the safeguarding of assets. In our audits of EPA’s
FYs 2011 and 2010 financial statements, we reported that EPA headquarters could not account
for 1,284 and 1,134 personal property items, respectively. Inaccurate property records can
contribute to an inability to account for personal property items.

We found that EPA property records contained 135 personal property items, with total
acquisition costs of $2.9 million that were physically located in accountable areas different than
the locations identified in EPA’s property system. We also found that EPA property records
contained 15 personal property items in which the property records showed that the items were
last inventoried on a date sometime in the future, and 13 additional personal property items
whose recorded acquisition dates were in the future. These examples show that EPA does not
have adequate internal control over its personal property, which could result in the loss or
unauthorized use of its assets.

When we brought these problems to the attention of Agency officials, we were told that Compass
data fields were not configured correctly to prevent such errors. The 135 property items that were
physically located in accountable areas different than the locations identified in EPA’s property
system resulted either from users not notifying their custodial officers or custodial officers not
accurately updating the property system.

Recommendations

We recommend that the Chief Financial Officer:

   14. Require the Director, Office of Technology Solutions, to work with the contractor that
       developed Compass to build defaults into the Compass software that will eliminate or
       minimize property record errors.

   15. Correct the property data errors described above.

Agency Comments and OIG Evaluation

The Agency concurred with our finding and recommendations.


13-1-0054                                                                                         33
               9—Compass and Maximo Cannot Be Reconciled
EPA cannot reconcile capital equipment property management data within its property
management subsystem—Maximo—to relevant financial data within Compass. OMB Circular
A-123, Management’s Responsibility for Internal Controls, states that one of the objectives of
internal control is the reliability of financial reporting. The inability to reconcile the property
subsystem with Compass can compromise the effectiveness and reliability of financial reporting.
Maximo and Compass primarily cannot be reconciled because historical property data did not
migrate properly from IFMS to Compass.

OMB Circular A-123, states that the three objectives of internal control are (1) effectiveness and
efficiency of operations, (2) reliability of financial reporting, and (3) compliance with laws and
regulations. The inability to reconcile capital equipment as recorded in the property management
subsystem with its core financial system can result in inaccurate or incomplete property records,
and compromise the reliability of EPA’s financial reporting and accountability for Agency
property.

EPA has had a requirement since 2001—as set out in Comptroller Policy Announcement
No. 01-06—that the Agency must conduct a monthly reconciliation for capitalized property
between its property subsystem (Fixed Asset Subsystem) and the IFMS capital equipment
GL accounts. The primary purpose of this reconciliation is to ensure that all capitalized property
is properly recorded. This reconciliation is the responsibility of the property management offices,
financial management offices, and offices within OCFO. Compass limitations do not allow a
reconciliation of capitalized property between Compass and Maximo. Because of these
limitations the OCFO rescinded the Comptroller Policy that requires capital property
reconciliation.

Recommendation

We recommend that the Chief Financial Officer:

   16. Develop procedures to reconcile capitalized property in the Agency’s financial system
       with Maximo.

Agency Comments and OIG Evaluation

The Agency did not agree with our finding but agreed with our recommendation. The Agency
stated that capital equipment within its property management subsystem (Maximo) can be
reconciled to relevant data within Compass and that the finance centers recently completed this
reconciliation. The Agency indicated the Office of Financial Management will develop these
reconciliation procedures by the second quarter of FY 2013. Once these procedures have been
developed we will evaluate their effectiveness.




13-1-0054                                                                                        34
              10—EPA Needs to Remediate System Vulnerabilities
                     That Place Financial Data at Risk
OCFO officials did not monitor the testing of its networked information technology assets to
identify commonly known vulnerabilities or take action to remediate those weaknesses. EPA
policy requires senior Agency officials to ensure security control reviews are performed for
general support systems and major applications under their organization’s responsibility. We
found that the lack of monitoring exists, in part, because EPA’s Office of Environmental
Information (OEI) took almost 3 years to resolve a long-standing recommendation to define
duties and responsibilities for testing networked resources managed under EPA’s service support
contract. Also, OCFO officials should improve the office’s process to ensure known
vulnerabilities are remediated for the equipment it uses to access the Agency’s core financial
application. Information technology assets used by finance center personnel contained 286
commonly known vulnerabilities that, if exploited, could potentially undermine EPA’s financial
reporting capability and serve as available points to compromise the Agency’s network.

While OCFO personnel are not directly responsible for managing the desktop equipment, EPA’s
Information Security Policy places with the Senior Information Official the responsibility “to
ensure that effective processes and procedures and other directives as necessary are established
to implement the policies, procedures, control techniques, and other countermeasures identified
under the EPA Information Security Program and enforced within their respective offices or
regions.” As such, OCFO needed to establish a collaborative process with OEI, which is
responsible for overseeing the desktop service provider contractors, to ensure that OCFO offices
received regular information regarding the identification and remediation of vulnerabilities.

OEI officials had not sufficiently taken steps until September 2012 to act on a long-standing
recommendation to define the responsibilities of its service support contractor responsible for
managing the desktops and printers used at EPA finance centers. As reported in OIG Report No.
10-P-0028, Improved Security Planning Needed for the Customer Technology Solutions Project,2
November 16, 2009, EPA did not have a process in place to test equipment for known
vulnerabilities. The cornerstone for putting a process in place was for OEI to define the
contractor’s responsibilities so that EPA offices could better monitor the security practices
protecting its networked resources. However, OEI took almost 3 years to define the
responsibilities and this left the finance centers without standards with which they could hold the
service provider accountable for delivering the desired results. While we consider OEI’s actions
sufficient to address the outstanding recommendation, ongoing oversight by OCFO is warranted
to ensure vulnerabilities are remediated and its personnel can safely use the provided equipment
to conduct its mission.

As noted in table 5, our tests identified 286 critical-risk, high-risk, and medium-risk
vulnerabilities at EPA finance centers. Our tests disclosed critical vulnerabilities at each finance
center where OCFO personnel remotely access EPA’s core financial application. If these

2
 Customer Technology Solutions was the Agency’s Working Capital Fund service provider for providing and
coordinating all information technology end user support and services for EPA headquarters program offices until
September 30, 2012. On October 1, 2012, EZ Tech replaced Customer Technology Solutions as the Agency’s
provider of information technology end user support and services.


13-1-0054                                                                                                          35
vulnerabilities are not eliminated, they could be exploited to cause critical system flaws that are
likely to have a catastrophic impact on financial data and reporting. These weaknesses could also
be used to compromise the credentials that finance center personnel use to access the Agency’s
core financial application. Furthermore, these vulnerabilities could result in unauthorized access
to the financial application and unauthorized processing of financial transactions that may go
undetected because the transactions were processed using an authorized account.

Table 5: Number of vulnerabilities identified at each finance center
 Finance center       Critical-risk       High-risk      Medium-risk        Total
 CFC                       14                18              131            163
 LVFC                       2                 2               59             63
 RTPFC                      4                12               44             60
 Total                     20                32              234            286
Source: OIG analysis

It is incumbent upon OCFO officials to have a process to closely monitor the contractor to ensure
it conducts its responsibilities for testing the finance centers’ networked resources as prescribed
and that the contractor immediately remediates all noted vulnerabilities.

Recommendations

We recommend that the Chief Financial Officer direct the Senior Information Official to:

    17. Document a review of OCFO’s processes for conducting vulnerability assessments and
        create oversight procedures for monitoring the service provider’s testing of networked
        resources and the remediation of any identified weaknesses.

    18. Request and monitor to ensure that OEI provides a status update for all identified
        critical-risk, high-risk, and medium-risk vulnerabilities contained in this report. The
        status update should include the date when OEI will remediate all the identified
        vulnerabilities.

    19. Request and monitor to ensure that OEI creates plans of action and milestones for all
        vulnerabilities that cannot be corrected within 30 days of this report.

    20. Request and monitor to ensure that OEI performs a technical vulnerability assessment
        test of the finance centers’ network resources to confirm completion of remediation
        activities and provide written certification to OCFO that vulnerabilities have been
        remediated.

Agency Comments and OIG Evaluation

The Agency did not concur with our finding and recommendations. OCFO stated that it currently
conducts vulnerability assessments for all general support systems and major applications under
its ownership as directed by National Institute of Standards and Technology guidelines. OCFO
also stated that OEI is responsible for vulnerability discovery and remediation and believes that it
is not incumbent upon OCFO officials to have process to closely monitor the contractor to ensure


13-1-0054                                                                                         36
it conducts its responsibilities for testing the finance centers’ networked resources as prescribed
and that the contractor immediately remediates all noted vulnerabilities. OIG analysis disclosed
that Agency finance center information security officers had been responsible for working with
OEI to remediate identified vulnerabilities. This process led to inconsistent remediation of
vulnerabilities in some cases and no remediation of vulnerabilities in others. The OIG believes that
OCFO officials must ensure that vulnerabilities are identified and remediated by its contractor
because EPA’s Information Security Policy places responsibility with program office senior
information officials to ensure that information systems under its control are secure.




13-1-0054                                                                                       37
            11—OCFO Financial Systems Security Documentation
                         Needs Improvement
EPA lacks reliable information on the implementation of required security controls for key
financial applications at RTPFC. Our analysis disclosed that key applications’ system security
plans (SSPs) contained numerous instances of incomplete or inaccurate information for the four
minimally required control areas reviewed. Federal guidance requires key documents such as
SSPs and contingency plans to be annually reviewed and updated as needed. OCFO had not
implemented a process to review the completeness and accuracy of SSP information, delineated
what organizations within OCFO were responsible for maintaining this documentation, or
ensured that personnel performing key information security duties were trained to assume those
duties. Inaccurate information calls into question the veracity and credibility of the processes
OCFO uses to authorize its systems to operate, and places into doubt whether OCFO
implemented security controls necessary to protect the confidentiality, integrity, and availability
of EPA’s financial data.

Review of SSPs for key financial applications at RTPFC contained numerous instances of
inaccurate or incomplete information for the minimally required information security controls
reviewed. Table 6 provides a summary of our analysis. Until August 2012, OCFO operated these
applications from a server room maintained by OARM that was in the same building as RTPFC
and subsequently moved these applications into EPA’s datacenter also located on the Research
Triangle Park campus.

Table 6. Summary of information system security documentation deficiencies
                                       Access      Contingency Continuous              Software
          System reviewed              control      planning       monitoring          integrity
 Fellowship Payment System (FPS)          X             X              X                   X
 Grants Payment System (GPAS)            X              X                                  X
 Contract Payment System (CPS)           X              X                                  X
 Small Purchase Information Tracking
                                         X              X              X                   X
 System (SPITS)
Source: OIG analysis

National Institute of Standards and Technology Special Publication 800-18, Guide for
Developing Security Plans for Federal Information Systems, states that it is important to assess
SSPs when system changes occur and that SSPs must be reviewed at least annually and updated
as needed. Also, Special Publication 800-53, Recommended Security Controls for Federal
Information Systems and Organizations, requires that the information systems be reviewed on an
ongoing basis including documenting changes to the system or its environment of operation.

The lack of updated SSP information resulted, in part, because OCFO did not implement a
process to proactively keep SSP information current for applications at RTPFC. We noted that
OARM was responsible for documenting security controls for two OCFO applications. However,
this overreliance on OARM to maintain security documentation resulted in OCFO not taking
steps to maintain an SSP with the new security controls protecting the application’s data.




13-1-0054                                                                                          38
Furthermore, during FY 2012, OCFO made organizational changes that moved the OCFO
technical staff responsible for the maintenance and operation of these applications from under
the direction of RTPFC to OCFO’s Office of Technology Solutions. When this change occurred,
OCFO had not directed who would maintain and update security documentation. As a result,
OCFO was not able to provide us with information regarding who was responsible for updating
information security documentation for these applications. This also caused RTPFC to appoint a
new Information Security Officer to oversee the computer security program within the center,
but OCFO had not ensured that the person performing this key information security duty was
trained as required by OMB guidance.

Without proper oversight of security documentation for OCFO systems, OCFO cannot state with
certainty that information security controls for these systems are designed and operating
effectively. Likewise, without establishing clear responsibilities for handling critical tasks such
as maintaining SSP documentation for key financial systems, OCFO risks making flawed risk-
based decisions regarding the continued operations of its applications. Furthermore, having
trained Information Security Officers is important because they serve as the first line of defense
for monitoring the office’s computer security program. As such, untrained personnel pose the
risks that the Agency will be delayed in responding to attacks against its network because
personnel are not sufficiently familiar with common threats for which they should alert
management.

Recommendations

We recommend that the Chief Financial Officer direct the Senior Information Official to:

   21. Develop and implement a process to review SSP information for accuracy and 

       completeness. 


   22. Issue a memorandum to the Office of Technology Solutions Director outlining the roles
       and responsibilities for reviewing and maintaining the SSP documentation for financial
       applications formerly maintained by the RTPFC technical personnel.

   23. Document a review of the skills and qualifications of OCFO Information Security
       Officers and provide necessary specialized training that would equip them to perform
       their duties as required by federal government policy.

   24. Document a review of SSPs for all OCFO-owned and managed financial applications
       located at Research Triangle Park and have them updated to reflect current information
       as required by the National Institute of Standards and Technology.

Agency Comments and OIG Evaluation

The Agency concurred with our recommendation.




13-1-0054                                                                                        39
                                                                                     Attachment 2

            Compliance With Laws and Regulations

                                     Table of Contents



   12—EPA’s Compass Service Provider Needs to Assess Controls
      Over Business Processes Affecting EPA ..................................................... 41




13-1-0054                                                                                          40
    12—EPA’s Compass Service Provider Needs to Assess Controls
              Over Business Processes Affecting EPA
EPA has limited assurance that its Compass service provider’s controls over business processes
affecting EPA are designed and operating as intended. Compass is managed and hosted by a
service provider through a contract. Federal guidance requires agencies using service providers
for financial management to ensure that these service providers assess the design and operating
effectiveness of internal controls over financial reporting. Industry accounting standards require
service providers to evaluate controls over those activities affecting its customers’ financial
reporting. EPA did not identify its critical business processes that impact financial reporting or
require its service provider to identify and assess those processes it performs on the Agency’s
behalf. Without an assessment of its service provider’s control environment, EPA faces the
potential that a critical business failure by the service provider could impact the Agency’s ability
to provide reliable financial reporting.

Currently, EPA has limited assurance that its Compass service provider’s controls over business
processes affecting EPA are designed and operating effectively. OMB Circulars A-127,
Financial Management Systems, and A-123, Management’s Responsibility for Internal Control,
outline agencies’ responsibilities for providing reliable financial information and maintaining
and reporting on the effectiveness of internal controls. The guidance requires external providers
or service organizations to provide its customers with an audit report that assesses internal
controls over financial reporting. Furthermore, in 2011, the American Institute of Certified
Public Accountants published expanded guidance, in Statement on Standards for Attestation
Engagements No. 16, that requires service providers to test internal controls over financial
reporting. This standard also outlines a broader range of information service providers must
provide its customers as a result of this testing. Although Compass is managed and hosted by a
contractor (a third-party service provider), EPA’s former core financial application (IFMS) was
managed and hosted by the Agency.

Prior to the deadline for EPA to certify the sufficiency of controls over financial reporting, the
OIG met with OCFO representatives to discuss the office’s plans for testing controls over
financial reporting. OCFO representatives acknowledged that the new accounting guidance
required its service provider to expand the scope of controls testing beyond that of previous
years. OCFO further specified that its service provider would perform the expanded controls
review stipulated under the American Institute of Certified Public Accountants guidance and
provide a report of those findings by July 2012.

We noted that the service provider’s report provided an assessment of the information
technology controls surrounding the data center that hosts Compass. However, the report did not
contain an assessment of the critical business processes, such as software change management;
database administration and management; and data input, processing, and transmission controls
that EPA relies upon the contractor to perform on its behalf. These vital processes directly
impact the underlying integrity of the financial data that EPA uses and typically are not
performed within the data center that was assessed. As such, the provided report did not contain
a sufficient testing of controls that EPA could rely upon to know whether controls over financial
reporting were effective.


13-1-0054                                                                                            41
EPA relies upon its service provider to provide a range of software support services for its core
financial application. In this regard, assessing how the service provider delivers these services
and understanding whether these services work as intended is critical for EPA to ensure it can
perform financial reporting as required by federal guidance. Without an assessment that tests
effectiveness of internal controls impacting financial reporting, EPA cannot make risk-based
decisions for continued operation of its financial systems, or implement compensating controls to
help mitigate risks resulting from critical failures of its service provider.

Recommendations

We recommend that the Chief Financial Officer direct the Director of the Office of Technology
Solutions to:

   25. Identify the critical business processes performed by the service provider upon which
       EPA relies for financial reporting.

   26. Require the service provider to assess the identified critical business process controls
       and report the results as part of the annual review of controls over financial reporting.

Agency Comments and OIG Evaluation

The Agency did not concur with our finding and recommendations. The Agency stated it owns
Compass and, implicitly, the reporting functionality therein. Therefore, the Agency believes that
its service provider has no impact on Agency financial reporting. The Agency also stated that
internal controls over financial reporting were evaluated during the Agency’s A-123 review and
no material weaknesses or significant deficiencies were identified. The OIG agrees that Compass
is owned by EPA, but its service provider performs development, hosting, and maintenance
duties for Compass on behalf of EPA. In order to perform these duties, EPA’s service provider
must have access to Compass testing and production environments. In particular, the production
environment is where EPA financial data used by the Agency for financial reporting resides. The
OIG believes that EPA must ensure that its service provider has adequate controls over processes
performed by its service provider that could impact EPA financial data maintained within
Compass. Therefore, in the opinion of the OIG, EPA must work with its service provider to
identify the processes performed by its service provider that could impact EPA financial data and
assess the design and operation of controls over those processes.




13-1-0054                                                                                          42
                                                                                        Attachment 3

       Status of Prior Audit Report Recommendations
EPA is continuing to strengthen its audit management to address audit follow-up issues and
complete corrective actions expeditiously and effectively to improve environmental results. The
Chief Financial Officer is the Agency audit follow-up official and is responsible for ensuring that
corrective actions are implemented. During FY 2012, OCFO completed an update of EPA Order
2750, EPA’s Audit Management Process. This update, EPA Manual 2750, Audit Management
Procedures, is a comprehensive audit management guide that addresses OIG, GAO, and Defense
Contract Audit Agency audits. OCFO continued to issue a quarterly report that highlights the
status of management decisions and corrective actions. This report is shared with program office
and regional managers throughout the Agency to keep them informed of the status of progress on
their audits. Additionally, OCFO continued to conduct reviews of national and program offices,
which it initiated in fiscal 2009. The reviews focus on offices’ audit follow-up procedures and
their use of the Management Audit Tracking System, or MATS. The reviews are designed to
promote sound audit management; increase Agency awareness of, and accountability for
completing unimplemented corrective actions; and ensure that audit follow-up data are accurate
and complete. OCFO completed five of these on-site reviews in FY 2012, including three
regional offices and two national program offices. These reviews will be performed on an
ongoing, rotating basis.

The Agency has continued to make progress in completing corrective actions from prior years.
The status of issues from prior financial statement audits and other audits with findings and
recommendations that could have an effect on the financial statements, and have corrective
actions that are not completed or have not been demonstrated to be fully effective, are listed in
the following table.

Table 7: Significant deficiencies—issues not fully resolved
    Financial Management System User Account Management Needs Improvement
     EPA has made significant strides to complete corrective actions associated with the segregation of
     duties issue noted during the fiscal 2009 financial statement audit (recommendation 27). To date, the
     Agency has implemented a segregation of duties policy, detective systems controls, and automated
     segregation of duties controls for the general ledger of Compass. However, automated segregation of
     duties controls have not been implemented for other Compass modules beyond the general ledger.
     This deficiency exists because the Agency did not expend resources to complete agreed-upon
     corrective actions to ensure that the Agency’s new financial system includes automated controls to
     enforce separation of duties. Additionally, the OIG recommended that the new financial management
     system include automated controls to link to human resources data (recommendation 32 in the fiscal
     2009 financial statement audit report). To date, EPA has not implemented any corrective actions in
     response to this recommendation.




13-1-0054                                                                                             43
    Accounts Receivable Source Documentation Not Provided Timely
     During fiscal 2011, we found that EPA regional and headquarters offices did not timely submit
     accounts receivable supporting documentation to CFC. EPA made significant progress in completing
     the corrective actions to improve the timeliness of these submissions in fiscal 2012, but has not yet
     completed all corrective actions. In fiscal 2012, EPA issued guidance creating a metric for
     headquarters and regional offices to provide documentation to CFC within the 5-business-day
     requirement 95 percent of the time. EPA provided training and presented a webinar to reinforce the
     process and the importance of providing accounts receivable source documents timely to CFC. EPA
     also prepared quarterly reports and began following up with regional offices that did not meet the
     timeliness performance measure. In December 2012, EPA is scheduled to provide an annual report
     to senior enforcement managers on headquarters and regional office performance in meeting the
     fiscal 2012 performance metric.
 	 EPA Misstated Uncollectible Debt and Other Related Accounts
     In our fiscal 2011 audit we found that EPA did not review the collectibility of 10 federal receivables
     outstanding from 4 to 11 years totaling $793 thousand. CFC did not document efforts to collect the
     federal debt or determine the debt’s status after the 3-year delinquent period. In fiscal 2012, we found
     that CFC established allowances for the 10 receivables. We did not receive the file support
     documenting CFC's collection effort in time to be considered in this report.
Source: OIG analysis.




13-1-0054                                                                                                44
                                                                                                                       Attachment 4

                Status of Current Recommendations and
                      Potential Monetary Benefits

                                                                                                                      POTENTIAL MONETARY
                                                RECOMMENDATIONS                                                        BENEFITS (in $000s)

                                                                                                          Planned
 Rec.   Page                                                                                             Completion   Claimed    Agreed To
 No.     No.                        Subject                          Status1      Action Official           Date      Amount      Amount

  1      15    Perform a thorough review of all posting models to      U       Chief Financial Officer
               ensure the proper accounts are impacted.

  2      15    Correct activity in accounts incorrectly impacted       U       Chief Financial Officer
               by improper posting models.

  3      15    Develop internal control procedures to confirm the      U       Chief Financial Officer
               proper accounts are impacted for all transactions.

  4      15    Perform analytical reviews of account activity on a     U       Chief Financial Officer
               quarterly basis to verify account activity is
               reasonable.

  5      20    Identify Compass reporting problems and develop         U       Chief Financial Officer
               reports to provide users with accurate data on a
               timely basis.

  6      23    Update EPA’s policy for recognizing year-end            U       Chief Financial Officer
               accruals to require reconciliations of accruals and
               accrual reversals.

  7      26    Correct the Compass system limitations that             C       Chief Financial Officer
               allowed (a) payments to exceed the related
               obligation accounting lines, (b) transactions to
               post to an incorrect accounting period, and (c) a
               payment to impact a canceled appropriation.

  8      29    Forward judicial documents to the financial center      U       Assistant Administrator
                                                                                for Enforcement and
                                                                               Compliance Assurance

  9      29    Reinforce procedures to monitor all tracking            U       Chief Financial Officer
               reports. Follow up with regional offices and the
               U.S. Department of Justice to obtain legal
               documents to ensure accounts receivable are
               recorded timely in the financial accounting
               system.

 10      29    Institute standard operating procedures for             U       Chief Financial Officer
               entering, tracking, and monitoring accounts
               receivable, and ensure adherence to EPA policies
               and procedures for entering receivables timely
               and maintaining adequate and easily accessible
               source documentation.

 11      29    Ensure proper separation of duties by having            U       Chief Financial Officer
               separate individuals perform billing and collection
               functions.




13-1-0054                                                                                                                               45
                                                                                                                           POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                               Planned
 Rec.   Page                                                                                                  Completion   Claimed    Agreed To
 No.     No.                          Subject                            Status1       Action Official           Date      Amount      Amount

 12      29    Direct the Director of the Office of Grants and             U       Assistant Administrator
               Debarment to create guidance to ensure that                          for Administration and
               grant final determination letters contain required                  Resources Management
               provisions for late payment and a process for
               forwarding final determination letters to finance
               centers within 5 days of the effective date.

 13      32    Require the Director, Office of Financial                   U        Chief Financial Officer
               Management, to correct the Compass accounting
               and posting model errors so that users have the
               ability to process Fund Balance with Treasury
               transactions to clear SODs accurately and timely.

 14      33    Require the Director, Office of Technology                  U        Chief Financial Officer
               Solutions, to work with the contractor that
               developed Compass to build defaults into the
               Compass software that will eliminate or minimize
               property record errors.

 15      33    Correct the property data errors described above.           U        Chief Financial Officer

 16      34    Develop procedures to reconcile capitalized                 U        Chief Financial Officer
               property in the Agency’s financial system with
               Maximo.

 17      36    Direct the Senior Information Official to document          U        Chief Financial Officer
               a review of OCFO’s processes for conducting
               vulnerability assessments and create oversight
               procedures for monitoring the service provider’s
               testing of networked resources and the
               remediation of any identified weaknesses.

 18      36    Direct the Senior Information Official to request           U        Chief Financial Officer
               and monitor to ensure that OEI provides a status
               update for all identified critical-risk, high-risk, and
               medium-risk vulnerabilities contained in this
               report. The status update should include the date
               when OEI will remediate all the identified
               vulnerabilities.

 19      36    Direct the Senior Information Official to request           U        Chief Financial Officer
               and monitor to ensure that OEI creates plans of
               action and milestones for all vulnerabilities that
               cannot be corrected within 30 days of this report.

 20      36    Direct the Senior Information Official to request           U        Chief Financial Officer
               and monitor to ensure that OEI performs a
               technical vulnerability assessment test of the
               finance centers’ network resources to confirm
               completion of remediation activities and provide
               written certification to OCFO that vulnerabilities
               have been remediated.

 21      39    Direct the Senior Information Official to develop           C        Chief Financial Officer
               and implement a process to review SSP
               information for accuracy and completeness.




13-1-0054                                                                                                                                    46
                                                                                                                          POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                        BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed To
    No.      No.                         Subject                         Status1      Action Official           Date      Amount      Amount

    22       39    Direct the Senior Information Official to issue a         O     Chief Financial Officer    1/31/13
                   memorandum to the Office of Technology
                   Solutions Director outlining the roles and
                   responsibilities for reviewing and maintaining the
                   SSP documentation for financial applications
                   formerly maintained by the RTPFC technical
                   personnel.

    23       39    Direct the Senior Information Official to document        O     Chief Financial Officer    3/31/13
                   a review of the skills and qualifications of OCFO
                   Information Security Officers and provide
                   necessary specialized training that would equip
                   them to perform their duties as required by federal
                   government policy.

    24       39    Direct the Senior Information Official to document        O     Chief Financial Officer   4/30/1213
                   a review of SSPs for all OCFO-owned and
                   managed financial applications located at
                   Research Triangle Park and have them updated
                   to reflect current information as required by the
                   National Institute of Standards and Technology.

    25       42    Direct the Director of the Office of Technology           U     Chief Financial Officer
                   Solutions to identify the critical business
                   processes performed by the service provider upon
                   which EPA relies for financial reporting.

    26       42    Direct the Director of the Office of Technology           U     Chief Financial Officer
                   Solutions to require the service provider to assess
                   the identified critical business process controls
                   and report the results as part of the annual review
                   of controls over financial reporting.

                   Note: We identified $0.9 million in inactive funds that
                   are no longer needed and can be deobligated.                                                             $900




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-1-0054                                                                                                                                   47
                                                Appendix I

               EPA’s Fiscal 2012 and 2011
            Consolidated Financial Statements




                     SECTION II 

                 FINANCIAL SECTION 





13-1-0054                                               48
                           Principal Financial Statements

Financial Statements

   1.   Consolidated Balance Sheet
   2.   Consolidated Statement of Net Cost
   3.   Consolidated Statement of Net Cost by Goal
   4.   Consolidating Statement of Changes in Net Position
   5.   Combined Statement of Budgetary Resources
   6.   Statement of Custodial Activity

Notes to Financial Statements

   Note 1.       Summary of Significant Accounting Policies
   Note 2.       Fund Balance with Treasury (FBWT)
   Note 3.       Cash and Other Monetary Assets
   Note 4.       Investments
   Note 5.       Accounts Receivable, Net
   Note 6.       Other Assets
   Note 7.       Loans Receivable, Net
   Note 8.       Accounts Payable and Accrued Liabilities
   Note 9.       General Property, Plant and Equipment, Net
   Note 10.      Debt Due to Treasury
   Note 11.      Stewardship Land
   Note 12.      Custodial Liability
   Note 13.      Other Liabilities
   Note 14.      Leases
   Note 15.      FECA Actuarial Liabilities
   Note 16.      Cashout Advances, Superfund
   Note 17.      Unexpended Appropriations – Other Funds
   Note 18.      Commitments and Contingencies
   Note 19.      Earmarked Funds
   Note 20.      Intragovernmental Costs and Exchange Revenue
   Note 21.      Cost of Stewardship Land
   Note 22       Environmental Cleanup Costs
   Note 23.      State Credits
   Note 24.      Preauthorized Mixed Funding Agreements
   Note 25.      Custodial Revenues and Accounts Receivable
   Note 26.      Reconciliation of President’s Budget to Statement of Budgetary Resources




13-1-0054                                                                                   49
Notes to Financial Statements (continued)

   Note 27.   Recoveries and Resources Not Available, Statement of Budgetary Resources
   Note 28.   Unobligated Balances Available
   Note 29.   Undelivered Orders at the End of the Period
   Note 30.   Offsetting Receipts
   Note 31.   Transfers-In and Out, Statement of Changes in Net Position
   Note 32.   Imputed Financing
   Note 33.   Payroll and Benefits Payable
   Note 34.   Other Adjustments, Statement of Changes in Net Position
   Note 35.   Non-exchange Revenue, Statement of Changes in Net Position
   Note 36.   Reconciliation of Net Cost of Operations to Budget
   Note 37.   Amounts Held By Treasury (Unaudited)
   Note 38.   Antideficiency Act Violations

Required Supplementary Information (Unaudited)

   1. Deferred Maintenance
   2. Stewardship Land
   3. Supplemental Combined Statement of Budgetary Resources

Required Supplementary Stewardship Information (Unaudited)

Supplemental Information and Other Reporting Requirements (Unaudited)

   Superfund Financial Statements and Related Notes




13-1-0054                                                                                50
                                     Environmental Protection Agency

                                        Consolidated Balance Sheet 

                                     As of September 30, 2012 and 2011 

                                           (Dollars in Thousands) 


                                                                        FY 2012            FY 2011
     AS S ETS
     Intragovernmental:
         Fund Balance With Treasury (Note 2)                        $     10,856,475   $     12,662,541
         Investments (Note 4)                                              4,620,231          7,112,197
         Accounts Receivable, Net (Note 5)                                    28,216             35,518
         Other (Note 6)                                                      252,837            251,803
     Total Intragovernmental
                                       $     15,757,759   $     20,062,059

     Cash and Other M onetary Assets (Note 3)
                                    10                 10
     Accounts Receivable, Net (Note 5)
                                      491,122            514,190
     Loans Receivable, Net - Non-Federal (Note 7)
                               136              2,107
     Property, Plant & Equipment, Net (Note 9)
                            1,010,021            966,799
     Other (Note 6)
                                                           3,134              2,566
        Total Assets                                                $     17,262,182   $     21,547,731

     Stewardship PP& E (Note 11 )

     LIABILITIES
     Intragovernmental:
         Accounts Payable and Accrued Liabilities (Note 8)                   55,021             52,448
         Debt Due to Treasury (Note 10)                                       1,063              2,593
         Custodial Liability (Note 12)                                      118,900             56,703
         Other (Note 13)                                                    117,520            132,910
     Total Intragovernmental
                                       $       292,504    $       244,654

     Accounts Payable & Accrued Liabilities (Note 8)
               $        775,281   $        916,766
     Pensions & Other Actuarial Liabilities (Note 15)
                        46,905             44,833
     Environmental Cleanup Costs (Note 22)
                                   21,560             20,838
     Cashout Advances, Superfund (Note 16)
                                  735,837            790,069
     Commitments & Contingencies (Note 18)
                                   25,180             10,180
     Payroll & Benefits Payable (Note 33)
                                   266,727            272,335
     Other (Note 13)
                                                        105,068            103,989
        Total Liabilities                                           $      2,269,062   $      2,403,664


     NET POS ITION
     Unexpended Appropriations - Other Funds (Note 17)                     9,811,870         11,462,598
     Cumulative Results of Operations - Earmarked Funds (Note 19)          4,504,199          7,027,163
     Cumulative Results of Operations - Other Funds                          677,051            654,306

     Total Net Position                                                   14,993,120         19,144,067

        Total Liabilities and Net Position                          $     17,262,182   $     21,547,731


       The accompanying notes are an integral part of these financial statements.
13-1-0054                                                                                                 51
                              Environmental Protection Agency 

                              Consolidated Statement of Net Cost 

                     For the Periods Ending September 30, 2012 and 2011 

                                    (Dollars in Thousands) 


                                                 FY 2012                 FY 2011


     COS TS

            Gross Costs (Note 20)        $           10,905,272      $        11,577,224
             Less:
            Earned Revenue (Note 20)                       521,826              698,331

     NET COS T OF OPERATIONS (Note 20)   $           10,383,446      $        10,878,893




      The accompanying notes are an integral part of these financial statements.

13-1-0054                                                                                  52
                                  Environmental Protection Agency
                              Consolidated Statement of Net Cost by Goal
                              For the Period Ending September 30, 2012
                                        (Dollars in Thousands)


                                                                        Land            Healthy     Compliance &
                                                   Clean & Safe    Preservation &   Communities &   Environmental
                                     Clean Air        Water         Restoration       Ecosystems     Stewardship
Costs:
 Intragovernmental               $       184,695   $     380,760   $      358,603   $     184,459   $     216,865
 With the Public                       1,027,551       5,177,804        2,175,713         593,659         605,163
   Total Costs (Note 20)               1,212,246       5,558,564        2,534,316         778,118         822,028

Less:
Earned Revenue, Federal                   12,171          8,220            79,371          12,092           5,877
Earned Revenue, non Federal                1,372         33,654           255,421          37,106          76,542
  Total Earned Revenue
(Notes 20)                                13,543         41,874           334,792          49,198          82,419

NET COST OF OPERATIONS
(Note 20)                        $ 1,198,703       $ 5,516,690     $   2,199,524    $    728,920    $    739,609




                                 Consolidated
                                   Totals
Costs:
 Intragovernmental               $     1,325,382
 With the Public                       9,579,890
   Total Costs (Note 20)              10,905,272

Less:
Earned Revenue, Federal                  117,731
Earned Revenue, non Federal              404,095
  Total Earned Revenue
(Notes 20)                               521,826

NET COST OF OPERATIONS
(Note 20)                        $ 10,383,446




         The accompanying notes are an integral part of these financial statements.
13-1-0054                                                                                                      53
                                  Environmental Protection Agency
                              Consolidated Statement of Net Cost by Goal
                              For the Period Ending September 30, 2011
                                        (Dollars in Thousands)

                                                                        Land            Healthy      Compliance &
                                                   Clean & Safe    Preservation &   Communities &    Environmental
                                     Clean Air        Water         Restoration       Ecosystems      Stewardship
Costs:
 Intragovernmental               $       159,456   $     252,748   $      390,431   $      335,757   $     192,243
 With the Public                       1,035,680       5,125,894        2,180,996        1,289,505         614,514
   Total Costs (Note 20)               1,195,136       5,378,642        2,571,427        1,625,262         806,757

Less:
Earned Revenue, Federal                   13,586          7,333           124,874          12,010            3,607
Earned Revenue, non Federal                1,034          1,458           494,249          38,725            1,455
  Total Earned Revenue
(Notes 20)                                14,620          8,791           619,123          50,735            5,062

NET COST OF OPERATIONS
(Note 20)                        $ 1,180,516       $ 5,369,851     $   1,952,304    $   1,574,527    $    801,695




                                 Consolidated
                                   Totals
Costs:
 Intragovernmental               $     1,330,635
 With the Public                      10,246,589
   Total Costs (Note 20)              11,577,224

Less:
Earned Revenue, Federal                  161,410
Earned Revenue, non Federal              536,921
  Total Earned Revenue
(Notes 20)                               698,331

NET COST OF OPERATIONS
(Note 20)                        $ 10,878,893




         The accompanying notes are an integral part of these financial statements.
13-1-0054                                                                                                       54
                                  Environmental Protection Agency
                          Consolidating Statement of Changes in Net Position
                             For the Period Ending September 30, 2012
                                       (Dollars in Thousands)

                                                                      FY 2012           FY 2012            FY 2012
                                                                    Earmarked          All Other         Consolidated
                                                                      Funds              Funds              Total
  Cumulative Results of Operations:

  Net Position - Beginning of Period                                 7,027,163            654,306            7,681,469
      Beginning Balances, as Adjusted                           $    7,027,163     $      654,306    $       7,681,469

  Budgetary Financing S ources:
        Appropriations Used                                                   -         9,814,392            9,814,392
        Nonexchange Revenue - Securities Investment (Note 35)            87,454                 -               87,454
        Nonexchange Revenue - Other (Note 35)                           200,069                 -              200,069
        Transfers In/Out (Note 31)                                   (2,418,773)           32,018           (2,386,755)
        Trust Fund Appropriations                                     1,075,367        (1,075,367)                   -
     Total Budgetary Financing Sources                          $    (1,055,883) $      8,771,043 $          7,715,160

  Other Financing S ources (Non-Exchange)
        Imputed Financing Sources (Note 32)                             26,337            141,806             168,143
        Other Financing Sources                                            (76)                 -                 (76)
     Total Other Financing Sources                              $       26,261 $          141,806    $        168,067

      Net Cost of Operations                                         (1,493,342)       (8,890,104)         (10,383,446)

      Net Change                                                     (2,522,964)           22,745           (2,500,219)

  Cumulative Results of Operations                              $    4,504,199     $      677,051    $       5,181,250



                                                                      FY 2012           FY 2012            FY 2012
                                                                    Earmarked          All Other         Consolidated
                                                                      Funds              Funds              Total
  Unexpended Appropriations:

  Net Position - Beginning of Period                                          -        11,462,598           11,462,598
      Beginning Balances, as Adjusted                                         -        11,462,598           11,462,598

  Budgetary Financing S ources:
        Appropriations Received                                               -         8,251,902            8,251,902
        Appropriations Transferred In/Out (Note 31)                           -                 5                    5
        Other Adjustments (Note 34)                                           -           (88,243)             (88,243)
        Appropriations Used                                                   -        (9,814,392)          (9,814,392)
     Total Budgetary Financing Sources                                        -        (1,650,728)          (1,650,728)

      Total Unexpended Appropriations                                         -         9,811,870            9,811,870

  TOTAL NET POS ITION                                           $    4,504,199 $       10,488,921 $         14,993,120



         The accompanying notes are an integral part of these financial statements.
13-1-0054                                                                                                                 55
                                  Environmental Protection Agency 

                          Consolidating Statement of Changes in Net Position

                             For the Periods Ending September 30, 2011 

                                        (Dollars in Thousands)

                                                                       FY 2011                                FY 2011
                                                                     Earmarked          FY 2011 All         Consolidated
                                                                       Funds            Other Funds            Total
  Cumulative Results of Operations:

  Net Position - Beginning of Period                                  7,152,382             617,456             7,769,838
      Beginning Balances, as Adjusted                            $    7,152,382     $       617,456     $       7,769,838

  Budgetary Financing S ources:
        Appropriations Used                                                   -          10,287,988            10,287,988
         Nonexchange Revenue - Securities Investment (Note 35)          120,429                   -               120,429
        Nonexchange Revenue - Other (Note 35)                           184,984                   -               184,984
        Transfers In/Out (Note 31)                                      (17,068)             35,410                18,342
        Trust Fund Appropriations                                     1,156,073          (1,156,073)                    -
      Total Budgetary Financing Sources                          $    1,444,418 $         9,167,325 $          10,611,743

  Other Financing S ources (Non-Exchange)
        Donations and Forfeitures of Property                                 -                  50                   50
        Transfers In/Out (Note 31)                                            1                  76                   77
        Imputed Financing Sources (Note 32)                              29,661             148,993              178,654
     Total Other Financing Sources                               $       29,662     $       149,119     $        178,781

      Net Cost of Operations                                          (1,599,299)         (9,279,594)         (10,878,893)

      Net Change                                                       (125,219)             36,850               (88,369)

  Cumulative Results of Operations                               $    7,027,163     $       654,306     $       7,681,469



                                                                       FY 2011                                FY 2011
                                                                     Earmarked          FY 2011 All         Consolidated
                                                                       Funds            Other Funds            Total
  Unexpended Appropriations:

  Net Position - Beginning of Period                                           -         13,342,784            13,342,784
      Beginning Balances, as Adjusted                            $             - $       13,342,784 $          13,342,784

  Budgetary Financing S ources:
        Appropriations Received                                                -           8,583,238            8,583,238
        Appropriations Transferred In/Out (Note 31)                            -               1,750                1,750
        Other Adjustments (Note 34)                                                         (177,186)            (177,186)
        Appropriations Used                                                    -         (10,287,988)         (10,287,988)
     Total Budgetary Financing Sources                                         -          (1,880,186)          (1,880,186)

      Total Unexpended Appropriations                                          -         11,462,598            11,462,598

  TOTAL NET POS ITION                                            $    7,027,163 $        12,116,904 $          19,144,067




        The accompanying notes are an integral part of these financial statements.
13-1-0054                                                                                                                    56
                                         Environmental Protection Agency
                                    Combined Statement of Budgetary Resources
                                 For the Periods Ending September 30, 2012 and 2011
                                                (Dollars in Thousands)

                                                                                                 FY 2012             FY 2011
BUDGETARY RESOURCES
Unobligated Balance, Brought Forward, October 1:                                             $      3,497,850    $      4,626,341
      Unobligated balance brought forward, October 1, as adjusted                                   3,497,850           4,626,341
Recoveries of Prior Year Unpaid Obligations (Note 27)                                                571,576             270,664
Other changes in unobligated balance                                                                  (31,639)           (179,693)
Unobligated balance from prior year budget authority, net                                           4,037,787           4,717,312
Appropriations (discretionary and mandatory)                                                       11,948,399          10,020,838
Spending authority from offsetting collections (discretionary and mandatory)                         583,051             750,277
Total Budgetary Resources (Note 26)                                                          $     16,569,237    $     15,488,427


STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 26)                                                               $     13,782,833    $     11,990,577
Unobligated balance, end of year:
   Apportioned (Note 28)                                                                            2,609,127           3,326,812
   Unapportioned                                                                                     177,277             171,038
Total unobligated balance, end of period                                                            2,786,404           3,497,850
Total Status of Budgetary Resources                                                          $     16,569,237    $     15,488,427


CHANGE IN OBLIGATED BALANCE
Unpaid Obligations, Brought Forward, October 1 (gross)                                       $     12,774,894    $     13,872,909
Uncollected customer payments from Federal Sources, brought forward, October 1                       (438,428)           (439,956)
   Obligated balance, start of year (net), before adjustments                                      12,336,466          13,432,953
Obligated balance, start of year (net), as adjusted                                                12,336,466          13,432,953
Obligations incurred                                                                               13,782,833          11,990,577
Outlays (gross)                                                                                   (14,674,309)        (12,817,928)
Change in uncollected customer payments from Federal sources                                         (132,914)              1,528
Recoveries of prior year unpaid obligations                                                          (571,576)           (270,664)
Obligated balance, end of period
   Unpaid obligations, end of year (gross)                                                         11,311,842          12,774,894
   Uncollected customer payments from Federal sources, end of year                                   (305,514)           (438,428)
Obligated balance, end of period (net)                                                       $     11,006,328    $     12,336,466


BUDGET AUTHORITY AND OUTLAYS, NET:
Budget authority, gross (discretionary and mandatory)                                        $     12,531,450    $     10,771,115
Actual offsetting collections (discretionary and mandatory)                                          (715,965)           (751,805)
Change in uncollected customer payments from Federal sources (discretionary and mandatory)           (132,914)              1,528
Budget authority, net (discretionary and mandatory)                                          $     11,682,571    $     10,020,838


Outlays, gross (discretionary and mandatory) (Note 26)                                       $     14,674,309    $     12,817,928
Actual offsetting collections (discretionary and mandatory) (Note 26)                                (715,965)           (751,805)
Outlays, net (discretionary and mandatory)                                                         13,958,344          12,066,123
Distributed offsetting receipts (Notes 26 and 30)                                                  (1,163,736)         (1,291,761)
Agency outlays, net (discretionary and mandatory)                                            $     12,794,608    $     10,774,362




              The accompanying notes are an integral part of these financial statements.

  13-1-0054                                                                                                                          57
                            Environmental Protection Agency
                              Statement of Custodial Activity
                    For the Periods Ending September 30, 2012 and 2011
                                   (Dollars in Thousands)

                                                             FY 2012            FY 2011

   Revenue Activity:
   Sources of Cash Collections:
      Fines and Penalties                                $       172,938    $      126,212
      Other                                                      (51,707)           (4,024)
      Total Cash Collections                             $       121,231    $      122,188
      Accrual Adjustment                                          62,980             4,163
   Total Custodial Revenue (Note 25)                     $       184,211    $      126,351

   Disposition of Collections:
      Transferred to Others (General Fund)               $       121,234    $      122,910
      Increases/Decreases in Amounts to be Transferred            62,977             3,441
   Total Disposition of Collections                      $       184,211    $      126,351

   Net Custodial Revenue Activity (Note 25)              $             -    $             -




       The accompanying notes are an integral part of these financial statements.
13-1-0054                                                                                     58
                            Environmental Protection Agency 

                             Notes to the Financial Statements

                     Fiscal Year Ended September 30, 2012 and 2011 

                                  (Dollars in Thousands) 



Note 1. Summary of Significant Accounting Policies

A. Reporting Entities

The EPA was created in 1970 by executive reorganization from various components of other
federal agencies to better marshal and coordinate federal pollution control efforts. The
Agency is generally organized around the media and substances it regulates - air, water,
hazardous waste, pesticides, and toxic substances.

The FY 2012 financial statements are presented on a consolidated basis for the Balance
Sheet, Statements of Net Cost, Changes in Net Position and Custodial Activity and a
combined basis for the Statement of Budgetary Resources. These financial statements
include the accounts of all funds described in this note by their respective Treasury fund
group.

B. Basis of Presentation

These accompanying financial statements have been prepared to report the financial position
and results of operations of the U. S. Environmental Protection Agency (EPA or Agency) as
required by the Chief Financial Officers Act of 1990 and the Government Management
Reform Act of 1994. The reports have been prepared from the financial system and records
of the Agency in accordance with Office of Management and Budget (OMB) Circular No. A-
136, Financial Reporting Requirements, and the EPA accounting policies, which are
summarized in this note. The Statement of Net Cost has been prepared with cost segregated
by the Agency’s strategic goals.

C. Budgets and Budgetary Accounting


   1. General Funds

       Congress adopts an annual appropriation for State and Tribal Assistance Grants
       (STAG), Buildings and Facilities (B&F), and for Payments to the Hazardous
       Substance Superfund to be available until expended, as well as annual appropriations
       for Science and Technology (S&T), Environmental Programs and Management
       (EPM) and for the Office of Inspector General (OIG) to be available for 2 fiscal
       years. When the appropriations for the General Funds are enacted, Treasury issues a

13-1-0054                                                                                    59
       warrant to the respective appropriations. As the Agency disburses obligated amounts,
       the balance of funds available to the appropriation is reduced at Treasury.

       The Asbestos Loan Program is a commercial activity financed from a combination of
       two sources, one for the long term costs of the loans and another for the remaining
       non-subsidized portion of the loans. Congress adopted a 1 year appropriation,
       available for obligation in the fiscal year for which it was appropriated, to cover the
       estimated long term cost of the Asbestos loans. The long term costs are defined as the
       net present value of the estimated cash flows associated with the loans. The portion of
       each loan disbursement that did not represent long term cost is financed under
       permanent indefinite borrowing authority established with the Treasury. A permanent
       indefinite appropriation is available to finance the costs of subsidy re-estimates that
       occur in subsequent years after the loans were disbursed.

       Funds transferred from other federal agencies are processed as non-expenditure
       transfers. As the Agency disburses the obligated amounts, the balance of funding
       available to the appropriation is reduced at Treasury.

       Clearing accounts and receipt accounts receive no appropriated funds. Amounts are
       recorded to the clearing accounts pending further disposition. Amounts recorded to
       the receipt accounts capture amounts collected for or payable to the Treasury General
       Fund.

   2. Revolving Funds

       Funding of the Reregistration and Expedited Processing Fund (FIFRA) and Pesticide
       Registration Funds (PRIA) is provided by fees collected from industry to offset costs
       incurred by the Agency in carrying out these programs. Each year the Agency
       submits an apportionment request to OMB based on the anticipated collections of
       industry fees.

       Funding of the Working Capital Fund (WCF) is provided by fees collected from other
       Agency appropriations and other federal agencies to offset costs incurred for
       providing Agency administrative support for computer and telecommunication
       services, financial system services, employee relocation services, and postage.

   3. Special Funds

       The Environmental Services Receipt Account obtains fees associated with

       environmental programs. 


       Exxon Valdez uses funding collected from reimbursement from the Exxon Valdez
       settlement.


13-1-0054                                                                                   60
   4. Deposit Funds

       Deposit accounts receive no appropriated funds. Amounts are recorded to the deposit
       accounts pending further disposition. These are not EPA’s funds.

   5. Trust Funds

       Congress adopts an annual appropriation amount for the Superfund, Leaking
       Underground Storage Tank (LUST) and the Oil Spill Response Accounts to remain
       available until expended. A transfer account for the Superfund and LUST Trust Fund
       has been established for purposes of carrying out the program activities. As the
       Agency disburses obligated amounts from the transfer account, the Agency draws
       down monies from the Superfund and LUST Trust Fund at Treasury to cover the
       amounts being disbursed. The Agency draws down all the appropriated monies from
       the Principal Fund of the Oil Spill Liability Trust Fund when Congress adopts the
       Inland Oil Spill Programs appropriation amount to EPA’s Oil Spill Response
       Account.

D. Basis of Accounting

   Generally Accepted Accounting Principles (GAAP) for Federal entities is the standard
   prescribed by the Federal Accounting Standards Advisory Board (FASAB), which is the
   official standard-setting body for the Federal government. The financial statements are
   prepared in accordance with GAAP for Federal entities.

   Transactions are recorded on an accrual accounting basis and on a budgetary basis (where
   budgets are issued). Under the accrual method, revenues are recognized when earned and
   expenses are recognized when a liability is incurred, without regard to receipt or payment
   of cash. Budgetary accounting facilitates compliance with legal constraints and controls
   over the use of federal funds.

E. Revenues and Other Financing Sources

   The following EPA policies and procedures to account for inflow of revenue and other
   financing sources are in accordance with Statement of Federal Financial Accounting
   Standards (SFFAS) No. 7, “Accounting for Revenues and Other Financing Sources.”




13-1-0054                                                                                    61
   The Superfund program receives most of its funding through appropriations that may be
   used within specific statutory limits for operating and capital expenditures (primarily
   equipment). Additional financing for the Superfund program is obtained through:
   reimbursements from other federal agencies, state cost share payments under Superfund
   State Contracts (SSCs), and settlement proceeds from Potentially Responsible Parties
   (PRPs) under CERCLA Section 122(b)(3) placed in special accounts. Cost recovery
   settlements that are not placed in special accounts continue to be deposited in the Trust
   Fund.

   Most of the other funds receive funding needed to support programs through
   appropriations which may be used within statutory limits for operating and capital
   expenditures. However, under Credit Reform provisions, the Asbestos Loan Program
   receives funding to support the subsidy cost of loans through appropriations which may
   be used within statutory limits. The Asbestos Direct Loan Financing fund 4322, an off-
   budget fund, receives additional funding to support the outstanding loans through
   collections from the Program fund 0118 for the subsidized portion of the loan.

   The FIFRA and Pesticide Registration funds receive funding through fees collected for
   services provided and interest on invested funds. The WCF receives revenue through fees
   collected for services provided to Agency program offices. Such revenue is eliminated
   with related Agency program expenses upon consolidation of the Agency’s financial
   statements. The Exxon Valdez Settlement Fund receives funding through
   reimbursements.

   Appropriated funds are recognized as Other Financing Sources expended when goods
   and services have been rendered without regard to payment of cash. Other revenues are
   recognized when earned (i.e., when services have been rendered).

F. Funds with the Treasury

   The Agency does not maintain cash in commercial bank accounts. Cash receipts and
   disbursements are handled by Treasury. The major funds maintained with Treasury are
   Appropriated Funds, Revolving Funds, Trust Funds, Special Funds, Deposit Funds, and
   Clearing Accounts. These funds have balances available to pay current liabilities and
   finance authorized obligations, as applicable.

G. Investments in U.S. Government Securities

   Investments in U.S. Government securities are maintained by Treasury and are reported
   at amortized cost net of unamortized discounts. Discounts are amortized over the term of
   the investments and reported as interest income. No provision is made for unrealized
   gains or losses on these securities because, in the majority of cases, they are held to
   maturity (see Note 4).


13-1-0054                                                                                      62
H. Notes Receivable

   The Agency records notes receivable at their face value and any accrued interest as of the
   date of receipt.

I. Marketable Securities

   The Agency records marketable securities at cost as of the date of receipt. Marketable
   securities are held by Treasury and reported at their cost value in the financial statements
   until sold (see Note 4).

J. Accounts Receivable and Interest Receivable

   The majority of receivables for non-Superfund funds represent penalties and interest
   receivable for general fund receipt accounts, unbilled intragovernmental reimbursements
   receivable, allocations receivable from Superfund (eliminated in consolidated totals), and
   refunds receivable for the STAG appropriation.

   Superfund accounts receivable represent recovery of costs from PRPs as provided under
   CERCLA as amended by SARA. Since there is no assurance that these funds will be
   recovered, cost recovery expenditures are expensed when incurred (see Note 5).

   The Agency records accounts receivable from PRPs for Superfund site response costs
   when a consent decree, judgment, administrative order, or settlement is entered. These
   agreements are generally negotiated after at least some, but not necessarily all, of the site
   response costs have been incurred. It is the Agency's position that until a consent decree
   or other form of settlement is obtained, the amount recoverable should not be recorded.

   The Agency also records accounts receivable from states for a percentage of Superfund
   site remedial action costs incurred by the Agency within those states. As agreed to under
   SSCs, cost sharing arrangements may vary according to whether a site was privately or
   publicly operated at the time of hazardous substance disposal and whether the Agency
   response action was removal or remedial. SSC agreements are usually for 10 percent or
   50 percent of site remedial action costs, depending on who has the lead for the site (i.e.,
   publicly or privately owned). States may pay the full amount of their share in advance or
   incrementally throughout the remedial action process.

K. Advances and Prepayments

   Advances and prepayments represent funds advanced or prepaid to other entities both
   internal and external to the Agency for which a budgetary expenditure has not yet
   occurred.



13-1-0054                                                                                      63
L. Loans Receivable

   Loans are accounted for as receivables after funds have been disbursed. Loans receivable
   resulting from obligations on or before September 30, 1991, are reduced by the allowance
   for uncollectible loans. Loans receivable resulting from loans obligated on or after
   October 1, 1991, are reduced by an allowance equal to the present value of the subsidy
   costs associated with these loans. The subsidy cost is calculated based on the interest rate
   differential between the loans and Treasury borrowing, the estimated delinquencies and
   defaults net of recoveries offset by fees collected and other estimated cash flows
   associated with these loans.

M. Appropriated Amounts Held by Treasury

   For the Superfund and LUST Trust Funds and for amounts appropriated from the
   Superfund Trust Fund to the OIG, cash available to the Agency that is not needed
   immediately for current disbursements remains in the respective Trust Funds managed by
   Treasury.

N. Property, Plant, and Equipment

   EPA accounts for its personal and real property accounting records in accordance with
   SFFAS No. 6, “Accounting for Property, Plant and Equipment.” For EPA-held property,
   the Fixed Assets Subsystem (FAS) automatically generates depreciation entries monthly
   based on in-service dates.

   A purchase of EPA-held or contract personal property is capitalized if it is valued at $25
   thousand or more and has an estimated useful life of at least 2 years. For contractor held
   property, depreciation is taken on a modified straight-line basis over a period of 6 years
   depreciating 10 percent the first and sixth year, and 20 percent in years 2 through 5.
   Detailed records are maintained and accounted for in contractor systems, not in FAS for
   contractor held property. Acquisitions of EPA-held personal property are depreciated
   using the straight-line method over the specific asset’s useful life, ranging from 2 to 15
   years.

   Personal property also consists of capital leases. To be defined as a capital lease, it must,
   at its inception, have a lease term of two or more years and the lower of the fair value or
   present value of the minimum lease payments must be $75 thousand or more. Capital
   leases may also contain real property (therefore considered in the real property category
   as well), but these need to meet an $85 thousand capitalization threshold. In addition, the
   lease must meet one of the following criteria: transfers ownership to EPA, contains a
   bargain purchase option, the lease term is equal to 75 percent or more of the estimated
   economic service life, or the present value of the lease and other minimum lease
   payments equal or exceed 90 percent of the fair value.


13-1-0054                                                                                       64
   Superfund contract property used as part of the remedy for site-specific response actions
   is capitalized in accordance with the Agency’s capitalization threshold. This property is
   part of the remedy at the site and eventually becomes part of the site itself. Once the
   response action has been completed and the remedy implemented, EPA retains control of
   the property (i.e., pump and treat facility) for 10 years or less, and transfers its interest in
   the facility to the respective state for mandatory operation and maintenance – usually 20
   years or more. Consistent with EPA’s 10 year retention period, depreciation for this
   property is based on a 10 year life. However, if any property is transferred to a state in a
   year or less, this property is charged to expense. If any property is sold prior to EPA
   relinquishing interest, the proceeds from the sale of that property shall be applied against
   contract payments or refunded as required by the Federal Acquisition Regulations.

   An exception to the accounting of contract property includes equipment purchased by the
   Working Capital Fund (WCF). This property is retained in FAS and depreciated utilizing
   the straight-line method based upon the asset’s in-service date and useful life.

   Real property consists of land, buildings, capital and leasehold improvements and capital
   leases. Real property, other than land, is capitalized when the value is $85 thousand or
   more. Land is capitalized regardless of cost. Buildings are valued at an estimated original
   cost basis, and land is valued at fair market value if purchased prior to FY 1997. Real
   property purchased after FY 1996 is valued at actual cost. Depreciation for real property
   is calculated using the straight-line method over the specific asset’s useful life, ranging
   from 10 to 102 years. Leasehold improvements are amortized over the lesser of their
   useful life or the unexpired lease term. Additions to property and improvements not
   meeting the capitalization criteria, expenditures for minor alterations, and repairs and
   maintenance are expensed when incurred.

   Software for the WCF, a revenue generating activity, is capitalized if the purchase price
   is $100 thousand or more with an estimated useful life of 2 years or more. All other funds
   capitalize software if those investments are considered Capital Planning and Investment
   Control (CPIC) or CPIC Lite systems with the provisions of SFFAS No. 10, “Accounting
   for Internal Use Software.” Once software enters the production life cycle phase, it is
   depreciated using the straight-line method over the specific asset’s useful life ranging
   from 2 to 10 years.




13-1-0054                                                                                         65
O. Liabilities

   Liabilities represent the amount of monies or other resources that are more likely than not
   to be paid by the Agency as the result of an Agency transaction or event that has already
   occurred and can be reasonably estimated. However, no liability can be paid by the
   Agency without an appropriation or other collections. Liabilities for which an
   appropriation has not been enacted are classified as unfunded liabilities and there is no
   certainty that the appropriations will be enacted. Liabilities of the Agency arising from
   other than contracts can be abrogated by the Government acting in its sovereign capacity.

P. Borrowing Payable to the Treasury

   Borrowing payable to Treasury results from loans from Treasury to fund the Asbestos
   direct loans Periodic principal payments are made to Treasury based on the collections of
   loans receivable.

Q. Interest Payable to Treasury

   The Asbestos Loan Program makes periodic interest payments to Treasury based on its
   debt.

R. Accrued Unfunded Annual Leave

   Annual, sick and other leave is expensed as taken during the fiscal year. Sick leave
   earned but not taken is not accrued as a liability. Annual leave earned but not taken as of
   the end of the fiscal year is accrued as an unfunded liability. Accrued unfunded annual
   leave is included in Note 33 as a component of “Payroll and Benefits Payable.”

S. Retirement Plan

   There are two primary retirement systems for federal employees. Employees hired prior
   to January 1, 1987, may participate in the Civil Service Retirement System (CSRS). On
   January 1, 1984, the Federal Employees Retirement System (FERS) went into effect
   pursuant to Public Law 99-335. Most employees hired after December 31, 1983, are
   automatically covered by FERS and Social Security. Employees hired prior to January 1,
   1984, elected to either join FERS and Social Security or remain in CSRS. A primary
   feature of FERS is that it offers a savings plan to which the Agency automatically
   contributes one percent of pay and matches any employee contributions up to an
   additional four percent of pay. The Agency also contributes the employer’s matching
   share for Social Security.

   With the issuance of SFFAS No. 5, "Accounting for Liabilities of the Federal
   Government," accounting and reporting standards were established for liabilities relating
   to the federal employee benefit programs (Retirement, Health Benefits, and Life
13-1-0054                                                                                        66
   Insurance). SFFAS No. 5 requires that the employing agencies recognize the cost of
   pensions and other retirement benefits during their employees’ active years of service.
   SFFAS No. 5 requires that the Office of Personnel Management (OPM), as administrator
   of the CSRS and FERS, the Federal Employees Health Benefits Program, and the Federal
   Employees Group Life Insurance Program, provide federal agencies with the actuarial
   cost factors to compute the liability for each program.

T. 	Prior Period Adjustments and Restatements

   Prior period adjustments, if any, are made in accordance with SFFAS No. 21, “Reporting
   Corrections of Errors and Changes in Accounting Principles.” Specifically, prior period
   adjustments will only be made for material prior period errors to: (1) the current period
   financial statements, and (2) the prior period financial statements presented for
   comparison. Adjustments related to changes in accounting principles will only be made
   to the current period financial statements, but not to prior period financial statements
   presented for comparison.

U. 	Recovery Act Funds

   On February 17, 2009, President Obama signed the American Recovery and
   Reinvestment Act of 2009 (Recovery Act). The Act was enacted to create jobs in the
   United States, encourage technical advances, assist in modernizing the nation's
   infrastructure, and enhance energy independence. The EPA was charged with the task of
   distributing funds to invest in various projects aimed at creating advances in science,
   health, and environmental protection that will provide long-term economic benefits.

   EPA manages almost $7.22 billion in Recovery Act funded projects and programs that
   will help achieve these goals, offer resources to help other “green” agencies, and
   administer environmental laws that will govern Recovery activities. As of September 30,
   2012, EPA has paid out $6.9 billion.

   EPA, in collaboration with states, tribes, local governments, territories and other partners,
   is administering the funds it received under the Recovery Act through four
   appropriations. The funds include:

       	 State and Tribal Assistance Grants (STAG) that in turn include:

              o	 $4 billion for assistance to help communities with water quality and
                 wastewater infrastructure needs and $2 billion for drinking water
                 infrastructure needs (Clean Water and Drinking Water State Revolving
                 Fund programs and Water Quality Planning program);



13-1-0054                                                                                     67
              o	 $100 million for competitive grants to evaluate and clean up former
                 industrial and commercial sites (Brownfields program);

              o	 $300 million for grants and loans to help regional, state and local
                 governments, tribal agencies, and non-profit organizations with projects
                 that reduce diesel emissions (Clean Diesel programs);

       	 $600 million for the cleanup of hazardous sites (Superfund program);

       	 $200 million for cleanup of petroleum leaks from underground storage tanks
          (Leaking Underground Storage Tank program); and

       	 $20 million for audits and investigations conducted by the Inspector General (IG).


   The vast majority of the contracts awarded under the Recovery Act will be entered into
   using competitive contracts. EPA is committed fully to ensuring transparency and
   accountability throughout the Agency in spending Recovery Act funds in accordance
   with OMB guidance.

   EPA set up a Stimulus Steering Committee that meets to review and report on the status
   of the distribution of the Recovery Act Funds to ensure transparency and accuracy. EPA
   also developed a Stewardship Plan which is an Agency-level risk mitigation plan that sets
   out the Agency's Recovery Act risk assessment, internal controls and monitoring
   activities. The Stewardship Plan is divided into seven functional areas: grants,
   interagency agreements, contracts, human capital/payroll, budget execution, performance
   reporting and financial reporting. The Stewardship Plan was developed around
   Government Accountability Office (GAO) standards for internal control. Under each
   functional area, risks are assessed and related control, communication and monitoring
   activities are identified for each impacted program. The Plan is a dynamic document and
   will be updated as revised OMB guidance is issued or additional risks are uncovered.

   EPA has the three-year EPM treasury symbol 6809/100108 that was established to track
   the appropriate operation and maintenance of the funds. EPA’s other Recovery Act
   programs are the following: Office of Inspector General, treasury symbol 6809/120113;
   State and Tribal Assistance Grants, treasury symbol 6809/100102; Payment to the
   Superfund, treasury symbol 6809/100249; Superfund, treasury symbol 6809/108195; and
   Leaking Underground Storage Tank, treasury symbol 6809/108196.

V. Deepwater Horizon Oil Spill

   On April 20, 2010 the Deepwater Horizon drilling rig exploded, releasing large volumes
   of oil into the Gulf of Mexico. As a responsible party, BP is required by the 1990 Oil

13-1-0054                                                                                   68
    Pollution Act to fund the cost of the response and cleanup operations. In FY 2011, the
    EPA worked on the cleanup effort in conjunction with the U.S. Coast Guard who was
    named the lead Federal On-Scene Coordinator and continues to assist the Department of
    Justice on the pending civil litigation.

W. Use of Estimates

    The preparation of financial statements requires management to make certain estimates
    and assumptions that affect the reported amounts of assets and liabilities and the reported
    amounts of revenue and expenses during the reporting period. Actual results could differ
    from those estimates.




Note 2. Fund Balance with Treasury (FBWT)

Fund Balance with Treasury as of September 30, 2012 and 2011, consists of the following:
                                        FY 2012                                    FY 2011
                             Entity    Non-Entity                       Entity    Non-Entity
                            Assets        Assets          Total        Assets        Assets         Total
Trust Funds:
 Superfund           $      95,604 $            - $      95,604 $     114,540 $           - $     114,540
 LUST                       35,310              -        35,310        60,558             -        60,558
 Oil Spill & Misc.           4,682              -         4,682         4,085             -         4,085
Revolving Funds:
 FIFRA/Tolerance              4,808             -          4,808         3,571            -          3,571
 Working Capital             68,319             -         68,319        68,776            -         68,776
 Cr. Reform Finan.              599             -            599           390            -            390
Appropriated             10,300,004             -     10,300,004    12,086,770            -     12,086,770
Other Fund Types            338,748         8,401        347,149       314,522         9,329       323,851

Total                $ 10,848,074 $       8,401 $ 10,856,475 $ 12,653,212 $           9,329 $ 12,662,541



Entity fund balances, except for special fund receipt accounts, are available to pay current
liabilities and to finance authorized purchase commitments (see Status of Fund Balances
below). Entity Assets for Other Fund Types consist of special purpose funds and special
fund receipt accounts, such as the Pesticide Registration funds and the Environmental
Services receipt account. The Non-Entity Assets for Other Fund Types consist of clearing
accounts and deposit funds, which are either awaiting documentation for the determination of
proper disposition or being held by EPA for other entities.




13-1-0054                                                                                               69
     Status of Fund Balances:                                                  FY 2012                    FY 2011

     Unobligated Amounts in Fund Balance:
      Available for Obligation                                   $            2,609,126 $                3,326,812
      Unavailable for Obligation                                                177,277                    171,038
     Net Receivables from Invested Balances                                  (3,269,572)                (3,485,275)
     Balances in Treasury Trust Fund (Note 37)                                     (994)                     1,310
     Obligated Balance not yet Disbursed                                     11,005,812                 12,336,466
     Non-Budgetary FBWT                                                         334,826                    312,190

         Totals                                                  $         10,856,475 $             12,662,541

The funds available for obligation may be apportioned by OMB for new obligations at the
beginning of the following fiscal year. Funds unavailable for obligation are mostly balances
in expired funds, which are available only for adjustments of existing obligations. For FY
2012 and FY 2011 no differences existed between Treasury’s accounts and EPA’s statements
for fund balances with Treasury.

Note 3. Cash and Other Monetary Assets

As of September 30, 2012 and 2011, the balance in the imprest fund was $10 thousand.

Note 4. Investments

As of September 30, 2012 and 2011 investments related to Superfund and LUST consist of
the following:
                                                     Amortized
                                                                       Interest          Investments,          Market
                                    Cost            (Premium)
                                                                      Receivable             Net               Value
                                                     Discount
Intragovernmental Securities:
 Non-Marketable      FY 2012    $   4,509,646           (103,614)            6,971   $        4,620,231   $      4,620,231
 Non-Marketable      FY 2011    $   6,959,480   $       (137,103) $         15,614   $        7,112,197   $      7,112,197


CERCLA, as amended by SARA, authorizes EPA to recover monies to clean up Superfund
sites from responsible parties (RPs). Some RPs file for bankruptcy under Title 11 of the U.S.
Code. In bankruptcy settlements, EPA is an unsecured creditor and is entitled to receive a
percentage of the assets remaining after secured creditors have been satisfied. Some RPs
satisfy their debts by issuing securities of the reorganized company. The Agency does not
intend to exercise ownership rights to these securities, and instead will convert them to cash
as soon as practicable (see Note 6). All investments in Treasury securities are earmarked
funds (see Note 19).

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with earmarked funds. The cash receipts collected from the public for an
earmarked fund are deposited in the U.S. Treasury, which uses the cash for general
Government purposes. Treasury securities are issued to EPA as evidence of its receipts.
13-1-0054                                                                                                               70
Treasury securities are an asset to EPA and a liability to the U.S. Treasury. Because EPA
and the U.S. Treasury are both parts of the Government, these assets and liabilities offset
each other from the standpoint of the Government as a whole. For this reason, they do not
represent an asset or liability in the U.S. Government-wide financial statements.

Treasury securities provide EPA with authority to draw upon the U.S. Treasury to make
future benefit payments or other expenditures. When EPA requires redemption of these
securities to make expenditures, the Government finances those expenditures out of
accumulated cash balances, by raising taxes or other receipts, by borrowing from the public
or repaying less debt, or by curtailing other expenditures. This is the same way that the
Government finances all other expenditures.

Note 5. Accounts Receivable, Net

The Accounts Receivable as of September 30, 2012 and 2011 consist of the following:

                                                         FY 2012          FY 2011
            Intragovernmental:
            Accounts & Interest Receivable       $         29,027 $         35,518
            Less: Allowance for Uncollectibles   $           (811) $           -
               Total                             $        28,216 $         35,518

            Non-Federal:
            Unbilled Accounts Receivable         $         139,138 $        159,170
            Accounts & Interest Receivable               2,036,177        2,176,215
            Less: Allowance for Uncollectibles          (1,684,193)      (1,821,195)
               Total                             $        491,122 $       514,190


The Allowance for Uncollectible Accounts is determined both on a specific identification
basis, as a result of a case-by-case review of receivables, and on a percentage basis for
receivables not specifically identified.




13-1-0054                                                                                     71
Note 6. Other Assets

Other Assets as of September 30, 2012 and 2011 consist of the following:


                Intragovernmental:                                              FY 2012             FY 2011

                 Advances to Federal Agencies                     $              252,537 $          251,649
                 Advances for Postage                                                300                154
                  Total                                           $             252,837 $          251,803


                Non-Federal:
                 Travel Advances                                  $                  202 $               486
                 Other Advances                                                    2,625               1,838
                 Operating Materials and Supplies                                    140                 140
                 Inventory for Sale                                                  167                 102
                   Total                                          $               3,134 $             2,566



Note 7. Loans Receivable, Net

Loans Receivable consists of Asbestos Loan Program loans disbursed from obligations made
prior to FY 1992 and are presented net of allowances for estimated uncollectible loans, if an
allowance was considered necessary. Loans disbursed from obligations made after FY 1991
are governed by the Federal Credit Reform Act, which mandates that the present value of the
subsidy costs (i.e., interest rate differentials, interest subsidies, anticipated delinquencies, and
defaults) associated with direct loans be recognized as an expense in the year the loan is
made. The net loan present value is the gross loan receivable less the subsidy present value.
The amounts as of September 30, 2012 and 2011 are as follows:

                                        FY 2012                                                 FY 2011
                             Loans                        Value of Assets            Loans                        Value of Assets
                         Receivable,    Allowance*             Related to        Receivable,    Allowance*             Related to
                             Gross                          Direct Loans             Gross                          Direct Loans
Direct Loans
Obligated Prior to   $          -                 -   $               -     $            44 $             -   $               44
FY 1992
Direct Loans
Obligated After FY              496           (360)                   136             2,194           (131)                2,063
1991

   Total             $         496 $          (360) $                 136 $          2,238 $         (131) $              2,107

* Allowance for Pre-Credit Reform loans (prior to FY 1992) is the Allowance for Estimated
Uncollectible Loans, and the Allowance for Post Credit Reform Loans (after FY 1991) is the
Allowance for Subsidy Cost (present value).


13-1-0054                                                                                                                      72
During FY 2008, the EPA made a payment within the U.S. Treasury for the Asbestos Loan
Program based on an upward re-estimate of $33 thousand for increased loan financing costs.
It was believed that the payment only consisted of “interest” costs and, as such, an automatic
apportionment, per OMB Circular A-11, Section 120.83, was deemed appropriate.
However, approximately one third ($12 thousand) of the $33 thousand re-estimate was for
increased “subsidy” costs which requires an approved apportionment by OMB before any
payment could be made. Therefore, the payment resulted in a minor technical Antideficiency
Act (ADA) violation. On October 13, 2009, EPA transmitted, as required by OMB Circular
A-11, Section 145, written notifications to the (1) President, (2) President of the Senate, (3)
Speaker of the House of Representatives, (4) Comptroller General, and (5) the Director of
OMB. On May 18, 2011, EPA sent a supplemental letter to the OMB Director to further
identify the names of the persons responsible for the violation, and that they were not
suspected of willfully or knowingly violating the ADA.

Subsidy Expenses for Credit Reform Loans (reported on a cash basis):

                                                 Interest Rate   Technical         Total
                                                  Re-estimate   Re-estimate
       Upward Subsidy Reestimate – FY 2012   $            247 $         85 $        332
       Downward Subsidy Reestimate - FY 2012                                        -
       FY 2012 Totals                       $           247 $          85 $        332

       Upward Subsidy Reestimate – FY 2011   $          104 $          39 $        143
       Downward Subsidy Reestimate - FY 2011                                        -
       FY 2011 Totals                        $          104 $          39 $        143




13-1-0054                                                                                    73
                      Schedule for Reconciling Subsidy Cost Allowance Balances
                                         (Post-1991 Direct Loans)
                                                                                     FY 2012           FY 2011


Beginning balance of the subsidy cost allowance                                  $         (131)   $         (222)

Add: subsidy expense for direct loans disbursed during the
reporting years by component:
                    Interest rate differential costs
                    Default costs (net of recoveries)
                    Fees and other collections
                    Other subsidy costs
Total of the above subsidy expense components                                    $             -   $             -

Adjustments:
                    Loan Modification
                    Fees received
                    Foreclosed property acquired
                    Loans written off
                    Subsidy allowance amortization                               $         103               234
                    Other
End balance of the subsidy cost allowance before reestimates                     $         103     $         234

Add or subtract subsidy reestimates by component:
(a) Interest rate reestimate                                                               (247)             (104)
(b) Technical/default reestimate                                                            (85)              (39)
Total of the above reestimate components                                         $         (332)             (143)

Ending Balance of the subsidy cost allowance                                     $         (360)   $         (131)

EPA has not disbursed Direct Loans since 1993.




13-1-0054                                                                                                            74
Note 8. Accounts Payable and Accrued Liabilities

The Accounts Payable and Accrued Liabilities are current liabilities and consist of the
following amounts as of September 30, 2012 and 2011:

                                                                               FY 2012               FY 2011
             Intragovernmental:
             Accounts Payable                                    $                2,610 $                  62
             Accrued Liabilities                                                 52,411                52,386
                 Total                                           $              55,021 $              52,448

             Non-Federal:                                                      FY 2012              FY 2011
             Accounts Payable                                    $              107,294 $             69,505
             Advances Payable                                                        11                    3
             Interest Payable                                                         7                    7
             Grant Liabilities                                                  460,835              503,249
             Other Accrued Liabilities                                          207,134              344,002
                 Total                                           $             775,281 $            916,766


Other Accrued Liabilities primarily relate to contractor accruals.

Note 9. General Property, Plant, and Equipment, Net

General property, plant, and equipment (PP&E) consist of software, real property, EPA and
contractor-held personal property, and capital leases.

As of September 30, 2012 and 2011, General PP&E consist of the following:
                                            FY 2012                                              FY 2011
                             Acquisition    Accumulated    Net Book Value        Acquisition    Accumulated      Net Book
                                  Value     Depreciation                              Value     Depreciation        Value
EPA-Held Equipment       $      261,279 $      (157,259) $         104,020 $        255,049 $      (147,219) $     107,830
Software                        615,090        (231,599)           383,491          527,603        (190,302)       337,301
Contractor Held Equip.           59,812         (18,711)            41,101           66,808          (22,104)       44,704
Land and Buildings              672,096        (201,140)           470,956          653,518        (188,382)       465,136
Capital Leases                   35,440         (24,987)            10,453           35,440          (23,612)       11,828
   Total                 $    1,643,717 $     (633,696) $       1,010,021 $       1,538,418 $      (571,619) $    966,799




13-1-0054                                                                                                               75
Note 10. Debt Due to Treasury

The debt due to Treasury consists of borrowings to finance the Asbestos Loan Program. The
debt to Treasury as of September 30, 2012 and 2011 is as follows:
All Other Funds                              FY 2012                                           FY 2011
                           Beginning           Net             Ending        Beginning           Net                Ending
                            Balance         Borrowing          Balance        Balance         Borrowing             Balance

Intragovernmental:

Debt to Treasury       $          2,593 $         (1,530) $        1,063 $         4,844 $              (2,251) $       2,593




Note 11. Stewardship Land

The Agency acquires title to certain property and property rights under the authorities
provided in Section 104(j) CERCLA related to remedial clean-up sites. The property rights
are in the form of fee interests (ownership) and easements to allow access to clean-up sites or
to restrict usage of remediated sites. The Agency takes title to the land during remediation
and transfers it to state or local governments upon the completion of clean-up. A site with
“land acquired” may have more than one acquisition property. Sites are not counted as a
withdrawal until all acquired properties have been transferred under the terms of 104(j).

As of September 30, 2012, the Agency possesses the following land and land rights:


                                                              FY 2012                    FY 2011

                     Superfund Sites with
                     Easements
                     Beginning Balance                                  36                         35
                     Additions                                           0                          1
                     Withdrawals                                         0                          0
                     Ending Balance                                     36                         36




                     Superfund Sites with
                     Land Acquired
                     Beginning Balance                                  34                         32
                     Additions                                           0                          4
                     Withdrawals                                         0                          2
                     Ending Balance                                     34                         34




13-1-0054                                                                                                                     76
Note 12. Custodial Liability

Custodial Liability represents the amount of net accounts receivable that, when collected,
will be deposited to the Treasury General Fund. Included in the custodial liability are
amounts for fines and penalties, interest assessments, repayments of loans, and miscellaneous
other accounts receivable. As of September 30, 2012 and 2011, custodial liability is
approximately $119 million and $57 million, respectively.


Note 13. Other Liabilities

Other Liabilities consist of the following as of September 30, 2012:

                                                Covered by       Not Covered by
  Other Liabilities – Intragovernmental         Budgetary            Budgetary           Total
                                                Resources            Resources
  Current
   Employer Contributions & Payroll Taxes $         25,304   $               -    $     25,304
   WCF Advances                                      1,294                   -           1,294
   Other Advances                                   23,505                   -          23,505
   Advances, HRSTF Cashout                          34,341                   -          34,341
   Deferred HRSTF Cashout                              604                   -             604
  Non-Current
   Unfunded FECA Liability                              -                10,472         10,472
   Payable to Treasury Judgment Fund                    -                22,000         22,000
     Total Intragovernmental              $        85,048    $          32,472 $      117,520

  Other Liabilities - Non-Federal
  Current
   Unearned Advances, Non-Federal           $       72,728   $               -    $     72,728
   Liability for Deposit Funds, Non-Federal          9,335                   -           9,335
  Non-Current
   Capital Lease Liability                              -                23,005         23,005
     Total Non-Federal                      $      82,063    $          23,005 $      105,068




13-1-0054                                                                                        77
Other Liabilities consist of the following as of September 30, 2011:

                                                 Covered by       Not Covered by
Other Liabilities – Intragovernmental            Budgetary            Budgetary              Total
                                                 Resources            Resources
Current
 Employer Contributions & Payroll Taxes $            25,495   $               -    $       25,495
 WCF Advances                                         1,337                   -             1,337
 Other Advances                                      38,981                   -            38,981
 Advances, HRSTF Cashout                             34,979                   -            34,979
 Resources Payable to Treasury                            3                   -                 3
Non-Current
 Unfunded FECA Liability                                 -                10,115           10,115
 Payable to Treasury Judgment Fund                       -                22,000           22,000
 Total Intragovernmental                $          100,795    $          32,115 $        132,910

Other Liabilities - Non-Federal
Current
 Unearned Advances                      $            70,084   $               -    $       70,084
 Liability for Deposit Funds                          9,194                   -             9,194
Non-Current
 Capital Lease Liability                                -                24,711            24,711
   Total Non-Federal                    $          79,278     $          24,711 $        103,989



Note 14. Leases

Capital Leases:

The value of assets held under Capital Leases as of September 30, 2012 and 2011 are as
follows:

        Summary of Assets Under Capital Lease:                      FY 2012            FY 2011
        Real Property                                    $           35,285 $           35,285
        Personal Property                                               155                155
            Total                                        $           35,440 $          35,440
        Accumulated Amortization                         $            24,987 $          23,612

EPA had two capital leases for land and buildings housing scientific laboratories and
computer facilities. Both leases include a base rental charge and escalation clauses based
upon either rising operating costs and/or real estate taxes. The base operating costs are
adjusted annually according to escalators in the Consumer Price Indices published by the
Bureau of Labor Statistics, U.S. Department of Labor. The two leases terminate in FY 2013
and FY 2025.


13-1-0054                                                                                            78
The total future minimum capital lease payments are listed below.


                 Future Payments Due:
                 Fiscal Year                                          Capital Leases
                 2013                                             $            5,714
                 2014                                                          4,215
                 2015                                                          4,215
                 2016                                                          4,215
                 After 5 years                                                35,125
                 Total Future Minimum Lease Payments                          53,484
                 Less: Imputed Interest                           $          (30,479)
                 Net Capital Lease Liability                                  23,005
                 Liabilities not Covered by Budgetary Resources   $          23,005
                 (See Note 13)

Operating Leases:

The GSA provides leased real property (land and buildings) as office space for EPA
employees. GSA charges a Standard Level User Charge that approximates the commercial
rental rates for similar properties.

EPA had two direct operating leases for land and buildings housing scientific laboratories
and computer facilities. The leases include a base rental charge and escalation clauses based
upon either rising operating costs and/or real estate taxes. The base operating costs are
adjusted annually according to escalators in the Consumer Price Indices published by the
Bureau of Labor Statistics. Two leases expire in FY 2017 and FY 2020. These charges are
expended from the EPM appropriation.

The total minimum future operating lease costs are listed below:
                                                             Operating Leases, Land and
                                                                     Buildings
              Fiscal Year
              2013                                       $                              89
              2014                                                                      89
              2015                                                                      89
              2016                                                                      89
              Beyond 2017                                                              195

              Total Future Minimum Lease Payments        $                         551




13-1-0054                                                                                    79
Note 15. FECA Actuarial Liabilities

The Federal Employees’ Compensation Act (FECA) provides income and medical cost
protection to covered Federal civilian employees injured on the job, employees who have
incurred a work-related occupational disease, and beneficiaries of employees whose death is
attributable to a job-related injury or occupational disease. Annually, EPA is allocated the
portion of the long term FECA actuarial liability attributable to the entity. The liability is
calculated to estimate the expected liability for death, disability, medical and miscellaneous
costs for approved compensation cases. The liability amounts and the calculation
methodologies are provided by the Department of Labor.

The FECA Actuarial Liability as of September 30, 2012 and 2011 was $46.9 million and
$44.8 million, respectively. The FY 2012 present value of these estimated outflows is
calculated using a discount rate of 2.293 percent in the first year, and 3.138 percent in the
years thereafter. The estimated future costs are recorded as an unfunded liability.

Note 16. Cashout Advances, Superfund

Cashout advances are funds received by EPA, a state, or another PRP under the terms of a
settlement agreement (e.g., consent decree) to finance response action costs at a specified
Superfund site. Under CERCLA Section 122(b)(3), cashout funds received by EPA are
placed in site-specific, interest bearing accounts known as special accounts and are used for
potential future work at such sites in accordance with the terms of the settlement agreement.
Funds placed in special accounts may be disbursed to PRPs, to states that take responsibility
for the site, or to other Federal agencies to conduct or finance response actions in lieu of EPA
without further appropriation by Congress. As of September 30, 2012 and 2011, cashouts are
approximately $736 million and $790 million respectively.

Note 17. Unexpended Appropriations – Other Funds

As of September 30, 2012 and 2011, the Unexpended Appropriations consist of the
following:

         Unexpended Appropriations:                           FY 2012           FY 2011
          Unobligated
           Available                                 $         602,413 $       1,151,603
           Unavailable                                          82,346            74,517
          Undelivered Orders                                 9,127,111        10,236,478
            Total                                    $      9,811,870 $      11,462,598




13-1-0054                                                                                        80
Note 18. Commitments and Contingencies

EPA may be a party in various administrative proceedings, actions and claims brought by or
against it. These include:

     Various personnel actions, suits, or claims brought against the Agency by employees
      and others.
    Various contract and assistance program claims brought against the Agency by
      vendors, grantees and others.
    The legal recovery of Superfund costs incurred for pollution cleanup of specific sites,
      to include the collection of fines and penalties from responsible parties.
   	 Claims against recipients for improperly spent assistance funds which may be settled
      by a reduction of future EPA funding to the grantee or the provision of additional
      grantee matching funds.

As of September 30, 2012 and 2011 total accrued liabilities for commitments and potential
loss contingencies is $25.2 million and $10.2 million, respectively. Further discussion of the
cases and claims that give rise to this accrued liability are discussed immediately below.

Litigation Claims and Assessments

There is currently one legal claim which has been asserted against the EPA pursuant to the
Federal Tort Claims and Fair Labor Standards Acts. This loss has been deemed probable,
and the unfavorable outcome is estimated to be between $10 million and $15 million. EPA
has accrued the higher conservative amount as of September 30, 2012. The maximum
amount of exposure under the claim could range as much as $15 million in the aggregate.

Superfund

Under CERCLA Section 106(a), EPA issues administrative orders that require parties to
clean up contaminated sites. CERCLA Section 106(b) allows a party that has complied with
such an order to petition EPA for reimbursement from the fund of its reasonable costs of
responding to the order, plus interest. To be eligible for reimbursement, the party must
demonstrate either that it was not a liable party under CERCLA Section 107(a) for the
response action ordered, or that the Agency’s selection of the response action was arbitrary
and capricious or otherwise not in accordance with law.

Judgment Fund

In cases that are paid by the U.S. Treasury Judgment Fund, EPA must recognize the full cost
of a claim regardless of which entity is actually paying the claim. Until these claims are
settled or a court judgment is assessed and the Judgment Fund is determined to be the
appropriate source for the payment, claims that are probable and estimable must be
recognized as an expense and liability of the Agency. For these cases, at the time of
13-1-0054                                                                                      81
settlement or judgment, the liability will be reduced and an imputed financing source
recognized. See Interpretation of Federal Financial Accounting Standards No. 2,
“Accounting for Treasury Judgment Fund Transactions.”

As of September 30, 2012, there are no material claims pending in the Treasury’s Judgment
Fund. However, EPA has a $22 million liability to the Treasury Judgment Fund for a
payment made by the Fund to settle a contract dispute claim.

Other Commitments

EPA has a commitment to fund the United States Government’s payment to the Commission
of the North American Agreement on Environmental Cooperation between the Governments
of Canada, the Government of the United Mexican States, and the Government of the United
States of America (commonly referred to as CEC). According to the terms of the agreement,
each government pays an equal share to cover the operating costs of the CEC. EPA paid $3
million to the CEC in the period ended September 30, 2012 and $3 million in the period
ended September 30, 2011.

EPA has a legal commitment under a non-cancellable agreement, subject to the availability
of funds, with the United Nations Environment Program (UNEP). This agreement enables
EPA to provide funding to the Multilateral Fund for the Implementation of the Montreal
Protocol. EPA made payments totaling $9.48 million in FY 2012. Future payments totaling
$11 million have been deemed reasonably possible and are anticipated to be paid in fiscal
years 2013 through 2015.




13-1-0054                                                                                   82
Note 19. Earmarked Funds
                                                   Environmental     LUST            Superfund         Other Earmarked      Total Earmarked
Balance sheet as of September 30, 2012               Services                                               Funds                Funds
Assets
Fund Balance with Treasury                     $         325,719 $      35,310 $           95,604 $             22,518 $              479,151
Investments                                                    -     1,315,101          3,305,130                    -              4,620,231
Accounts Receivable, Net                                       -             -            374,791               10,017                384,808
Other Assets                                                   -           332            114,354                3,924                118,610
            Total Assets                                 325,719     1,350,743          3,889,879               36,459              5,602,800

Other Liabilities                              $              - $       13,837 $        1,055,191 $             29,573 $            1,098,601
             Total Liabilities                 $              - $       13,837 $        1,055,191 $             29,573 $            1,098,601

Cumulative Results of Operations               $         325,719 $   1,336,906 $        2,834,688 $              6,886 $            4,504,199

 Total Liabilities and Net Position            $         325,719 $   1,350,743 $        3,889,879 $             36,459 $            5,602,800

Statement of Changes in Net Cost for the
Period Ended September 30, 2012
Gross Program Costs                            $              - $      137,234 $        1,705,893 $             81,780 $            1,924,907
Less: Earned Revenues                                         -         67,468            305,301               58,796                431,565

             Net Cost of Operations            $              - $       69,766 $        1,400,592 $             22,984 $            1,493,342

Statement of Changes in Net Position for the
Period ended September 30, 2012
Net Position, Beginning of Period              $         302,677 $    3,575,201 $       3,143,619 $               5,666 $           7,027,163
Nonexchange Revenue- Securities Investments                    -         60,572            26,879                     3                87,454
Nonexchange Revenue                                       23,042        170,497             6,517                    12               200,068
Other Budgetary Finance Sources                                -     (2,400,000)        1,033,250                23,345            (1,343,405)
Other Financing Sources                                        -            402            25,015                   844                26,261
Net Cost of Operations                                         -        (69,766)       (1,400,592)              (22,984)           (1,493,342)

Change in Net Position                         $          23,042 $   (2,238,295) $       (308,931) $             1,220 $           (2,522,964)

             Net Position                      $         325,719 $   1,336,906 $        2,834,688 $              6,886 $            4,504,199




13-1-0054                                                                                                                                  83
                                                   Environmental     LUST          Superfund         Other Earmarked       Total Earmarked
Balance sheet as of September 30, 2011               Services                                             Funds                 Funds
Assets
Fund Balance with Treasury                     $         302,677 $      60,558 $        114,540 $             19,500 $               497,275
Investments                                                    -     3,535,052        3,577,145                    -               7,112,197
Accounts Receivable, Net                                       -             -          445,303               16,866                 462,169
Other Assets                                                   -           347          118,355                4,415                 123,117
            Total Assets                                 302,677     3,595,957        4,255,343               40,781               8,194,758

Other Liabilities                              $              - $      20,757 $       1,111,724 $             35,114 $             1,167,595
             Total Liabilities                 $              - $      20,757 $       1,111,724 $             35,114 $             1,167,595

Cumulative Results of Operations               $         302,677 $   3,575,200 $      3,146,619 $              5,667 $             7,030,163

 Total Liabilities and Net Position            $         302,677 $   3,595,957 $      4,258,343 $             40,781 $             8,197,758

Statement of Changes in Net Cost for the
Period Ended September 30, 2011
Gross Program Costs                            $              - $     209,613 $       1,908,317 $            124,214 $             2,242,144
Less: Earned Revenues                                         -             -           532,006              110,839                 642,845

             Net Cost of Operations            $              - $     209,613 $       1,376,311 $             13,375 $             1,599,299

Statement of Changes in Net Position for the
Period ended September 30, 2011
Net Position, Beginning of Period              $         273,416 $   3,539,217 $      3,340,498 $                (749) $           7,152,382
Nonexchange Revenue- Securities Investments                    -        93,156           27,266                     7                120,429
Nonexchange Revenue                                       29,261       152,127            3,596                     -                184,984
Other Budgetary Finance Sources                                -             -        1,120,663                18,342              1,139,005
Other Financing Sources                                        -           314           27,907                 1,441                 29,662
Net Cost of Operations                                         -      (209,613)      (1,376,311)              (13,375)            (1,599,299)

Change in Net Position                         $          29,261 $     35,984 $        (196,879) $             6,415 $              (125,219)

             Net Position                      $         302,677 $   3,575,201 $      3,143,619 $              5,666 $             7,027,163




Earmarked funds are as follows:

Environmental Services Receipt Account: The Environmental Services Receipt Account
authorized by a 1990 act, “To amend the Clean Air Act (P.L. 101-549),”, was established for
the deposit of fee receipts associated with environmental programs, including radon
measurement proficiency ratings and training, motor vehicle engine certifications, and water
pollution permits. Receipts in this special fund can only be appropriated to the S&T and EPM
appropriations to meet the expenses of the programs that generate the receipts if authorized
by Congress in the Agency's appropriations bill.

Leaking Underground Storage Tank (LUST) Trust Fund: The LUST Trust Fund, was
authorized by the Superfund Amendments and Reauthorization Act of 1986 (SARA) as
amended by the Omnibus Budget Reconciliation Act of 1990. The LUST appropriation
provides funding to respond to releases from leaking underground petroleum tanks. The
Agency oversees cleanup and enforcement programs which are implemented by the states.
Funds are allocated to the states through cooperative agreements to clean up those sites
posing the greatest threat to human health and the environment. Funds are used for grants to

13-1-0054                                                                                                                                 84
non-state entities including Indian tribes under Section 8001 of the Resource Conservation
and Recovery Act.

Superfund Trust Fund: In 1980, the Superfund Trust Fund, was established by CERCLA to
provide resources to respond to and clean up hazardous substance emergencies and
abandoned, uncontrolled hazardous waste sites. The Superfund Trust Fund financing is
shared by federal and state governments as well as industry. The EPA allocates funds from
its appropriation to other Federal agencies to carry out CERCLA. Risks to public health and
the environment at uncontrolled hazardous waste sites qualifying for the Agency's National
Priorities List (NPL) are reduced and addressed through a process involving site assessment
and analysis and the design and implementation of cleanup remedies. NPL cleanups and
removals are conducted and financed by the EPA, private parties, or other Federal agencies.
The Superfund Trust Fund includes Treasury’s collections, special account receipts from
settlement agreements, and investment activity.

Other Earmarked Funds:

Oil Spill Liability Trust Fund: The Oil Spill Liability Trust Fund, was authorized by the Oil
Pollution Act of 1990 (OPA). Monies are appropriated from the Oil Spill Liability Trust
Fund to EPA’s Oil Spill Response Account each year. The Agency is responsible for
directing, monitoring and providing technical assistance for major inland oil spill response
activities. This involves setting oil prevention and response standards, initiating enforcement
actions for compliance with OPA and Spill Prevention Control and Countermeasure
requirements, and directing response actions when appropriate. The Agency carries out
research to improve response actions to oil spills including research on the use of remediation
techniques such as dispersants and bioremediation. Funding for specific oil spill cleanup
actions is provided through the U.S. Coast Guard from the Oil Spill Liability Trust Fund
through reimbursable Pollution Removal Funding Agreements (PRFAs) and other inter-
agency agreements.

Miscellaneous Contributed Funds Trust Fund: The Miscellaneous Contributed Funds Trust
Fund authorized in the Federal Water Pollution Control Act (Clean Water Act) as amended
P.L. 92-500 (The Federal Water Pollution Control Act Amendments of 1972), includes gifts
for pollution control programs that are usually designated for a specific use by donors and/or
deposits from pesticide registrants to cover the costs of petition hearings when such hearings
result in unfavorable decisions to the petitioner.

Pesticide Registration Fund: The Pesticide Registration Fund authorized by a 2004 Act,
“Consolidated Appropriations Act (P.L. 108-199),”, and reauthorized in 2007 for five more
years, for the expedited processing of certain registration petitions and associated
establishment of tolerances for pesticides to be used in or on food and animal feed. Fees
covering these activities, as authorized under the FIFRA Amendments of 1988, are to be paid
by industry and deposited into this fund group.


13-1-0054                                                                                    85
Reregistration and Expedited Processing Fund: The Revolving Fund, was authorized by the
FIFRA of 1972, as amended by the FIFRA Amendments of 1988 and as amended by the
Food Quality Protection Act of 1996. Pesticide maintenance fees are paid by industry to
offset the costs of pesticide re-registration and reassessment of tolerances for pesticides used
in or on food and animal feed, as required by law.

Tolerance Revolving Fund: The Tolerance Revolving Fund, was authorized in 1963 for the
deposit of tolerance fees. Fees are paid by industry for Federal services to set pesticide
chemical residue limits in or on food and animal feed. The fees collected prior to January 2,
1997 were accounted for under this fund. Presently collection of these fees is prohibited by
statute, enacted in the Consolidated Appropriations Act, 2004 (P.L. 108-199).

Exxon Valdez Settlement Fund: The Exxon Valdez Settlement Fund authorized by P.L. 102-
389, “Making appropriations for the Department of Veterans Affairs and Housing and Urban
Development, and for sundry independent agencies, boards, commissions, corporations, and
offices for the fiscal year ending September 30, 1993,”, has funds available to carry out
authorized environmental restoration activities. Funding is derived from the collection of
reimbursements under the Exxon Valdez settlement as a result of an oil spill.




13-1-0054                                                                                       86
Note 20. Intragovernmental Costs and Exchange Revenue

Exchange, or earned revenues on the Statement of Net Cost include income from services
provided to Federal agencies and the public, interest revenue (with the exception of interest
earned on trust fund investments), and miscellaneous earned revenue.
                                                  FY 2012                                                FY 2011
                            Intragovernm     With the                                Intragovernm     With the
                            ental            Public            Total                 ental            Public          Total
Clean Air
 Program Costs          $        184,695 $       1,027,551 $       1,212,246     $        159,456 $     1,035,680 $     1,195,136
 Earned Revenue                   12,171             1,372            13,543               13,586           1,034          14,620
   NET COST             $        172,524 $       1,026,179 $       1,198,703     $        145,870 $     1,034,646 $     1,180,516

Clean and Safe Water
 Program Costs          $        380,760 $       5,177,804 $       5,558,564     $        252,748 $     5,125,894 $     5,378,642
 Earned Revenue                    8,220            33,654            41,874                7,333           1,458           8,791
   NET COSTS            $        372,540 $       5,144,150 $       5,516,690     $        245,415 $     5,124,436 $     5,369,851

Land Preservation &
Restoration
 Program Costs          $        358,603 $       2,175,713 $       2,534,316     $        390,431 $     2,180,996 $     2,571,427
 Earned Revenue                   79,371           255,421           334,792              124,874         494,249         619,123
   NET COSTS            $        279,232 $       1,920,292 $       2,199,524     $        265,557 $     1,686,747 $     1,952,304

Healthy Communities &
Ecosystems
 Program Costs          $        184,459 $         593,659 $           778,118   $        335,757 $     1,289,505 $     1,625,262
 Earned Revenue                   12,092            37,106              49,198             12,010          38,725          50,735
   NET COSTS            $        172,367 $         556,553 $           728,920   $        323,747 $     1,250,780 $     1,574,527

Compliance &
Environmental
Stewardship
 Program Costs          $        216,865 $         605,163 $           822,028   $        192,243 $      614,514 $        806,757
 Earned Revenue                    5,877            76,542              82,419              3,607          1,455            5,062
   NET COSTS            $        210,988 $         528,621 $           739,609   $        188,636 $      613,059 $        801,695

Total
 Program Costs          $      1,325,382 $       9,579,890 $      10,905,272     $      1,330,635 $    10,246,589 $    11,577,224
 Earned Revenue                  117,731           404,095           521,826              161,410         536,921         698,331
   NET COSTS            $      1,207,651 $       9,175,795 $      10,383,446     $      1,169,225 $     9,709,668 $    10,878,893




Intragovernmental costs relate to the source of goods or services not the classification of the
related revenue.




13-1-0054                                                                                                                      87
Note 21. Cost of Stewardship Land

There were no costs related to the acquisition of stewardship land for September 30, 2012
and $438 thousand for September 30, 2011. These costs are included in the Statement of Net
Cost.

Note 22. Environmental Cleanup Costs

As of September 30, 2012, EPA has 2 sites that require clean up stemming from its activities.
Two claimants’ chances of success are characterized as probable with costs amounting to
$180 thousand, may be paid out of the Treasury Judgment Fund. For sites that had previously
been listed, it was determined by EPA’s Office of General Counsel to discontinue reporting
the potential environmental liabilities for the following reasons: (1) although EPA has been
put on notice that it is subject to a contribution claim under CERCLA, no direct demand for
compensation has been made to EPA; (2) any demand against EPA will be resolved only
after the Superfund cleanup work is completed, which may be years in the future; and (3)
there was no legal activity on these matters in FY 2012 or in FY 2011.

Accrued Cleanup Cost:

EPA has 14 sites that will require permanent closure, and EPA is responsible to fund the
environmental cleanup of those sites. As of September 30, 2012 and 2011, the estimated
costs for site cleanup were $21.6 million and $20.84 million, respectively. Since the cleanup
costs associated with permanent closure were not primarily recovered through user fees, EPA
has elected to recognize the estimated total cleanup cost as a liability and record changes to
the estimate in subsequent years.

Note 23. State Credits

Authorizing statutory language for Superfund and related Federal regulations requires states
to enter into Superfund State Contracts (SSC) when EPA assumes the lead for a remedial
action in their state. The SSC defines the state’s role in the remedial action and obtains the
state’s assurance that it will share in the cost of the remedial action. Under Superfund’s
authorizing statutory language, states will provide EPA with a 10 percent cost share for
remedial action costs incurred at privately owned or operated sites, and at least 50 percent of
all response activities (i.e., removal, remedial planning, remedial action, and enforcement) at
publicly operated sites. In some cases, states may use EPA-approved credits to reduce all or
part of their cost share requirement that would otherwise be borne by the states. The credit is
limited to state site-specific expenses EPA has determined to be reasonable, documented,
direct out-of-pocket expenditures of non-Federal funds for remedial action.

Once EPA has reviewed and approved a state’s claim for credit, the state must first apply the
credit at the site where it was earned. The state may apply any excess/remaining credit to

13-1-0054                                                                                     88
another site when approved by EPA. As of September 30, 2012 and 2011, the total remaining
state credits have been estimated at $24.7 million and $22.2 million, respectively.

Note 24. Preauthorized Mixed Funding Agreements

Under Superfund preauthorized mixed funding agreements, PRPs agree to perform response
actions at their sites with the understanding that EPA will reimburse them a certain
percentage of their total response action costs. EPA's authority to enter into mixed funding
agreements is provided under CERCLA
                                          Section 111(a)(2). Under CERCLA
                                                                              Section
122(b)(1), as amended by SARA, PRPs may assert a claim against the Superfund Trust Fund
for a portion of the costs they incurred while conducting a preauthorized response action
agreed to under a mixed funding agreement. As of September 30, 2012, EPA had 3
outstanding preauthorized mixed funding agreements with obligations totaling $4.7 million.
As of September 30, 2011, EPA had 4 such agreements for $11.5 million. A liability is not
recognized for these amounts until all work has been performed by the PRP and has been
approved by EPA for payment. Further, EPA will not disburse any funds under these
agreements until the PRP’s application, claim, and claims adjustment processes have been
reviewed and approved by EPA.

Note 25. Custodial Revenues and Accounts Receivable

                                                                FY 2012          FY 2011
     Fines, Penalties and Other Miscellaneous Receipts    $    184,211 $         126,351
     Accounts Receivable for Fines, Penalties and Other
     Miscellaneous Receipts:
      Accounts Receivable                                 $     214,530 $        236,313
      Less: Allowance for Uncollectible Accounts                 (99,606)        (184,366)

            Total                                         $    114,924 $          51,947


EPA uses the accrual basis of accounting for the collection of fines, penalties and
miscellaneous receipts. Collectability by EPA of the fines and penalties is based on the
PRPs’ willingness and ability to pay.

Note 26. Reconciliation of President’s Budget to the Statement of Budgetary Resources

Budgetary resources, obligations incurred and outlays, as presented in the audited
FY 2012 Statement of Budgetary Resources will be reconciled to the amounts included in the
FY 2013 Budget of the United States Government when they become available. The Budget
of the United States Government with actual numbers for FY 2012 has not yet been
published. We expect it will be published by early 2013, and it will be available on the OMB
website at http://www.whitehouse.gov/.

13-1-0054                                                                                    89
The actual amounts published for the year ended September 30, 2011 are listed immediately
below:

                                                  Budgetary                        Offsetting
                  FY 2011
                                                  Resources        Obligations      Receipts      Net Outlays
Statement of Budgetary Resources             $    15,488,427 $      11,990,577 $   1,291,761 $     12,066,123
Expired and Immaterial Funds*                       (172,802)
Rounding Differences**                                   375             423            5,239            877
Reported in Budget of the U. S. Government   $   15,316,000 $     11,991,000 $     1,297,000 $    12,067,000

* Expired funds are not included in Budgetary Resources Available for Obligation in the 

Budget Appendix (lines 23.90 and 10.00). Also, minor funds are not included in the Budget 

Appendix. 

** Balances are rounded to millions in the Budget Appendix. 


Note 27. Recoveries and Resources Not Available, Statement of Budgetary Resources

Recoveries of Prior Year Obligations, Temporarily Not Available, and Permanently Not 

Available on the Statement of Budgetary Resources consist of the following amounts for 

September 30, 2012 and 2011:
                                                                     FY 2012          FY 2011
            Recoveries of Prior Year Obligations - Downward
            adjustments of prior years’ obligations         $         571,576 $        270,664
            Temporarily Not Available - Rescinded Authority              (450)            (553)
            Permanently Not Available:
             Payments to Treasury                                      (1,529)          (2,508)
             Rescinded authority                                      (58,203)        (157,166)
             Canceled authority                                       (30,116)         (20,019)
               Total Permanently Not Available              $        (89,848) $      (179,693)


Note 28. Unobligated Balances Available

Unobligated balances are a combination of two lines on the Statement of Budgetary
Resources: Apportioned, Unobligated Balances and Unobligated Balances Not Available.
Unexpired unobligated balances are available to be apportioned by the OMB for new
obligations at the beginning of the following fiscal year. The expired unobligated balances
are only available for upward adjustments of existing obligations.

The unobligated balances available consist of the following as of September 30, 2012 and
2011:
                                                                  FY 2012           FY 2011
                Unexpired Unobligated Balance         $           2,609,303 $       3,325,991
                Expired Unobligated Balance                         177,101           171,859
                   Total                              $          2,786,404 $       3,497,850

13-1-0054                                                                                                  90
Note 29. Undelivered Orders at the End of the Period

Budgetary resources obligated for undelivered orders at September 30, 2012 and 2011 were
$10.60 billion and $11.91 billion, respectively.

Note 30. Offsetting Receipts

Distributed offsetting receipts credited to the general fund, special fund, or trust fund receipt
accounts offset gross outlays. For FY 2012 and 2011, the following receipts were generated
from these activities:

                                                                   FY 2012         FY 2011
            Trust Fund Recoveries                          $         45,413 $        97,623
            Special Fund Environmental Service                       23,271           29,257
            Trust Fund Appropriation                              1,075,367        1,156,073
            Miscellaneous Receipt and Clearing Accounts              19,685           8,808
              Total                                        $     1,163,736 $     1,291,761


Note 31. Transfers-In and Out, Statement of Changes in Net Position

Appropriation Transfers, In/Out:

For FY 2012 and 2011, the Appropriation Transfers under Budgetary Financing Sources on
the Statement of Changes in Net Position are comprised of non-expenditure transfers that
affect Unexpended Appropriations for non-invested appropriations. These amounts are
included in the Budget Authority, Net Transfers and Prior Year Unobligated Balance, Net
Transfers lines on the Statement of Budgetary Resources. Details of the Appropriation
Transfers on the Statement of Changes in Net Position and reconciliation with the Statement
of Budgetary Resources follows for September 30, 2012 and 2011:

Transfers In/Out Without Reimbursement, Budgetary:

              Fund/Type of Account                              FY 2012          FY 2011
              Army Corps of Engineers                  $              5$            1,750
              U.S. Navy
                Total Appropriation Transfers (Other   $               5$           1,750
              Funds)

              Net Transfers from Invested Funds       $         3,683,571 $      1,370,349
              Transfers to Another Agency                               -            1,750
              Allocations Rescinded                                   389              476
               Total of Net Transfers on Statement of
              Budgetary Resources                     $        3,683,960 $      1,372,575

13-1-0054                                                                                       91
For FY 2012 and 2011, Transfers In/Out under Budgetary Financing Sources on the
Statement of Changes in Net Position consist of transfers between EPA funds. These
transfers affect Cumulative Results of Operations. Details of the transfers-in and transfers-
out, expenditure and nonexpenditure, follows for September 30, 2012 and 2011:
Type of Transfer/Funds                            FY 2012                              FY 2011

                                              Earmarked         Other Funds         Earmarked        Other Funds
Transfers-in (out) nonexpenditure,
Earmark to S&T and OIG funds              $        (32,018)            32,018 $         (35,410) $         35,410
Capital Transfer                                    (5,000)
Transfers-in nonexpenditure, Oil Spill              23,344                               18,342
Transfers-out, Superfund to Oil Spill               (5,099)
Transfer-out LUST                               (2,400,000)                                     -              -
Total Transfer in (out) without
Reimbursement, Budgetary                  $    (2,418,773) $          32,018 $         (17,068) $         35,410


Transfers In/Out without Reimbursement, Other Financing Sources:

For FY 2012 and 2011, Transfers In/Out without Reimbursement under Other Financing
Sources on the Statement of Changes in Net Position are comprised of transfers of property.

The amounts reported on the Statement of Changes in Net Position are as follows for
September 30, 2012 and 2011:

Type of Transfer/Funds                            FY 2012                              FY 2011

                                              Earmarked         Other Funds         Earmarked     Other Funds
Transfers-in property                     $               - $                 - $           (1) $         180

Transfers (out) of prior year negative

subsidy to be paid following year                                                                           (256)

Total Transfer in (out) without

Reimbursement, Budgetary                  $               - $                 - $           (1) $            (76)




Note 32. Imputed Financing

In accordance with SFFAS No. 5, “Accounting for Liabilities of the Federal Government,”
Federal agencies must recognize the portion of employees’ pensions and other retirement
benefits to be paid by the OPM trust funds. These amounts are recorded as imputed costs
and imputed financing for each agency. Each year the OPM provides Federal agencies with
cost factors to calculate these imputed costs and financing that apply to the current year.
These cost factors are multiplied by the current year’s salaries or number of employees, as
applicable, to provide an estimate of the imputed financing that the OPM trust funds will
provide for each agency. The estimates for FY 2012 were $151.6 million ($24.1 million
from Earmarked funds, and $127.5 million from Other Funds). For FY 2011, the estimates


13-1-0054                                                                                                      92
were $164.4 million ($25.8 million from Earmarked funds, and $138.6 million from Other
Funds).

SFFAS No. 4, “Managerial Cost Accounting Standards and Concepts” and SFFAS No. 30,
“Inter-Entity Cost Implementation,” requires Federal agencies to recognize the costs of goods
and services received from other Federal entities that are not fully reimbursed, if material.
EPA estimates imputed costs for inter-entity transactions that are not at full cost and records
imputed costs and financing for these unreimbursed costs subject to materiality. EPA applies
its Headquarters General and Administrative indirect cost rate to expenses incurred for inter-
entity transactions for which other Federal agencies did not include indirect costs to estimate
the amount of unreimbursed (i.e., imputed) costs. For FY 2012 total imputed costs were $6.5
million ($2.2 million from Earmarked funds, and $4.3 million from Other Funds).

In addition to the pension and retirement benefits described above, EPA also records imputed
costs and financing for Treasury Judgment Fund payments made on behalf of the Agency.
Entries are made in accordance with the Interpretation of Federal Financial Accounting
Standards No. 2, “Accounting for Treasury Judgment Fund Transactions.” For FY 2012
entries for Judgment Fund payments totaled $10.0 million (Other Funds). For FY 2011,
entries for Judgment Fund payments totaled $2.6 million (Other Funds).

The combined total of imputed financing sources for FY 2012 and FY 2011 is $168.1 million
and $178.6 million, respectively.

Note 33. Payroll and Benefits Payable

Payroll and benefits payable to EPA employees for the years ending September 30, 2012 and
2011 consist of the following:
                                             Covered by      Not Covered
   FY 2012 Payroll & Benefits Payable        Budgetary      by Budgetary              Total
                                             Resources         Resources
   Accrued Funded Payroll & Benefits     $       72,799 $              - $            72,799
   Withholdings Payable                          31,511               -               31,511
   Employer Contributions Payable-TSP             4,163                -               4,163
   Accrued Unfunded Annual Leave                      -          158,254             158,254
      Total - Current                    $     108,473 $        158,254 $           266,727



   FY 2011 Payroll & Benefits Payable

   Accrued Funded Payroll and Benefits   $       73,432 $              - $            73,432
   Withholdings Payable                          32,050               -               32,050
   Employer Contributions Payable-TSP             4,008                -               4,008
   Accrued Unfunded Annual Leave                      -          162,845             162,845
     Total - Current                     $     109,490 $        162,845 $           272,335


13-1-0054                                                                                      93
Note 34. Other Adjustments, Statement of Changes in Net Position

The Other Adjustments under Budgetary Financing Sources on the Statement of Changes in
Net Position consist of rescissions to appropriated funds and cancellation of funds that
expired 5 years earlier. These amounts affect Unexpended Appropriations.

                                                      Other Funds       Other Funds
                                                        FY 2012           FY 2011
                   Rescissions to General
                   Appropriations               $            64,991 $        157,208
                   Canceled General Authority                23,252           19,978
                      Total Other Adjustments   $           88,243 $        177,186



Note 35. Non-exchange Revenue, Statement of Changes in Net Position

Non-exchange Revenue, Budgetary Financing Sources, on the Statement of Changes in Net
Position as of September 30, 2012 and 2011 consists of the following items:

                                                    Earmarked Funds        Earmarked Funds
                                                        FY 2012                FY 2011
            Interest on Trust Fund          $                   87,454 $             120,429
            Tax Revenue, Net of Refunds                       170,392                152,437
            Fines and Penalties Revenue                          6,624                 3,286
            Special Receipt Fund Revenue                        23,053                29,261
                Total Nonexchange Revenue   $                287,523 $              305,413




13-1-0054                                                                                      94
Note 36. Reconciliation of Net Cost of Operations to Budget
                                                                                   FY 2012          FY 2011
RESOURCES USED TO FINANCE ACTIVITIES
Budgetary Resources Obligated
  Obligations Incurred                                                         $     13,782,833 $    11,990,577
  Less: Spending Authority from Offsetting Collections and Recoveries                (1,154,627)     (1,020,941)
  Obligations, Net of Offsetting Collections                                   $     12,628,206 $    10,969,636
  Less: Offsetting Reciepts                                                          (3,544,465)     (1,282,958)
    Net Obligations                                                            $      9,083,741 $     9,686,678
Other Resources
  Donations of Property                                                        $             - $            50
  Transfers In/Out without Reimbursement, Property                                           -            (178)
  Imputed Financing Sources                                                            168,142         178,654
  Other Resources to Finance Activities                                                    (76)              -
     Net Other Resources Used to Finance Activities                            $       168,066 $       178,526

Total Resources Used to Finance Activities                                     $     9,251,807 $      9,865,204

RESOURCES USED TO FINANCE ITEMS
NOT PART OF THE NET COST OF OPERATIONS:
  Change in Budgetary Resources Obligated                                      $     1,138,862 $      1,031,615
  Budgetary Offsetting Collections and Receipts that
    Do Not Affect Net Cost of Operations:
      Credit Program Collections Increasing Loan Liabilities for
        Guarantees or Subsidy Allowances:                                                6,777            2,759
      Offsetting Reciepts Not Affecting Net Cost                                        69,098          126,885
  Resources that Finance Asset Acquisition                                            (145,656)        (190,101)
  Other Resources Not Affecting Net Cost                                                    76                -

Total Resources Used to Finance Items Not Part of the Net Cost of Operations   $     1,069,157 $       971,158

Total Resources Used to Finance the Net Cost of Operations                     $     10,320,964 $    10,836,362

COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL                                 FY 2012          FY 2011
NOT REQUIRE OR GENERATE RESOURCES IN THE CURRENT PERIOD:
Components Requiring or Generating Resources in Future Periods:
  Increase in Annual Leave Liability                                           $        (4,590) $          (823)
  Increase in Environmental and Disposal Liability                                         722              484
  Increase in Unfunded Contingencies                                                    15,000            5,807
  Upward/ Downward Reestimates of Credit Subsidy Expense                                   189              394
  Increase in Public Exchange Revenue Receivables                                      (35,266)        (231,519)
  Increase in Workers Compensation Costs                                                 2,429             (221)
  Other                                                                                  1,242            1,563
Total Components of Net Cost of Operations that Require or
 Generate Resources in Future Periods                                          $       (20,274) $      (224,315)

Components Not Requiring/ Generating Resources:
  Depreciation and Amortization                                                $        96,481 $        73,640
  Expenses Not Requiring Budgetary Resources                                           (13,725)        193,206
Total Components of Net Cost that Will Not Require or Generate Resources       $        82,756 $       266,846

Total Components of Net Cost of Operations That Will Not Require or            $        62,482 $        42,531
Generate Resources in the Current Period

Net Cost of Operations                                                         $     10,383,446 $    10,878,893

13-1-0054                                                                                                     95
Note 37. Amounts Held by Treasury (Unaudited)

Amounts held by Treasury for future appropriations consist of amounts held in trusteeship by
Treasury in the Superfund and LUST Trust Funds.

Superfund

Superfund is supported by general revenues, cost recoveries of funds spent to clean up
hazardous waste sites, interest income, and fines and penalties.

The following reflects the Superfund Trust Fund maintained by Treasury as of September 30,
2012 and 2011. The amounts contained in these notes have been provided by Treasury. As
indicated, a portion of the outlays represents amounts received by EPA’s Superfund Trust
Fund; such funds are eliminated on consolidation with the Superfund Trust Fund maintained
by Treasury.

       SUPERFUND FY 2012                     EPA            Treasury          Combined
       Undistributed Balances
        Uninvested Fund Balance          $            - $          1,723 $           1,723
       Total Undisbursed Balance                      -            1,723             1,723
       Interest Receivable                            -            4,530             4,530
       Investments, Net                       3,171,409          129,191         3,300,600
          Total Assets                   $    3,171,409 $        135,444 $       3,306,853

       Liabilities & Equity
       Equity                            $    3,171,409 $        135,444 $       3,306,853
          Total Liabilities and Equity   $    3,171,409 $        135,444 $       3,306,853
       Receipts
        Corporate Environmental                      -             (104)             (104)
        Cost Recoveries                              -            45,413            45,413
        Fines & Penalties                            -             1,176             1,176
       Total Revenue                                 -            46,485            46,485
       Appropriations Received                       -         1,075,367         1,075,367
       Interest Income                               -            26,879            26,879
          Total Receipts                 $           - $       1,148,731 $       1,148,731
       Outlays
        Transfers to/from EPA, Net       $    1,221,693 $     (1,221,693) $             -
          Total Outlays                       1,221,693       (1,221,693)               -
       Net Income                        $   1,221,693 $        (72,962) $      1,148,731



In FY 2012, the EPA received an appropriation of $1.08 billion for Superfund. Treasury’s
Bureau of Public Debt (BPD), the manager of the Superfund Trust Fund assets, records a
liability to EPA for the amount of the appropriation. BPD does this to indicate those trust
fund assets that have been assigned for use and, therefore, are not available for appropriation.
13-1-0054                                                                                     96
As of September 30, 2012 and 2011, the Treasury Trust Fund has a liability to EPA for
previously appropriated funds of $3.17 billion and $3.37 billion, respectively.

      SUPERFUND FY 2011                          EPA       Treasury         Combined
      Undistributed Balances
       Uninvested Fund Balance          $            - $           15 $             15
      Total Undisbursed Balance                      -             15               15
      Interest Receivable                            -          4,362            4,362
      Investments, Net                       3,368,754        204,030        3,572,784
         Total Assets                   $    3,368,754 $      208,407 $      3,577,161
      Liabilities & Equity
      Receipts and Outlays                           -                               -
      Equity                            $    3,368,754 $      208,407 $      3,577,161
         Total Liabilities and Equity   $    3,368,754 $      208,407 $      3,577,161
      Receipts
       Corporate Environmental                      -             310              310
       Cost Recoveries                              -          97,623           97,623
       Fines & Penalties                            -           1,755            1,755
      Total Revenue                                 -          99,688           99,688
      Appropriations Received                       -       1,156,073        1,156,073
      Interest Income                               -          27,266           27,266
         Total Receipts                 $           - $     1,283,027 $      1,283,027
      Outlays
       Transfers to/from EPA, Net       $    1,292,883 $   (1,292,883) $            -
         Total Outlays                       1,292,883     (1,292,883)              -
      Net Income                        $   1,292,883 $        (9,856) $    1,283,027




13-1-0054                                                                                97
LUST

LUST is supported primarily by a sales tax on motor fuels to clean up LUST waste sites. In
FY 2012 and 2011, there were no fund receipts from cost recoveries. Revenue provisions in
section 40201 of Public Law 112-141 transferred and appropriated $2.4 billion of LUST
funds to the Highway Trust Fund. The amounts contained in these notes are provided by
Treasury. Outlays represent appropriations received by EPA’s LUST Trust Fund; such funds
are eliminated on consolidation with the LUST Trust Fund maintained by Treasury.


       LUST FY 2012                            EPA         Treasury        Combined
       Undistributed Balances
        Uninvested Fund Balance      $            - $         (2,717) $        (2,717)
       Total Undisbursed Balance                  -           (2,717)          (2,717)
       Interest Receivable                        -             2,442            2,442
       Investments, Net                           -        1,312,659        1,312,659
            Total Assets             $            - $      1,312,384 $      1,312,384

       Liabilities & Equity
       Equity                        $            - $      1,312,384 $      1,312,384


       Receipts
        Highway TF Tax               $            - $        159,325 $       159,325
        Airport TF Tax                            -           11,082          11,082
        Inland TF Tax                             -               90              90
       Total Revenue                              -          170,497         170,497
       Interest Income                            -          128,040         128,040
            Total Receipts           $            - $        298,537 $       298,537
       Outlays
        Transfers to/from EPA, Net   $     2,504,142 $    (2,504,142) $             -
          Total Outlays                    2,504,142      (2,504,142)               -
       Net Income                    $    2,504,142 $    (2,205,605) $      298,537




13-1-0054                                                                                98
      LUST FY 2011                              EPA         Treasury         Combined
      Undistributed Balances
       Uninvested Fund Balance      $             - $           1,295 $          1,295
      Total Undisbursed Balance                   -             1,295            1,295
      Interest Receivable                         -            11,252           11,252
      Investments, Net                            -          3,523,800       3,523,800
            Total Assets            $             - $        3,536,347 $     3,536,347
      Liabilities & Equity
      Equity                        $             - $        3,536,347 $     3,536,347


      Receipts
       Highway TF Tax               $             - $         141,301 $        141,301
       Airport TF Tax                             -            10,751           10,751
       Inland TF Tax                              -                75               75
      Total Revenue                               -           152,127          152,127
      Interest Income                             -            93,156           93,156
         Total Receipts             $             - $         245,283 $        245,283
      Outlays
       Transfers to/from EPA, Net   $        112,875 $       (112,875) $            -
         Total Outlays                       112,875         (112,875)              -
      Net Income                    $       112,875 $        132,408 $        245,283




Note 38. Antideficiency Act Violations

The EPA experienced an Antideficiency Act violation on November 18 and 19, 2010 in the
agency's Oil Spill Response Account in the amount of $502,215. The violation occurred
when the EPA made an expenditure in excess of the funds available in the account. The EPA
was participating in the response to the Deepwater Horizon oil spill while simultaneously
responding to a major inland oil spill in Enbridge, Michigan. The violation was rectified on
November 20, 2010, when the EPA was reimbursed with funds from the U.S. Coast Guard.
On October 25, 2011 EPA transmitted, as required by OMB Circular A-11, Section 145,
written notifications to the (1) President, (2) President of the Senate, (3) Speaker of the
House of Representatives, (4) Comptroller General, and (5) the Director of OMB.




13-1-0054                                                                                 99
         Required Supplementary Information (Unaudited)
                              Environmental Protection Agency
                                As of September 30, 2012
                                 (Dollars in Thousands)

1. Deferred Maintenance

Deferred maintenance is maintenance that was not performed when it should have been, that
was scheduled and not performed, or that was delayed for a future period. Maintenance is the
act of keeping property, plant, and equipment (PP&E) in acceptable operating condition and
includes preventive maintenance, normal repairs, replacement of parts and structural
components, and other activities needed to preserve the asset so that it can deliver acceptable
performance and achieve its expected life. Maintenance excludes activities aimed at
expanding the capacity of an asset or otherwise upgrading it to serve needs different from or
significantly greater than those originally intended.

The EPA classifies tangible property, plant, and equipment as follows: (1) EPA-Held
Equipment, (2) Contractor-Held Equipment, (3) Land and Buildings, and, (4) Capital Leases.
The condition assessment survey method of measuring deferred maintenance is utilized. The
Agency adopts requirements or standards for acceptable operating condition in conformance
with industry practices. The deferred maintenance as of September 2012 is:

                                                            2012
                             Asset Category:
                             Buildings                 $     4,927
                             EPA Held Equipment                    70
                             Total Deferred Maintenance $    4,997



2. Stewardship Land

Stewardship land is acquired as contaminated sites in need of remediation and clean-up; thus
the quality of the land is far-below the standard for usable and manageable land. Easements
on stewardship lands are in good and usable condition but acquired in order to gain access to
contaminated sites.




13-1-0054                                                                                   100

                       Required Supplementary Information (Unaudited)
                                                         Environmental Protection Agency
                                                             As of September 30, 2012
                                                              (Dollars in Thousands)

             3.	 Supplemental Combined Statement of Budgetary Resources
                 For the Period Ending September 30, 2012
                                                                                     EPM         FIFRA              LUST          S&T         STAG         OTHER          TOTAL
BUDGETARY RESOURCES
Unobligated Balance, Brought Forward, October 1:                               $     293,816 $    2,141 $              7,834 $   188,313 $     858,529 $   2,147,217 $    3,497,850
      Unobligated balance brought forward, October 1, as adjusted                    293,816      2,141                7,834     188,313       858,529     2,147,217      3,497,850
Recoveries of Prior Year Unpaid Obligations                                          169,984             9             4,373      40,865       166,688       189,657        571,576
Other changes in unobligated balance                                                 (14,536)        -                    -        (7,281)       (6,788)       (3,034)       (31,639)
Unobligated balance from prior year budget authority, net                            449,264      2,150               12,207     221,897     1,018,429     2,333,840      4,037,787
Appropriations (discretionary and mandatory)                                       2,678,222         -             2,504,142     793,728     3,567,937     2,404,370     11,948,399
Spending authority from offsetting collections (discretionary and mandatory)          50,824     22,011                  157      34,783           970       474,306        583,051
Total Budgetary Resources                                                      $   3,178,310 $   24,161 $          2,516,506 $ 1,050,408 $   4,587,336 $   5,212,516 $   16,569,237


STATUS OF BUDGETARY RESOURCES
Obligations incurred                                                           $   2,876,321 $   21,781 $          2,508,755 $   870,817 $   4,268,252 $   3,236,907 $   13,782,833
Unobligated balance, end of year:
   Apportioned                                                                       183,217      2,380                4,072     145,400       306,662     1,967,396      2,609,127
   Unapportioned                                                                     118,772         -                 3,679      34,191        12,422         8,213        177,277
Total unobligated balance, end of period                                             301,989      2,380                7,751     179,591       319,084     1,975,609      2,786,404
Total Status of Budgetary Resources                                            $   3,178,310 $   24,161 $          2,516,506 $ 1,050,408 $   4,587,336 $   5,212,516 $   16,569,237


CHANGE IN OBLIGATED BALANCE
Unpaid Obligations, Brought Forward, October 1 (gross)                         $   1,406,648 $    1,430 $            167,950 $   421,966 $   9,011,098 $   1,765,802 $   12,774,894
Uncollected customer payments from Federal Sources, brought forward, October 1      (123,384)        -                    -       (38,781)          -       (276,263)      (438,428)
   Obligated balance, start of year (net), before adjustments                      1,283,264      1,430              167,950     383,185     9,011,098     1,489,539     12,336,466
Obligated balance, start of year (net), as adjusted                                1,283,264      1,430              167,950     383,185     9,011,098     1,489,539     12,336,466
Obligations incurred                                                               2,876,321     21,781            2,508,755     870,817     4,268,252     3,236,907     13,782,833
Outlays (gross)                                                                    (2,813,687)   (20,771)          (2,543,892)   (864,502)   (5,223,536)   (3,207,921)   (14,674,309)
Change in uncollected customer payments from Federal sources                         (13,380)        -                    -        (7,316)          -       (112,218)      (132,914)
Recoveries of prior year unpaid obligations                                         (169,984)            (9)           (4,373)    (40,865)    (166,688)     (189,657)      (571,576)
Obligated balance, end of period
   Unpaid obligations, end of year (gross)                                         1,299,298      2,431              128,440     387,416     7,889,126     1,605,131     11,311,842
   Uncollected customer payments from Federal sources, end of year                  (110,004)        -                    -       (31,465)          -       (164,045)      (305,514)
Obligated balance, end of period (net)                                         $   1,189,294 $    2,431 $            128,440 $   355,951 $   7,889,126 $   1,441,086 $   11,006,328


BUDGET AUTHORITY AND OUTLAYS, NET:
Budget authority, gross (discretionary and mandatory)                          $   2,729,046 $   22,011 $          2,504,299 $   828,511 $   3,568,907 $   2,878,676 $   12,531,450
Actual offsetting collections (discretionary and mandatory)                          (64,203)    (22,011)               (156)     (42,100)        (970)     (586,525)      (715,965)
Change in uncollected customer payments from Federal sources                         (13,380)        -                    -        (7,316)          -       (112,218)      (132,914)
Budget authority, net (discretionary and mandatory)                            $   2,651,463 $       -         $   2,504,143 $   779,095 $   3,567,937 $   2,179,933 $   11,682,571


Outlays, gross (discretionary and mandatory)                                   $   2,813,687 $   20,771 $          2,543,892 $   864,502 $   5,223,536 $   3,207,921 $   14,674,309
Actual offsetting collections (discretionary and mandatory)                          (64,203)    (22,011)               (156)     (42,100)        (970)     (586,525)      (715,965)
Outlays, net (discretionary and mandatory)                                         2,749,484      (1,240)          2,543,736     822,402     5,222,566     2,621,396     13,958,344
Distributed offsetting receipts                                                           -          -                    -           -             -      (1,163,736)    (1,163,736)
Agency outlays, net (discretionary and mandatory)                              $   2,749,484 $    (1,240) $        2,543,736 $   822,402 $   5,222,566 $   1,457,660 $   12,794,608




       13-1-0054	                                                                                                                                                101

                           Environmental Protection Agency 

                    Required Supplemental Stewardship Information 

                        For the Year Ended September 30, 2012 

                                (Dollars in Thousands)



INVESTMENT IN THE NATION’S RESEARCH AND DEVELOPMENT:

EPA’s Office of Research and Development provides the crucial underpinnings for EPA
decision-making by conducting cutting-edge science and technical analysis to develop
sustainable solutions to our environmental problems and employ more innovative and
effective approaches to reducing environmental risks. Public and private sector institutions
have long been significant contributors to our nation’s environment and human health
research agenda. EPA, however, is unique among scientific institutions in this country in
combining research, analysis, and the integration of scientific information across the full
spectrum of health and ecological issues and across the risk assessment and risk management
paradigm. Research enables us to identify the most important sources of risk to human
health and the environment, and by so doing, informs our priority-setting, ensures credibility
for our policies, and guides our deployment of resources. It gives us the understanding, the
framework, and technologies we need to detect, abate, and avoid environmental problems.

Among the Agency’s highest priorities are research programs that address: the development
of alternative techniques for prioritizing chemicals for further testing through computational
toxicology; the environmental effects on children’s health; the potential risks and effects of
manufactured nanomaterials on human health and the environment; the impacts of global
change and providing information to policy makers to help them adapt to a changing climate;
the potential risks of unregulated contaminants in drinking water; the health effects of air
pollutants such as particulate matter; the protection of the nation’s ecosystems; and the
provision of near-term, appropriate, affordable, reliable, tested, and effective technologies
and guidance for potential threats to homeland security. EPA also supports regulatory
decision-making with chemical risk assessments.

For FY 2012, the full cost of the Agency’s Research and Development activities totaled
approximately $714M. Below is a breakout of the expenses (dollars in thousands):

                                     FY2008     FY2009     FY2010     FY2011     FY2012
      Programmatic Expenses          597,080    600,552    590,790    597,558    580,278
      Allocated Expenses             103,773    119,630     71,958     80,730    133,637

See Section II of the PAR for more detailed information on the results of the Agency’s
investment in research and development. Each of EPA’s strategic goals has a Science and
Research Objective.


13-1-0054                                                                                  102

INVESTMENT IN THE NATION’S INFRASTRUCTURE:

The Agency makes significant investments in the nation’s drinking water and clean water
infrastructure. The investments are the result of three programs: the Construction Grants
Program which is being phased out and two State Revolving Fund (SRF) programs.

Construction Grants Program: During the 1970s and 1980s, the Construction Grants Program
was a source of Federal funds, providing more than $60 billion of direct grants for the
construction of public wastewater treatment projects. These projects, which constituted a
significant contribution to the nation's water infrastructure, included sewage treatment plants,
pumping stations, and collection and intercept sewers, rehabilitation of sewer systems, and
the control of combined sewer overflows. The construction grants led to the improvement of
water quality in thousands of municipalities nationwide.

Congress set 1990 as the last year that funds would be appropriated for Construction Grants.
Projects funded in 1990 and prior will continue until completion. After 1990, EPA shifted the
focus of municipal financial assistance from grants to loans that are provided by State
Revolving Funds.

State Revolving Funds: EPA provides capital, in the form of capitalization grants, to state
revolving funds which state governments use to make loans to individuals, businesses, and
governmental entities for the construction of wastewater and drinking water treatment
infrastructure. When the loans are repaid to the state revolving fund, the collections are used
to finance new loans for new construction projects. The capital is reused by the states and is
not returned to the Federal Government.

The Agency also is appropriated funds to finance the construction of infrastructure outside
the Revolving Funds. These are reported below as Other Infrastructure Grants.

The Agency’s investments in the nation’s Water Infrastructure are outlined below (dollars in
thousands):

                                      FY 2008 FY 2009 FY2010 FY2011 FY2012
   Construction Grants                  11,517  30,950    18,186    35,339    14,306
   Clean Water SRF                   1,063,825 836,502 2,966,479 2,299,721 1,925,057
   Drinking Water SRF                  816,038 906,803 1,938,296 1,454,274 1,240,042
   Other Infrastructure Grants         388,555 306,366 264,227 269,699 196,085
   Allocated Expenses                  396,253 414,460 631,799 548,375 777,375

See the Goal 2 – Clean and Safe Water portion in Section II of the PAR for more detailed
information on the results of the Agency’s investment in infrastructure.



13-1-0054                                                                                     103

HUMAN CAPITAL

Agencies are required to report expenses incurred to train the public with the intent of
increasing or maintaining the nation’s economic productive capacity. Training, public
awareness, and research fellowships are components of many of the Agency’s programs and
are effective in achieving the Agency’s mission of protecting public health and the
environment, but the focus is on enhancing the nation’s environmental, not economic,
capacity.

The Agency’s expenses related to investments in the Human Capital are outlined below
(dollars in thousands):

                                     FY 2008 FY 2009 FY2010 FY2011 FY2012
    Training and Awareness Grants     30,768 37,981 25,714 23,386 21,233
    Fellowships                        9,650   6,818   6,905  9,538 10,514
    Allocated Expenses                 7,025   8,924   3,973  4,448  7,311




13-1-0054                                                                              104

                             Environmental Protection Agency 

                Supplemental Information and Other Reporting Requirements 

                          Balance Sheet for Superfund Trust Fund 

                    For the Periods Ending September 30, 2012 and 2011 

                                   (Dollars in Thousands)

                                        (Unaudited) 



                                                         FY 2012             FY 2011
AS S ETS
Intragovernmental:
    Fund Balance With Treasury (Note S1)          $             95,604   $           114,540
    Investments                                              3,305,130           3,577,146
    Accounts Receivable, Net                                     6,353              10,560
    Other                                                        7,595               8,076
Total Intragovernmental                           $          3,414,682   $       3,710,322

Accounts Receivable, Net                                       368,438             454,606
Property, Plant & Equipment, Net                               105,921             109,272
Other                                                              838               1,006
   Total Assets                                   $          3,889,879   $       4,275,206




LIABILITIES
Intragovernmental:
    Accounts Payable and Accrued Liabilities                   40,941                 53,778
    Other                                                      48,662                 61,080
Total Intragovernmental                           $            89,603    $           114,857

Accounts Payable & Accrued Liabilities            $            137,260   $         141,464
Pensions & Other Actuarial Liabilities                           8,137               7,778
Cashout Advances, Superfund (Note S2)                          735,837             790,069
Payroll & Benefits Payable                                      47,546              47,174
Other                                                           36,808              30,244
   Total Liabilities                              $          1,055,191   $       1,131,587


NET POS ITION
Cumulative Results of Operations                             2,834,688           3,143,619
Total Net Position                                           2,834,688           3,143,619
  Total Liabilities and Net Position              $          3,889,879   $       4,275,206




        The accompanying notes are an integral part of these financial statements.


13-1-0054                                                                                105

                          Environmental Protection Agency 

             Supplemental Information and Other Reporting Requirements 

                   Statement of Net Cost for Superfund Trust Fund 

                 For the Periods Ending September 30, 2012 and 2011 

                                (Dollars in Thousands) 

                                     (Unaudited)


                                                    FY 2012                 FY 2011

 COS TS

     Gross Costs                        $                 1,705,893 $             1,908,317
     Expenses from Other Appropriations (Note S5)           161,844                  71,457
      Total Costs                                         1,867,737               1,979,774
      Less:
     Earned Revenue                                           305,301                 532,006

 NET COS T OF OPERATIONS                $               1,562,436       $       1,447,768




      The accompanying notes are an integral part of these financial statements.
13-1-0054                                                                                  106

                           Environmental Protection Agency 

             Supplemental Information and Other Reporting Requirements 

             Statement of Changes in Net Position for Superfund Trust Fund 

                  For the Periods Ending September 30, 2012 and 2011 

                                 (Dollars in Thousands) 

                                      (Unaudited) 



                                                              FY 2012             FY 2011
                                                             Earmarked          Earmarked
                                                               Funds              Funds
   Cumulative Results of Operations:

   Net Position - Beginning of Period                          3,143,619         3,340,498
       Beginning Balances, as Adjusted                 $       3,143,619    $    3,340,498

   Budgetary Financing S ources:
         Nonexchange Revenue - Securities Investment              26,879            27,266
         Nonexchange Revenue - Other                               6,517             3,596
         Transfers In/Out                                        (42,117)          (35,410)
         Trust Fund Appropriations                             1,075,367         1,156,073
         Income from Other Appropriations (Note S5)              161,844            71,457
      Total Budgetary Financing Sources                $       1,228,490 $       1,222,982

   Other Financing S ources (Non-Exchange)
         Transfers In/Out                                             -                  1
         Imputed Financing Sources                               25,015             27,906
      Total Other Financing Sources                    $         25,015     $       27,907

       Net Cost of Operations                                 (1,562,436)        (1,447,768)

       Net Change                                               (308,931)         (196,879)

   Cumulative Results of Operations                    $       2,834,688    $    3,143,619




       The accompanying notes are an integral part of these financial statements.

13-1-0054                                                                                      107

                                  Environmental Protection Agency 

                    Supplemental Information and Other Reporting Requirements 

                     Statement of Budgetary Resources for Superfund Trust Fund 

                         For the Periods Ending September 30, 2012 and 2011 

                                        (Dollars in Thousands)
                                             (Unaudited)
                                                                                                 FY 2012             FY 2011
BUDGETARY RESOURCES
Unobligated Balance, Brought Forward, October 1:                                             $      2,035,484    $      2,059,687
      Unobligated balance brought forward, October 1, as adjusted                                   2,035,484           2,059,687
Recoveries of Prior Year Unpaid Obligations                                                          168,015             154,843
Other changes in unobligated balance                                                                       -                      1
Unobligated balance from prior year budget authority, net                                           2,203,499           2,214,531
Appropriations (discretionary and mandatory)                                                        1,211,593           1,292,883
Spending authority from offsetting collections (discretionary and mandatory)                         230,695             375,452
Total Budgetary Resources                                                                    $      3,645,787    $      3,882,867


STATUS OF BUDGETARY RESOURCES
Obligations incurred                                                                         $      1,766,377    $      1,847,383
Unobligated balance, end of year:
   Apportioned                                                                                      1,875,277           2,033,533
   Unapportioned                                                                                        4,133              1,951
Total unobligated balance, end of period                                                            1,879,410           2,035,484
Total Status of Budgetary Resources (Note S6)                                                $      3,645,787    $      3,882,867


CHANGE IN OBLIGATED BALANCE
Unpaid Obligations, Brought Forward, October 1 (gross )                                      $      1,570,749    $      1,692,915
Uncollected customer payments from Federal Sources, brought forward, October 1                       (122,402)          (123,366)
   Obligated balance, start of year (net), before adjustments                                       1,448,347           1,569,549
Obligated balance, start of year (net), as adjusted                                                 1,448,347           1,569,549
Obligations incurred                                                                                1,766,377           1,847,383
Outlays (gross)                                                                                    (1,767,406)         (1,814,706)
Change in uncollected customer payments from Federal sources                                         (107,125)                 (965)
Recoveries of prior year unpaid obligations                                                          (168,015)          (154,843)
Obligated balance, end of period
   Unpaid obligations, end of year (gross)                                                          1,401,705           1,570,749
   Uncollected customer payments from Federal sources, end of year                                    (15,277)          (122,402)
Obligated balance, end of period (net)                                                       $      1,386,428    $      1,448,347


BUDGET AUTHORITY AND OUTLAYS, NET:
Budget authority, gross (discretionary and mandatory)                                        $      1,442,288    $      1,668,336
Actual offsetting collections (discretionary and mandatory)                                          (337,820)          (751,805)
Change in uncollected customer payments from Federal sources (discretionary and mandatory)           (107,125)                 (965)
Budget authority, net (discretionary and mandatory)                                          $       997,344     $       915,566


Outlays, gross (discretionary and mandatory) (Note S6)                                       $      1,767,406    $      1,814,706
Actual offsetting collections (discretionary and mandatory) (Note S6)                                (337,820)          (376,417)
Outlays, net (discretionary and mandatory)                                                          1,429,586           1,438,289
Distributed offsetting receipts (Notes S6)                                                            (45,413)            (97,623)
Agency outlays, net (discretionary and mandatory)                                            $      1,384,173    $      1,340,666


          The accompanying notes are an integral part of these financial statements.
13-1-0054                                                                                                                108
                          Environmental Protection Agency 

             Supplemental Information and Other Reporting Requirements 

                Related Notes to Superfund Trust Financial Statements 

                 For the Periods Ending September 30, 2012 and 2011 

                                (Dollars in Thousands) 

                                     (Unaudited) 


Note S1. Fund Balance with Treasury for Superfund Trust

Fund Balance with Treasury for the Superfund as of September 30, 2012 and 2011 is $95.6
million and $114.5 million, respectively. Fund balances are available to pay current
liabilities and to finance authorized purchase commitments (see Status of Fund Balances
below).

      Status of Fund Balances:                                 FY 2012           FY 2011

      Unobligated Amounts in Fund Balance:
       Available for Obligation                      $        1,875,277 $       2,033,533
       Unavailable for Obligation                                 4,133             1,951
      Net Receivables from Invested Balances                 (3,171,409)       (3,368,754)
      Balances in Treasury Trust Fund                             1,723                15
      Obligated Balance not yet Disbursed                     1,385,880         1,447,795

         Totals                                      $          95,604 $        114,540




The funds available for obligation may be apportioned by the OMB for new obligations at
the beginning of the following fiscal year. Funds unavailable for obligation are mostly
balances in expired funds, which are available only for adjustments of existing obligations.

Note S2. Cashout Advances, Superfund

Cashout Advances are funds received by EPA, a state, or another PRP under the terms of a
settlement agreement (e.g., consent decree) to finance response action costs at a specified
Superfund site. Under CERCLA Section 122(b)(3), cashout funds received by EPA are
placed in site-specific, interest bearing accounts known as special accounts and are used for
potential future work at such sites in accordance with the terms of the settlement agreement.
Funds placed in special accounts may be used by EPA or disbursed to PRPs, to states that
take responsibility for the site, or to other Federal agencies to conduct or finance response
actions in lieu of EPA without further appropriation by Congress. As of September 30, 2012
and 2011, cashout advances are $736 million and $790 million.



13-1-0054                                                                                      109

Note S3. Superfund State Credits

Authorizing statutory language for Superfund and related Federal regulations require states to
enter into SSCs when EPA assumes the lead for a remedial action in their state. The SSC
defines the state’s role in the remedial action and obtains the state’s assurance that they will
share in the cost of the remedial action. Under Superfund’s authorizing statutory language,
states will provide EPA with a 10 percent cost share for remedial action costs incurred at
privately owned or operated sites, and at least 50 percent of all response activities (i.e.,
removal, remedial planning, remedial action, and enforcement) at publicly operated sites. In
some cases, states may use EPA approved credits to reduce all or part of their cost share
requirement that would otherwise be borne by the states. Credit is limited to state site-
specific expenses EPA has determined to be reasonable, documented, direct out-of-pocket
expenditures of non-Federal funds for remedial action.

Once EPA has reviewed and approved a state’s claim for credit, the state must first apply the
credit at the site where it was earned. The state may apply any excess/remaining credit to
another site when approved by EPA. As of September 30, 2012, the total remaining state
credits have been estimated at $24.7 million. The estimated ending credit balance on
September 30, 2011 was $22.2 million.

Note S4. Superfund Preauthorized Mixed Funding Agreements

Under Superfund preauthorized mixed funding agreements, PRPs agree to perform response
actions at their sites with the understanding that EPA will reimburse them a certain
percentage of their total response action costs. EPA's authority to enter into mixed funding
agreements is provided under CERCLA
                                          Section 111(a)(2). Under CERCLA
                                                                              Section
122(b)(1), as amended by SARA, PRPs may assert a claim against the Superfund Trust Fund
for a portion of the costs they incurred while conducting a preauthorized response action
agreed to under a mixed funding agreement. As of September 30, 2012, EPA had 3
outstanding preauthorized mixed funding agreements with obligations totaling $4.7 million.
As of September 30, 2011, EPA had 4 such agreements for $11.5 million. A liability is not
recognized for these amounts until all work has been performed by the PRP and has been
approved by EPA for payment. Further, EPA will not disburse any funds under these
agreements until the PRP’s application, claim, and claims adjustment processes have been
reviewed and approved by EPA.

Note S5. Income and Expenses from other Appropriations; General Support Services
Charged to Superfund

The Statement of Net Cost reports costs that represent the full costs of the program outputs.
These costs consist of the direct costs and all other costs that can be directly traced, assigned
on a cause and effect basis, or reasonably allocated to program outputs.


13-1-0054                                                                                      110
During FYs 2012 and 2011, the EPM appropriation funded a variety of programmatic and
non-programmatic activities across the Agency, subject to statutory requirements. This
appropriation was created to fund personnel compensation and benefits, travel, procurement,
and contract activities. This distribution is calculated using a combination of specific
identification of expenses to Reporting Entities, and a weighted average that distributes
expenses proportionately to total programmatic expenses. As illustrated below, this estimate
does not impact the consolidated totals of the Statement of Net Cost or the Statement of
Changes in Net Position.

                                 FY 2012                                    FY 2011
                 Income from      Expenses from             Income from     Expenses from
                    Other            Other         Net         Other           Other              Net
                Appropriations   Appropriations   Effect   Appropriations   Appropriations       Effect
 Superfund    $       161,844         (161,844) $      - $        71,457          (71,457) $              -
 All Others          (161,844)         161,844         -         (71,457)          71,457                 -
  Total       $              - $              - $      - $              - $              - $              -




Note S6. Reconciliation of the Statement of Budgetary Resources to the President’s Budget

Budgetary resources, obligations incurred, and outlays, as presented in the audited FY 2012
Statement of Budgetary Resources, will be reconciled to the amounts included in the FY
2013 Budget of the United States Government when they become available. The Budget of
the United States Government with actual numbers for FY 2012 has not yet been published.
We expect it will be published by early 2013, and it will be available on the OMB website at
http://www.whitehouse.gov. The actual amounts published for the year ended September 30,
2011 are listed immediately below:

                                                 Budgetary                      Offsetting
                  FY 2011
                                                 Resources      Obligations      Receipts     Net Outlays
Statement of Budgetary Resources             $    3,882,867 $     1,847,384 $      97,623 $     1,438,289
Rounding Differences**                                  133             616           377            (289)
Reported in Budget of the U. S. Government   $   3,883,000 $     1,848,000 $      98,000 $     1,438,000

         * Balances are rounded to millions in the Budget Appendix.




13-1-0054                                                                                                 111

Note S7. Superfund Eliminations

The Superfund Trust Fund has intra-agency activities with other EPA funds which are
eliminated on the consolidated Balance Sheet and the Statement of Net Cost. These are listed
below:

                                                   FY 2012       FY 2011
                   Advances                       $ 6,152      $ 5,506
                   Expenditure Transfer Payable   $ 18,243     $ 28,663
                   Accrued Liabilities            $ 1,765      $     950
                   Expenses                       $ 30,060     $ 25,337
                   Transfers                      $ 32,018     $ 35,410




13-1-0054                                                                                112

                                                                                  Appendix II

                  Agency Response to Draft Report

                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460

                                           November 9, 2012
                                                                                      OFFICE OF THE
                                                                                 CHIEF FINANCIAL OFFICER




MEMORANDUM

SUBJECT: 	 Audit of EPA’s Fiscal Year 2012 and 2011 Consolidated Financial Statements

FROM: 	       Barbara J. Bennett    /s/ Original Signed By Maryann Froehlich for:
              Chief Financial Officer

TO:	          Arthur A. Elkins, Jr.
              Inspector General

This memorandum transmits the agency’s response to the Office of Inspector General’s Draft
Audit Report, dated November 6, 2012. Detailed corrective action plans will be provided to you
and your staff within 90 days of the issuance of the final audit report.

Implementing our new financial system, Compass, was a tremendous undertaking for the agency
this year. While implementation of the system presented its challenges, it also presented
opportunities for the EPA to develop business process changes and enhancements that will
strengthen the EPA’s financial management. We worked with our agency partners with a focus
on strengthening fiscal integrity, enhancing core business operations and contributing to
agencywide performance management systems. We engaged all parts of the agency in fiscal
stewardship yielding significant results. We are proud of the accomplishments we made during
this period of transition.

Thank you for identifying additional areas for improvement in the Draft Audit Report. The audit
work performed will help shape the agency’s future financial management initiatives. Please let
me know if you have any questions or your staff can contact Stefan Silzer, Director, Office of
Financial Management of (202) 564-5389 regarding the audit.


Attachment



13-1-0054	                                                                                    113

cc: 	Craig Hooks, Assistant Administrator, Office of Administration and Resources Management
     Cynthia Giles, Assistant Administrator, Office of Enforcement and Compliance Assurance
     Melissa Heist, Assistant Inspector General for Audit
     Maryann Froehlich, Deputy Chief Financial Officer
     Nanci Gelb, Principal Deputy Assistant Administrator, OARM
     Lawrence Starfield, Principal Deputy Assistant Administrator, OECA
     Joshua Baylson, Associate Chief Financial Officer
     Stefan Silzer, Director, Office of Financial Management
     Raffael Stein, Director, Office of Financial Services
     Quentin Jones, Director, Office of Technology Solutions
     Robert Hill, Deputy Director, Office of Technology Solutions
     David Bloom, Director, Office of Budget
     Ruth Soward, Director, Office of Resources Information Management
     Kathy O’Brien, Director, Office of Planning Analysis & Accountability
     Renee Page, Director, Office of Administration
     Howard Corcoran, Director, Office of Grants and Debarment
     Jeanne Conklin, Deputy Director, Office of Financial Management
     Paul Curtis, Director, Financial Statements Audit
     Jim Wood, Director, Cincinnati Finance Center
     Doug Barrett, Director, RTP Finance Center
     Dany Lavergne, Director, LV Finance Center
     Christopher Osborne, Staff Director, Reporting and Analysis Staff
     John O’Connor, Staff Director, Financial Policy and Planning Staff




13-1-0054	                                                                               114

                                                                                          Attachment

Response to Draft OIG Audit of EPA’s Fiscal 2012 and 2011 Consolidated Financial
Statements

1 - Compass System Limitations are a Material Weakness to EPA’s Accounting Operations
and Internal Controls

 “In October 2011, EPA replaced the Integrated Financial Management System (IFMS) with a new
system, Compass Financials (Compass). The Agency operated IFMS, but a contractor manages
Compass. EPA replaced IFMS to improve the operation of financial management systems,
standardize business processes, and strengthen internal controls. The system replacement required a
major systems conversion and data migration to Compass. As with any major system conversion,
problems were to be expected. We found that when the Agency converted its accounting system, it
had not yet developed all the reports and functions required to generate all the information it needs.
The lack of useful reports and system limitations significantly impaired the effectiveness of EPA’s
accounting operations and internal controls. We determined that the Compass reporting and system
limitations represented a material weakness.”

Response: Do Not Concur.

Agency Position on Finding: We disagree with this conclusion. Initial challenges with
implementation of a new financial system were overcome during the fiscal year. Resources were
fully dedicated to create alternate methodologies for obtaining and analyzing data. Posting logic was
reviewed and corrected. The methods for GL account review and analysis were updated and we
continue to analyze GL accounts. System-created and new-to-Compass-user errors were identified
and corrected. The general limitations of a new system and changes to the “old way” of doing things
were challenges that required additional effort and interim manual procedures. The limitations were
the early problems of the implementation. These limitations have been effectively identified and
fixed or mediated so that there were no material issues during the preparation of the financial
reports, only the normal problems that occur in the collections and verification of information to be
included.

        Posting models - The EPA conducted a thorough review of the system’s accounting
         models to ensure the integrity of the accounting transactions and financial statements.
         This was a priority and a major area of focus prior to and post system migration. We
         completed a review of the accounting models prior to Compass implementation by
         October 18, 2011. Our verification activities, included:

             	 verifying that all accounting models were USSGL compliant;
             	 validating the “tie point” accounting model relationships for the posting models;
             	 validating that budgetary accounts were only offset by other budgetary accounts and
                validating that proprietary accounts were only offset by other proprietary accounts;
             	 validating that each current-year appropriation level posting model was accurate to
                ensure that the agency’s current-year authority postings were properly set up for
                accurate reporting in Compass and in FACTS II;
             	 tracing individual general ledger accounts through the accounting models to ensure
                that they were posted consistently though all documents (e.g., EPA verified that the

13-1-0054	                                                                                    115

                general ledger accounts posted by each level of the budget were consistent with
                adjacent levels.); and
             	 validating agency-specific postings for accuracy.

             After migration, EPA continued to proactively analyze and validate accounting models.
             During the first and second quarters of FY 2012, EPA identified accounting model issues,
             corrected them, and made any necessary adjustments in Compass. In May 2012, OCFO
             proactively established an internal weekly meeting to continue the identification of
             accounting model issues. OCFO prioritized and tracked progress in resolving accounting
             model issues. Our accounting model tracker spreadsheet documents this effort. An earlier
             version of the tracker was provided to the OIG after the July 31, 2012 audit status
             meeting. We continue to remain vigilant in our efforts to ensure that Compass accounting
             models are properly recording transactions.

        Compass Reports – The EPA has over 300 reports that are available for our financial
         community. On June 5, 2012, at OIG’s request, EPA provided a complete inventory of
         financial reports that existed for Compass at that time. New and existing reports are
         continually developed or refined based on user requirements. During the learning and
         transition process, EPA experienced some challenges initially, but adapted as our
         understanding grew of Compass’ more robust reporting capacity. Where tools and reports
         were no longer available in some areas, manual processes and reviews were implemented
         to ensure the same level of support for processing transactions, completing functions and
         detecting errors. EPA uses a combination of Compass financial reports, business objects
         reports, and analytical review software to review and reconcile accounting activities.
         EPA missed no major reporting deadlines related to completion of accounting functions.
         Additionally, there are no material errors in the EPA’s general ledger balances.

        Expense Accruals – EPA uses Flexible Definition functionality in Compass. This allows
         specific posting entries to be assigned based on transaction data. The SV 17 document
         type and transaction type is configured to post by Fund Category. For Fund Category of
         TF, the posting model was configured to post to a NULL accounting entry that does not
         update the General Ledger. The posting model was corrected to remove the NULL to
         SV17 accounting entry. The postings associated with the SV reversals with Fund
         Category TF that used the NULL accounting entry were processed in FY 2012 Q4 and
         included in the Final Statements.
         This eliminated any impact that the initial NULL posting may have had on the FY 2012
         Financial Statements. To date, there have been no other impacted transactions identified
         related to this posting model issue.

        GL Account Analysis – EPA did not discontinue its GL account analysis processes. The
         Reporting and Analysis Staff in the Office of Financial Management does a quarterly
         comparative GL account analysis at the financial statement line-item level as well as
         other analysis, as needed.

2 – Posting Models in Compass Materially Misstated General Ledger Activity and Balances

“EPA’s Compass system materially misstated GL activity and balances due to incorrect posting
models. We found incorrect posting models in numerous accounts for obligations, disbursements,

13-1-0054	                                                                                    116

receivables, collections, and revenue. EPA did not properly and thoroughly review the posting
models before migration from IFMS to Compass. Further, EPA did not properly review balances in
the financial statements that were a result of incorrect posting models; a posting model is a
reference for document entry that provides default values for posting business transactions in GL
accounts. Incorrect posting models reflect an internal control weakness and an indication that EPA
did not exercise proper oversight over how transactions are processed in its GL. As a result, the
draft financial statements contained material errors that were undetected by the Agency (the final
financial statements were not completed at the time of our review). We noted $331 million in
misstatements in the draft financial statements that Agency management did not detect.”

We recommend that the Chief Financial Officer:

1. Perform a thorough review of all posting models to ensure the proper accounts are impacted.

2. Correct activity in accounts incorrectly impacted by improper posting models.

Response to Recommendations 1 and 2: Concur.

Agency Position on Finding: EPA does not agree that incorrect posting models resulted in material
misstated GL activity and balances. EPA has aggressively reviewed posting models to ensure that
transactions are properly posting to the EPA’s financial accounts and will continue to do so.
However, we will continue to hold weekly meetings with the Finance Centers and other OCFO
offices to address accounting model issues. This approach has served the agency well in 2012 and
resulted in over 130 model issues and related transactions being identified and corrected. Finally,
per milestones agreed upon with the OIG, the agency delivered the draft financial statements prior to
completing its variance analysis, which likely would have identified these errors.

3. Develop internal control procedures to confirm the proper accounts are impacted for all
transactions.

Response to Recommendation 3: Concur.

Agency Position on Finding: The EPA already has in place a number of internal control
procedures. For instance, the Finance Center staff compares feeder system interfaced transactions to
hard copy documentation and approves them. We also periodically review the status of all
documents in Compass to make sure all transactions processed properly. None of these reviews
revealed any significant problems or issues with internal controls. When errors are found, they are
reviewed, corrective actions identified, approved and entered into Compass. OFM will continue to
evaluate and by March 2013 develop internal control procedures to confirm the proper accounts are
impacted for all transactions.

OFM provides oversight and development of accounting models and their impacts through GL
analyses. If discrepancies are found, they are investigated and reviewed for their impact on
transactions and the GL to determine the nature of the matter. Issues are tracked through the
resolution and validation processes. These activities provide reasonable assurance that our GL
balances are correct.




13-1-0054                                                                                     117

     4. Perform analytical reviews of account activity on a quarterly basis to verify account activity is
     reasonable.

     Response to Recommendation 4: Concur.

     Agency Position on Finding: OFM already performs a quarterly comparative analysis based on the
     financial statement line. This analysis highlights unusual variances between fiscal years. The EPA
     will continue to conduct these analytical reviews of account activity on a quarterly basis and more
     frequently, if deemed necessary.
     In addition, the agency does not agree with significant internal controls deficiencies identified in
     the report as contributing internal control weaknesses based on the below reasons.

      Posting models were incorrect for upward/downward adjustments – The Momentum system,
       upon which Compass is based, is fully compliant with federal requirements for processing
       upward and downward adjustments, and is performing this activity correctly per the confirmed
       Compass configuration implemented for this process. In the case of the $54M in Table 2, OIG
       has to view spending adjustment data differently in Compass than in IFMS. Adjustments must be
       viewed individually by the system date and time minute, not aggregated by day. For example, in
       below table showing adjustment data, on July 20, 2012, a user made two separate corrections to
       the Grant Obligation. At 11:52AM, the user decreased the obligation lines. At 12:00PM, the user
       increased the obligation lines. The system determines the spending adjustments as transactions
       process.

 Table 1: Example of pending adjustment data

                                                   7/20/2012
IO    GO    V96558801      1   Correct         1       11:52   USD   USD   48710012    Debit          $500,000.00
                                                   7/20/2012
IO    GO    V96558801      2   Correct         1       11:52   USD   USD   48710012    Debit          $500,000.00
                                                   7/20/2012
IO    GO    V96558801      3   Correct         1       11:52   USD   USD   48710012    Debit          $139,666.00
                                                   7/20/2012
IO    GO    V96558801      4   Correct         1       11:52   USD   USD   48710012    Debit        $3,600,000.00
                                                   7/20/2012
IO    GO    V96558801      5   Correct         1       11:52   USD   USD   48710012    Debit        $4,300,000.00
                                                   7/20/2012
IO    GO    V96558801      1   Correct         1       12:00   USD   USD   48810012    Credit       ($500,000.00)
                                                   7/20/2012
IO    GO    V96558801      3   Correct         1       12:00   USD   USD   48810012    Credit       ($139,666.00)
                                                   7/20/2012
IO    GO    V96558801      4   Correct         1       12:00   USD   USD   48810012    Credit      ($3,600,000.00)
                                                   7/20/2012
IO    GO    V96558801      2   Correct         1       12:00   USD   USD   48810012    Credit       ($500,000.00)
                                                   7/20/2012
IO    GO    V96558801      5   Correct         1       12:00   USD   USD   48810012    Credit      ($4,300,000.00)




     13-1-0054	                                                                                      118

 Misstatements in the EPA’s Draft Financial Statements

   Table 2: Financial Statement Line Items identified by the OIG

                                                                                   Amount
                           Financial Statement Line Items                         (millions)
       Earned Revenue and Net Cost                                                  $184
       Miscellaneous receipt revenue understated                                      87
       Obligations incurred and recoveries of prior year unpaid obligations           54
       Gain on sale of investments                                                      7
       Working capital advance                                                         2
       Total                                                                        $331

Earned Revenue and Net Cost: The error resulted from a failure by OFM to do one of two required
elimination entry adjustments for WCF revenue. This was human error and not a posting model
issue. The need for the elimination entry was identified in the 3rd quarter variance analysis and
shared with OIG. Compass has two ledgers that needed to be eliminated, whereas IFMS only had
one. We failed to do the elimination entry for the second ledger. It is highly likely we would have
caught this mistake in our year-end variance analysis. Going forward we will ensure that we make
both elimination entries.

Miscellaneous Receipt Revenue understated and Gain on Sale of Investments overstated: OFM
corrected the $87 million and $7 million identified in Table 3 in the 15th Month on documents
RAS12568JAN and RAS12569JAN, respectively. These errors were not the result of accounting
model issues. These errors occurred because the Finance Center filled out the input forms in
COMPASS incorrectly. They were provided with the wrong transaction type, entered months as
years causing depreciation errors and followed IFMS practices for disposal causing revenue to be
earned and recorded. OFM processed JV’s in the 15th Month to correct the errors.

                              Table 3: From OFM 3rd Quarter Analysis

5200 Revenue From Services Provided 95,904,042.17 0.47 The variance is primarily due to the
                                                       elimination entry adjustments for the
                                                       working capital intra-agency activity
                                                       where the balance eliminated was much
                                                       lower in the FY 2012 3rd quarter
                                                       compared to the FY 2011 3rd quarter.

3 – Compass Reporting Limitations Impair Accounting Operations and Internal Controls

“EPA has been unable to obtain the reports it needs from Compass for many accounting
applications in FY 2012. OMB requires financial management systems to provide complete, reliable,
consistent, timely, and useful financial information. Compass reporting limitations prevented EPA
from producing many reports it needed for accounting operations. When the Agency converted its
accounting system to Compass, it had not yet developed all the reports and functions required to
generate all the information it needs. The lack of useful reports and information significantly
impairs the effectiveness of EPA’s accounting operations and internal controls.”


13-1-0054                                                                                      119

We recommend that the Chief Financial Officer:

5. 	 Identify Compass reporting problems to provide users with accurate data on a timely basis.

Response to Recommendation 5: Concur.

Agency Position on Finding: OCFO already analyzes the agency’s financial reports, identifies any
concerns and develops new reports for users as needed and will continue to do so.

All of the issues cited by the OIG were based upon observations made during the first six months of
the operation of Compass Financials, the agency’s new financial system. At that time, EPA was in
the midst of learning the intricacies of the new system and applying this knowledge to reengineer
day-to-day business processes. This allowed the agency to take advantage of the many features of
the modern system to best meet the agency’s business needs. EPA disclosed and discussed this
approach with the OIG in December 2011.

To the maximum extent practicable, EPA adapted our business practices to take immediate
advantage of the new system. For example, Compass allowed us to streamline accounts receivable
processes by moving from reconciliation of accounts receivable based on Servicing Finance Offices
to a centralized approach. Reconciliation of ARs at the SFO level was a “hold over” practice prior to
the establishment of our current finance center structure when our regional offices performed
accounting functions. As we adopted a centralized approach, we found that we were able to cancel a
policy on
July 11, 2012, that required the finance centers to perform monthly reconciliations of ARs. See
http://intranet.epa.gov/ocfo/policies/direct/2540-09-t2.pdf

In other cases, we decided to defer adoption of automated features available in Compass. For
example, we deferred adoption of the full capabilities of Compass to support the Fund Balance with
Treasury. Instead, we utilized a process within Compass very similar to the process used in the
Integrated Financial Management System, the agency’s previous financial management system. The
EPA adopted this approach based on hands-on daily experience with Compass gained during the first
six months of operations and in consideration of change management principles for the successful
implementation of financial systems.

In addition, the agency does not agree that reporting limitations identified in the report significantly
impair the effectiveness of the agency’s accounting operations and internal controls in the following
areas.

 Accounts receivable reconciliation - EPA successfully corrected the accounts receivable
  beginning balances along with interest penalty and handling charges in Compass. The Finance
  Centers manually computed beginning balances for interest and handling penalty charges. CGI
  made configuration changes to calculate the FY 2012 amounts. Although the Finance Centers did
  not perform monthly accounts receivable reconciliations and certifications, they reconciled, at
  the detail level, the beginning balances and current year activities to the accounts receivable
  documents for FY 2012. As discussed in an August 24, 2012 meeting, The OFM performed and
  completed in August a reconciliation that verified the general ledger balances to the subsidiary
  ledger balances. Additionally, the OFM issued Resource Management Directive System 2540-9,
  “Receivables and Billings, Technical Release 2,” to rescind the requirement for monthly
  reconciliations and certification while a new procedure is being developed for Compass in FY
13-1-0054	                                                                                      120

   2013. A copy of RMDS 2540-9-T2 is available online at
   http://intranet.epa.gov/ocfo/policies/direct/2540.htm

 Allowance for doubtful accounts - Allowances for Doubtful Accounts reports were never
  automatically generated in IFMS; Finance Centers manually computed the ADA in spreadsheets.
  There is, however, an ADA report in CBOR which is now available as of the end of FY 2012
  and in use. Issues preventing calculation and recording of ADA were resolved. All Finance
  Center accounts receivable, now reflect the correct balances for principal, interest, penalty and
  handling charges. For FY 2012, we booked the ADA for year end.

 Fund balance with Treasury - EPA agrees with the stated condition that sections II and III of
  the Compass SF-224 are inaccurate. However, the EPA has historically manually reconciled and
  reported data from sections II and III. The fact that the EPA continues to use manual
  reconciliation in the Compass environment is consistent with the EPA’s past practices and does
  not create vulnerability or any workload impacts. Due to the changing Treasury reporting
  process, a determination not to automate the Compass SF-224 was made at this time. The agency
  will continue to use a manual process.

 Suspense accounts - The monthly CBOR report that allows Finance Centers to review and clear
  suspense accounts is now available. The OFM will provide the first FY 2013 report to Finance
  Centers in November 2012, and reports subsequent to November 2012 will be provided by the
  10th of the following month. In FY 2012, the EPA Finance Centers tracked their suspense
  accounts manually and currently they are being cleared in a timely manner. The OFS
  Certification was provided to the OIG on October 18, 2012.

 Property - The security organization problem was fixed in July 2012. We now have the
  capability to reconcile property from Maximo to Compass.

 Direct asbestos loans - The Direct Loans Treasury Report on Receivables was not generated
  automatically in IFMS. Since all remaining asbestos loans are scheduled to be collected by the
  end of FY 2013, the EPA determined it was not cost effective to pursue automating the Direct
  Asbestos Loans TROR and preferred to manually produce it. Manually creating the report does
  not pose a significant workload to staff nor have any errors been identified because of the lack of
  an automated report.

 General Ledger account analysis – OFM performed GL analysis in all four quarters of FY
  2012. However, at Compass conversion GL analysis by SFO was stopped due to change in
  Compass business procedures. To replace GL analysis by SFO, OFM developed procedures to
  conduct reconciliation in Compass. Compass capabilities allow a central organization to conduct
  GL analysis. GL analysis is one of the areas where we created new reporting tools and adapted
  business methods to meet the agency’s financial management needs. The Agency piloted and
  finalized a new methodology in the last two quarters of FY 2012 and will perform on a routine
  quarterly basis starting in FY 2013.

 A-123 internal control reviews - The agency conducted A-123 reviews as scheduled, and met
  with process owners to identify areas where internal controls needed strengthening. During
  internal EPA review, the agency observed and documented areas where testing could not be
13-1-0054	                                                                                    121

   performed because previously designed tools used to conduct internal control reviews were no
   longer compatible with the Compass environment. This approach is consistent with A-123
   principles, and was a tremendous undertaking. The agency was able to establish and maintain
   internal controls to achieve the objectives of reliable financial reporting and compliance with
   applicable laws and regulations.

 Delays in the completion of some accounting functions - The EPA did not discontinue its GL
  account analysis processes. The Reporting and Analysis Staff in the Office of Financial
  Management does a quarterly comparative GL account analysis at the financial statement line-
  item level as well as other analysis, as needed. Also, CFC posted an estimate for the Unbilled
  Oversight Accrual for quarters 1 through 3 for fiscal 2012. For the fourth quarter of fiscal 2012
  CFC was provided the report needed to complete the Unbilled Oversight Accrual under normal
  procedures. In addition to completing the fourth quarter accrual, CFC staff updated the accrual
  spreadsheet for quarters 1 through 3.

 Material errors in GL balances - Though there were errors, EPA detected most and corrected
  all the material GL errors. We understand there is always a potential for misstatement, regardless
  of the controls in place, but we were vigilant in our stewardship over GL accounts and balances
  to detect any anomalies and errors. In fact, we detected the majority of the GL adjustments and
  corrections that were needed during the internal review processes before they were discovered or
  reported by others.

 The expenditure of time and resources on workarounds - The EPA has historically manually
  reconciled and reported data from sections II and III. The fact that the EPA continues to use
  manual reconciliation in the Compass environment is consistent with the EPA’s past practices
  and does not create vulnerabilities or workload impacts. Due to the changing Treasury reporting
  process, a determination not to automate the Compass SF-224 was made at this time. In terms of
  the Direct Loans Treasury Report on Receivables, it was not generated automatically in IFMS.
  The Agency determined it was not cost effective to pursue automating the Direct Asbestos Loans
  TROR because all remaining asbestos loans are scheduled to be collected by the end of FY 2013.
  Manually creating the report does not pose a significant workload to staff nor have any errors
  been identified as a result of the lack of an automated report.

 When taken as a whole, the Compass reporting limitations and the resulting impairments
  of the EPA’s accounting operations and internal controls represent a material internal
  control weakness - These conditions are quite normal in the implementation of a new system for
  accounting and reporting. Though they may stress or even strain the internal controls, it does not
  indicate that the controls are not working. The risk does increase, but risk is not a criterion in the
  evaluation of the accuracy and completeness of the published information of the reports or
  effectiveness of internal controls. It is the existence rather than the possibility of existence that is
  taken into consideration. Risk determines the intensity of the audit testing required to validate the
  data is presented correctly and fairly represents the financial condition of the reporting entity.
  The discovery and correction of a large number of errors is also perfectly normal in a new
  system implementation of large magnitude. This does not mean the resulting reports are in error
  because they were challenges to produce them and that it required extra manual review and
  correction.




13-1-0054	                                                                                        122

4 - EPA Should Improve Controls Over Expense Accrual Reversals

“EPA did not reverse approximately $108 million of FY 2011 year-end expense accruals in FY
2012. EPA policy requires the liability reported in the financial statements to reflect the value of
goods and services received and accepted but unpaid. The Agency did not reverse the accrual
transactions because the Compass posting configuration for the applicable fund category was
inaccurate and staff recorded the FY 2011 accrual entries without including the reversal period. By
not reversing the accruals timely, EPA overstated the accrued liability and expense amounts by
$108 million and materially misstated the quarterly financial statements.”

We recommend that the Chief Financial Officer:

6. 	Update EPA’s policy for recognizing year-end accruals to require reconciliation of accruals
   and accrual reversals.

Response to Recommendation 6: Concur.

Agency Position on Finding: EPA has already updated its internal control to ensure automated
accrual reversals to occur. EPA posted the necessary adjustments. The agency will update EPA
Policy Announcement Number No. 95-11, “Policies and Procedures for Recognizing Year-End
Accounts Payable and Related Accruals,” by March 2013.

5 – Compass System Limitations Impair Internal Controls of Financial Operations

“Compass experienced several impairments to processing financial transactions. The impacted
transactions included five payment accounting lines that exceeded the related obligation accounting
lines, three transactions posted to an incorrect accounting period, and a payment against a canceled
appropriation. U.S. Government Accountability Office (GAO) guidance states that application
controls should ensure completeness, accuracy, authorization, and validity of all transactions during
application processing. The Department of the Treasury Financial Management Manual states that
canceled appropriation account balances are not available for obligation or expenditure for any
purpose. Compass did not prevent the posting of these invalid transactions because EPA did not
have system controls in place to reject them. The Compass impairments limit EPA’s assurance that
account balances are accurate and Agency managers have useful and reliable financial information
for managing day-to-day operations.”

We recommend that the Chief Financial Officer:

7. Correct the Compass system limitations that allowed (a) payments to exceed the related
obligation accounting lines, (b) transactions to post to an incorrect accounting period, and (c) a
payment to impact a canceled appropriation.

Response to Recommendation 7: Do Not Concur.

Agency Position on Finding: The OCFO has already made the corrections. Proper controls and
tolerance levels to prevent grant payments from exceeding the related obligation accounting lines
were updated in December 2011 (Remedy #316877). In May 2012, the issue of preventing the
improper posting of transactions to prior accounting periods, except via SV and JV transactions, was

13-1-0054	                                                                                     123

corrected (Remedy #359953). OCFO confirmed the Compass table was fixed to prevent spending
against canceled appropriations.

6 - EPA Should Improve Compliance with Internal Controls for Accounts Receivable

“We found numerous deficiencies in EPA’s compliance with accounts receivable internal controls in
FY 2012. Various factors contributed to EPA not properly following its internal control procedures
to ensure timely and accurate recording of accounts receivable. EPA policies require accurate and
timely recording of accounts receivable and proper separation of duties. Noncompliance with
accounts receivable controls affects the reliability and integrity of accounts receivable on the
financial statements.”

We recommend that the Assistant Administrator for Enforcement and Compliance Assurance:

8. Forward judicial documents to the financial center.

Response to Recommendation 8: Do Not Concur.

Agency Position on Finding: In Recommendation 8, the OIG recommends that the Office of
Enforcement and Compliance Assurance (OECA), presumably the Regions, as appropriate, forward
judicial documents to the Financial Centers. Underlying this recommendation is the assumption that
the EPA’s attorneys first receive and then provide to the Department of Justice (DOJ) documentation
of civil judicial obligations requiring the payment of amounts certain. Such payments to the United
States include civil penalties, amounts due in the recovery of costs incurred under the
Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA also known
as “Superfund”), or cash-out payments to resolve CERCLA liability.

In fact, DOJ and not the EPA first receives entered consent decrees or other civil judicial orders that
require the payment of sums certain in enforcement cases filed on behalf of the EPA. Typically, the
DOJ attorney of record in a civil environmental enforcement case receives a copy of the order
entering a civil judicial consent decree or other order imposing the obligation for the defendant to
pay an amount certain. The DOJ attorney of record then provides the consent decree or other order to
the EPA attorney assigned to the case, which can take several days. Accordingly, DOJ, not the EPA,
is in the best position to provide documentation in civil judicial cases to the Cincinnati Finance
Center (CFC) within five business days of the date on which the consent decree or other order is
entered by the court.

For this reason, the EPA already has a process in place whereby DOJ’s Environment and Natural
Resources Division (ENRD) has agreed to transmit judicial documents to CFC. In the case of
payments due to the U.S. under cases referred to DOJ under CERCLA, the EPA has an Interagency
Agreement (IAG) in place with DOJ. Under the IAG, once a case has been settled under the terms of
an entered consent decree or other court judgment, DOJ is responsible for transmitting the
supporting documentation to CFC so that it can promptly record the required accounts receivable for
those cases. Specifically, the IAG requires that “[w]ithin seven [calendar] days of receipt of notice of
entry of a consent decree or other Federal court judgment that requires payment of a sum certain to
the EPA, DOJ ENRD will send electronic notification of such entry, and attach a copy of the consent
decree and/or judgment, as entered, to accountsreceivable.cinwd@epa.gov.”


13-1-0054                                                                                       124

In the case of non-CERCLA cases referred to DOJ, ENRD has also agreed to provide civil judicial
documents to CFC under the same process followed for CERCLA cases. Indeed, 2540-9-P3
(Procedure 3) of the Resource Management Directive System (RMDS), which governs non-
CERCLA cases, provides that it is the responsibility of the DOJ to email CFC supporting
documentation for all penalty payments owed to the U.S. pursuant to a judicial order.

Rather than require all the EPA attorneys who are involved in civil judicial matters to duplicate the
work of DOJ in providing documentation to CFC, OECA will engage DOJ management on whether
and the extent to which improvements are needed to ensure the timely transmittal to CFC of judicial
documentation of accounts receivable arising from civil judicial enforcement cases.

Unlike civil judicial cases, administrative enforcement actions are initiated and managed exclusively
by the EPA, usually in the Regional offices. Accordingly, OECA takes responsibility for working
with the Regions and Headquarters offices, where applicable, to ensure that penalty documentation
in CERCLA and non-CERCLA administrative enforcement actions is provided to CFC within 5
business days. Headquarters and the Regions have made significant progress in meeting the 5-
business standard. From May through September 2011, the EPA met this standard 77 percent of the
time. As a result of OECA/CFC-provided training, OECA’s communications with senior Regional
management, and mid-course process improvements, the national performance level has risen from
80 percent for the first half for FY 2012 to an annual average of 85 percent for 3rd and 4th quarters of
FY 2012. Because most of the Regions are now meeting or exceeding the 95 percent performance
level, OECA will be concentrating its additional efforts on those Regions whose performance is not
yet at the 95 percent level.

We recommend that the Chief Financial Officer:

9. Reinforce procedures to monitor all tracking reports. Follow up with regional offices and the U.S.
Department of Justice to obtain legal documents to ensure accounts receivable are recorded timely
in the financial accounting system.

Response to Recommendation 9: Concur.

Agency Position on Finding: CFC already utilizes the DOJ Debt Assessed Report, DOJ 30 Day
Tracking Reports, and the Integrated Compliance Information System (ICIS) Tracking Reports to
review and follow up on documents not received by CFC. CFC compares these reports to the
Compass Data Warehouse (CDW) to determine if receivables have been established. While there
were some delays early in the year due to obtaining CDW query information, these reconciliations
were completed timely by the 4th quarter. CFC will work with staff to ensure these reports are
reviewed timely and fully utilized in obtaining missing documentation.

10. Institute standard operating procedures for entering, tracking, and monitoring accounts
receivable, and ensure adherence to EPA policies and procedures for entering receivables timely
and maintaining adequate and easily accessible source documentation.

Response to Recommendation 10: Concur.

Agency Position on Finding: The CFC will develop standard operating procedures, by June 2013,
for the various types of receivables managed within the office, and will ensure these procedures are

13-1-0054                                                                                        125

in line with agency policy. This has been a transition year for CFC in that some files are now
electronically maintained in Compass. CFC will clarify to staff the requirements for electronic files.

11. Ensure proper separation of duties by having separate individuals perform billing and collecting
functions.

Response to Recommendation 11: Do Not Concur.

Agency Position on Finding: On October 11, 2012, CFC obtained a waiver for IA staff to input
reimbursable billing and collection documents. This waiver was based on the fact that reimbursable
collections do not involve physical cash or checks; they are processed through the Intergovernmental
Payment and Collection (IPAC) System. There are controls in place to ensure that IPAC collections
are recorded in Compass correctly and that the SF-224 is not out of balance.

We recommend that the Assistant Administrator for Administration and Resources Management
direct the Director of the Office of Grants and Debarment to:

12. Create guidance to ensure that grant final determination letters contain required provisions for
late payment and a process for forwarding final determination letters to finance center within 5 days
of the effective date.

Response to Recommendation 12: Concur.

Agency Position on Finding: The OARM's Office of Grants and Debarment (OGD) and OCFO
already created guidance in place to address the issues raised by this recommendation. Specifically,
Part II Section B.3 of the recently revised EPA Audit Manual 2750, Assistance Agreement Audits,
contains, among other things:

	 A provision requiring the Agency Action Official to ensure that the appropriate Financial
   Management Officer is notified of Management Decisions having disallowed costs so that debt
   collection can occur (Section B.3., page 55); and

	 Provisions requiring the Agency Action Official, when notifying a recipient in writing of the 

   Agency’s Management Decision, to include standard payment instructions and notification of 

   the appropriate Finance Center of any disallowed costs so that an accounts receivable can be 

   established in accordance with the requirements of RMDS 2540-9 (Section B.4., page 67).


	 OGD will highlight these provisions in revised IPERA guidance issued to the Agency’s Grants
   Management Officers. This will include emphasizing the need for standard payment instructions
   and a reminder to copy the Las Vegas Finance Center on Management Decision Letters to
   recipients to ensure compliance with the 5-day requirement in RMDS 2540-9-1.

7 - EPA Is Not Clearing Fund Balance with Treasury Statement of Differences Timely

“EPA did not clear Fund Balance with Treasury differences reported on the U.S. Department of the
Treasury’s Statement of Differences within 2 months. Treasury guidance requires that the Agency
clear deposit and disbursement activity differences within “two months of occurrence.” However,
various problems resulting from the Agency’s conversion from IFMS to Compass contributed to the

13-1-0054	                                                                                     126

failure to timely clear Statement of Differences transactions. The problems included the Agency
being unable to process transactions, and encountering posting and accounting model deficiencies
with the new system. EPA reported a combined total of $6,115,632 in differences from October 2011
through February 2012. The failure to clear Statement of Differences transactions compromises the
reliability of EPA’s account balances and misstates disbursement and deposit activity reported
monthly to the Treasury.”

We recommend that the Chief Financial Officer:

13. Require the Director, Office of Financial Management, to correct the Compass accounting and
posting model errors so that users have the ability to process Fund Balance with Treasury
transactions to clear SODs accurately and timely.

Response to Recommendation 13: Do Not Concur.

Agency Position on Finding: In December 2011, OCFO proactively discovered and disclosed all
of the issues cited by the OIG. Early in the year, the EPA was in the midst of learning the intricacies
of the new system and applying this knowledge to reengineer day-to-day business processes. There
was a significant learning curve. The Finance Centers experienced a high volume of rejects because
of tighter budget controls and project notebook edits that occur in Compass. The Centers are now
proficient at resolving rejects and as a result clear cash difference more timely. We also designed
new reports to assist our accountants in performing the reconciliation. In July 2012, we updated the
accounting model and by end of September 2012, the agency resolved the backlog of all the
transactions that required clearing and submitted SF224 reports to Treasury. While there were delays
initially, we are now able to clear differences in a timely manner. The majority of the SOD
differences were the result of timing differences (i.e. difference in reported month of activity) rather
than dollar differences. Since the reported values in the financial reports agreed exactly with the
Treasury balance, the discrepancies in the SOD did not affect the accuracy of the financial reports.

8 – Property Internal Controls Need Improvement

“Compass does not sufficiently reject personal property information entries that are not accurate.
As a result, the Agency could lose accountability and control over property valued in the millions of
dollars. FMFIA, 31 U.S.C. § 3512(c)(1)(B), requires that property and other assets be safeguarded
against waste, loss, unauthorized use, or misappropriation. However, we identified personal
property items for which the location was not properly identified, as well as personal property items
for which the last recorded inventory dates or acquisition dates were in the future. The failure to
properly configure Compass data fields to reject unreasonable entries contributed to the inaccurate
property records.”

We recommend that the Chief Financial Officer:

14. Require the Director, Office of Technology Solutions, to work with the contractor that developed
Compass to build defaults into the Compass software that will eliminate or minimize property record
errors.




13-1-0054                                                                                       127

Response to Recommendation 14: Concur.

Agency Position on Finding: The OTS is already working with the contractor to build the default
into Maximo that will eliminate property record errors and will continue to do so. OARM submitted
a remedy ticket to the Help Desk (Ticket #456982).

15. Correct the property data error described above.

Response to Recommendation 15: Concur.

Agency Position on Finding: Corrective action was taken in August 2012 to reflect correct
inventory dates for the 28 property items that had future acquisition dates (Reference OARM/David
Shelby’s response to Point Sheets 2 & 3). In September 2012, Agency Property Officers reconciled
property records to ensure that the system reflected the correct location for the $2.9 million in assets.
Agency Property Officers will continue to manually monitor until the automated fix is implemented.
In September 2012, OARM conducted a system analysis to ensure that no other assets had the same
discrepancy; none were discovered.

9 – Compass and Maximo Cannot be Reconciled

“EPA cannot reconcile capital equipment property management data within its property
management subsystem—Maximo—to relevant financial data within Compass. OMB Circular A-
123, Management’s Responsibility for Internal Controls, states that one of the objectives of internal
control is the reliability of financial reporting. The inability to reconcile the property subsystem with
Compass can compromise the effectiveness and reliability of financial reporting. Maximo and
Compass primarily cannot be reconciled because historical property data did not migrate properly
from IFMS to Compass.”

We recommend that the Chief Financial Officer:

16. Develop procedures to reconcile capitalized property in the Agency’s financial system with
Maximo.

Response to Recommendation 16: Concur.

Agency Position on Finding: The EPA can reconcile property in Maximo and will document the
procedures for reconciling capitalized property. The Office of Financial Management will develop
these procedures by the second quarter of FY 2013. EPA can reconcile capital equipment within its
property management subsystem – Maximo – to relevant data within Compass. The Finance Centers
recently completed this reconciliation.

10 – EPA Needs to Remediate System Vulnerabilities That Place Financial Data At Risk

“Office of the Chief Financial Officer (OCFO) officials did not monitor the testing of its networked
information technology assets to identify commonly known vulnerabilities or take action to
remediate those weaknesses. EPA policy requires senior Agency officials to ensure security control
reviews are performed for general support systems and major applications under their
organization’s responsibility. We found that the lack of monitoring exists, in part, because EPA’s
Office of Environmental Information took almost 3 years to resolve a long-standing recommendation
13-1-0054                                                                                        128

to define duties and responsibilities for testing networked resources managed under EPA’s service
support contract. Also, OCFO officials should improve the office’s process to ensure known
vulnerabilities are remediated for the equipment it uses to access the Agency’s core financial
application. Information technology assets used by finance center personnel contained 286
commonly known vulnerabilities that, if exploited, could potentially undermine EPA’s financial
reporting capability and serve as available points to compromise the Agency’s network.”

We recommend that the Chief Financial Officer direct the Senior Information Official to:

17. Document a review of OCFO’s processes for conducting vulnerability assessments and create
oversight procedures for monitoring the service provider’s testing of networked resources and the
remediation of any identified weaknesses.

18. Request and monitor to ensure that OEI provides a status update for all identified crucial-risk,
high-risk, and medium-risk vulnerabilities contained in the report. The status update should include
the date when OEI will remediate all the identified vulnerabilities.

19. Request and monitor to ensure that OEI creates plans of action and milestones for all
vulnerabilities that cannot be corrected within 30 days of this report.

20. Request and monitor to ensure that OEI performs a technical vulnerability assessment test of the
finance centers’ network resources to confirm completion of remediation activities and provide
written certification to OCFO that vulnerabilities have been remediate.

Response to Recommendation 17, 18, 19 and 20: Do Not Concur.

Agency Position on Finding: OCFO currently conducts vulnerability assessments for all our
general support systems and major applications as directed by National Institutes of Standards and
Technology (NIST) guidelines, specifically adhering to NIST 800-37, “Guide for Applying the Risk
Management Framework to Federal Information Systems,” and NIST 800-53, “Recommended
Security Controls for Federal Information Systems and Organizations.” All general support systems
and major applications undergo risk assessments (as mandated by NIST Risk Management
Framework certification) every three years or as the affected application or system implements
major modifications. Per the NIST guidelines and EPA policy, a Plan of Action and Milestones are
created to address and remediate any weakness or threats identified by the scans.

OEI is responsible for providing continuous monitoring assessments for the network and general
support system that OCFO relies on. The description of the Working Capital Fund Customer
Technology Solutions Service (CT) clearly states that “CTS support services provide procurement,
configuration, installation, and asset management of all personal computing and printing services for
all EPA Headquarters Program Offices, their respective remote locations, and on-site contractors.”
Moreover, the technical terms and conditions state that “CTS equipment is installed with the latest
EPA approved software and up-to-date computer security protection.” It is not in OCFO’s purview
to monitor OEI’s contractors. Therefore it is not “incumbent upon OCFO officials to have a process
to closely monitor the contractor to ensure it conducts its responsibilities for testing the finance
center’s networked resources as prescribed and that the contractor immediately remediates all noted
vulnerabilities.”


13-1-0054                                                                                     129

11 – OCFO Financial Systems Security Documentation Needs Improvement

“EPA lacks reliable information on the implementation of required security controls for key
financial applications at the Research Triangle Park Finance Center. Our analysis disclosed that
key applications’ system security plans contained numerous instances of incomplete or inaccurate
information for the four minimally required control areas reviewed. Federal guidance requires key
documents such as system security plans and contingency plans to be annually reviewed and
updated as needed. OCFO had not implemented a process to review the completeness and accuracy
of system security plans information, delineated what organizations within OCFO were responsible
for maintaining this documentation, or ensured that personnel performing key information security
duties were trained to assume those duties. Inaccurate information calls into question the veracity
and credibility of the processes OCFO uses to authorize its systems to operate, and places into doubt
whether OCFO implemented security controls necessary to protect the confidentiality, integrity, and
availability of EPA’s financial data.”

We recommend that the Chief Financial Officer direct the Senior Information Official to:

21. Develop and implement a process to review SSP information for accuracy and completeness.
Response to Recommendation 21: Concur.

Agency Position on Finding: OCFO already has a process in place and is using it. The Application
Security Officer prepares the SSP. The individual office Information Security Officer (ISO); e.g.,
OTS, reviews the document before it is forwarded to the OCFO Information Security Officer,
Information Management Officer, and Senior Information Official for review and approval.

22. Issue a memorandum to the Office of Technology Solutions Director outlining the roles and
responsibilities for reviewing and maintaining the SSP documentation for financial applications
formerly maintained by the RTPFC technical personnel.

Response to Recommendation 22: Concur.

Agency Position on Finding: The SIO will issue this memorandum by January 2013.

23. Document a review of the skills and qualifications of the OCFO Information Security Officers
and provide necessary specialized training that would equip them to perform their duties as required
by federal government policy.

Response to Recommendation 23: Concur.

Agency Position on Finding: The OCFO will conduct and document such a review by March
2013.

24. Document a review of SSPs for all OCFO-owned and managed financial applications located at
Research Triangle Park and have them updated to reflect current information as required by the
National Institute of Standards and Technology.

Response to Recommendation 24: Concur.


13-1-0054                                                                                    130

Agency Position on Finding: The OTS, as the system owner for the RTP systems, will review the
consolidated SSP under development for the payment systems by April 2013.

12 – EPA Needs To Improve Its Process for Reviewing Controls Over Financial Reporting

“EPA has limited assurance that Compass internal controls over financial reporting are designed
and operating as intended. Compass, EPA’s new core financial application, is managed and hosted
by a service provider through a contract. Federal guidance requires agencies using service
providers for financial management to ensure that these service providers assess the design and
operating effectiveness of internal controls over financial reporting. Industry accounting standards
require service providers to evaluate controls over those activities affecting its customers’ financial
reporting. EPA did not identify its critical business processes that impact financial reporting or
require its service provider to identify and assess those processes it performs on the Agency’s behalf.
Without an assessment of its service provider’s control environment, EPA faces the potential that a
critical business failure by the service provider could impact the Agency’s ability to provide reliable
financial reporting.”

We recommend that the Chief Financial Officer direct the Director of the Office of Technology
Solutions to:

25. Identify the critical business processes performed by the service provider upon which EPA relies
for financial reporting.

Response to Recommendation 25: Do Not Concur.

Agency Response to Finding: The EPA owns Compass and implicitly, the reporting functionality
therein. Therefore, the EPA does not rely on the service provider for financial reporting.

Compass is COTS software EPA procured from CGI and modified to meet the Agency's
requirements. Compass has a life of two years or more, is not intended for sale, and has been
constructed with the intention of being used by the EPA only.

Compass falls under the definition in SFFAS #10 paragraph 9 as internal use software. Under
SFFAS #10 paragraph 15 entities should capitalize the cost of software when such software meets
the criteria of general, plant, and equipment. In its basis for conclusion (SFFAS #10 paragraph #38),
the FASAB board clarified that internal use software meets the criteria of PP&E specifically
identifiable, can have determinate lives of 2 years or more, is not intended for sale in the ordinary
course of operations, and has been acquired or constructed with the intention of being used by the
entity

   SFFAS Paragraph 9 Definition of Internal Use Software

    This definition of internal use software encompasses the following:

    a. Commercial off-the-shelf (COTS) software: COTS software refers to software that is

    purchased from a vendor and is ready for use with little or no changes 


    b. Developed software: (1) Internally developed software refers to software that employees of
    the entity are actively developing, including new software and existing or purchased software
    that are being modified with or without a contractor's assistance. (2) Contractor-developed
13-1-0054                                                                                       131

    software refers to software that a federal entity is paying a contractor to design, program, install,
    and implement, including new software and the modification of existing or purchased software.

   SFFAS Software Used as General PP&E Paragraph 15

    15. Entities should capitalize the cost of software when such software meets

    The criteria for general property, plant, and equipment (PP&E). General PP&E is any property,
    plant, and equipment used in providing goods and services.

   Basis for Conclusion Paragraph #38

    The Board believes that the cost of software acquired or developed for internal use that meets the
    SFFAS No. 6 criterion for general PP&E should be capitalized. Internal use software is
    specifically identifiable, can have determinate lives of 2 years or more, is not intended for sale in
    the ordinary course of operations, and has been acquired or constructed with the intention of
    being used by the entity.

26. Require the service provider to assess the identified critical business process controls and report
the results as part of the annual review of controls over financial reporting.

Response to Recommendation 26: Do Not Concur.

Agency Position on Finding: Compass internal controls were evaluated during the Office of
Technology Solution’s FY 2012 A-123 review and no material weaknesses or significant
deficiencies were identified.




13-1-0054                                                                                         132

       Responsible Managers:

       Original Signed By:                                      November 9, 2012
       _________________________________________________________Signature/Date
       Stefan Silzer, Director, Office of Financial Management


       Original Signed By:                                      November 9, 2012
       _________________________________________________________Signature/Date
       Raffael Stein, Director, Office of Financial Services


       Original Signed By Robert Hill for:                        November 8, 2012
       _________________________________________________________Signature/Date
       Quentin X. Jones, Director, Office of Technology Solutions


       Original Signed By Nanci Gelb for:                                  November 8, 2012
       _________________________________________________________Signature/Date
       Craig Hooks, Assistant Administrator for Administration and Resources Management


        Original Signed By:                                                November 8, 2012
       _________________________________________________________Signature/Date
       Cynthia Giles, Assistant Administrator for Enforcement and Compliance Assurance




13-1-0054                                                                              133

                                                                                   Appendix III

                                      Distribution
Office of the Administrator
Chief Financial Officer
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Enforcement and Compliance Assurance
Assistant Administrator for Environmental Information and Chief Information Officer
Assistant Administrator for Solid Waste and Emergency Response
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Chief Financial Officer
Associate Chief Financial Officer
Director, Office of Policy and Resource Management, Office of Administration and
   Resources Management
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Director, Office of Administration, Office of Administration and Resources Management
Director, Office of Civil Enforcement, Office of Enforcement and Compliance Assurance
Director, Office of Site Remediation Enforcement, Office of Enforcement and Compliance
   Assurance
Director, Office of Technology Operations and Planning, Office of Environmental Information
Director, Office of Budget, Office of the Chief Financial Officer
Director, Office of Financial Management, Office of the Chief Financial Officer
Director, Office of Financial Services, Office of the Chief Financial Officer
Director, Research Triangle Park Finance Center, Office of the Chief Financial Officer
Director, Cincinnati Finance Center, Office of the Chief Financial Officer
Director, Las Vegas Finance Center, Office of the Chief Financial Officer
Director, Office of Planning, Analysis, and Accountability, Office of the Chief Financial Officer
Director, Reporting and Analysis Staff, Office of the Chief Financial Officer
Director, Office of Technology Solutions, Office of the Chief Financial Officer
Director, Financial Policy and Planning Staff, Office of the Chief Financial Officer
Acting Director, Accountability and Control Staff, Office of the Chief Financial Officer
Director, Payroll Management and Outreach Staff, Office of the Chief Financial Officer
Agency Audit Follow-Up Coordinator
Audit Follow-Up Coordinator, Office of the Administrator
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-Up Coordinator, Office of Environmental Information
Audit Follow-Up Coordinator, Office of Grants and Debarment, Office of Administration and
   Resources Management
Audit Follow-Up Coordinator, Office of Financial Management, Office of the
   Chief Financial Officer
Audit Follow-Up Coordinator, Office of Financial Services, Office of the Chief Financial Officer


13-1-0054                                                                                    134

